<html>
<title> - TERRORISM AND SOCIAL MEDIA: #ISBIGTECHDOINGENOUGH?</title>
<body><pre>[Senate Hearing 115-316]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-316

                      TERRORISM AND SOCIAL MEDIA: 
                         #ISBIGTECHDOINGENOUGH?

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
                
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-316 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1374637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>               
                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 17, 2018.................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Wicker......................................    25
Statement of Senator Klobuchar...................................    27
Statement of Senator Moran.......................................    30
Statement of Senator Schatz......................................    31
Statement of Senator Markey......................................    33
Statement of Senator Baldwin.....................................    35
Statement of Senator Udall.......................................    37
Statement of Senator Tester......................................    39
Statement of Senator Young.......................................    41
Statement of Senator Blumenthal..................................    42
    Letter dated October 30, 2017 from civil rights, interfaith, 
      and advocacy organizations to Mark Zuckerberg, Chief 
      Executive Officer; and Sheryl Sandberg, Chief Operating 
      Officer, Facebook, Inc.....................................    43
Statement of Senator Cortez Masto................................    46
Statement of Senator Lee.........................................    48
Statement of Senator Hassan......................................    50
Statement of Senator Peters......................................    51
Statement of Senator Cruz........................................    54

                               Witnesses

Monika Bickert, Head of Product Policy and Counterterrorism, 
  Facebook.......................................................     4
    Prepared statement...........................................     6
Juniper Downs, Director, Public Policy and Government Relations, 
  YouTube........................................................     9
    Prepared statement...........................................    10
Carlos Monje, Jr., Director, Public Policy and Philanthropy, U.S. 
  and Canada, Twitter............................................    13
    Prepared statement...........................................    14
Clint Watts, Robert A. Fox Fellow, Foreign Policy Research 
  Institute; Senior Fellow, Center for Cyber and Homeland 
  Security, the George Washington University; and Non-Resident 
  Fellow, Alliance For Securing Democracy, German Marshall Fund 
  of the United States...........................................    17
    Prepared statement...........................................    19

                                Appendix

Statement from the Counter Extremism Project.....................    59
Article dated March 11, 2017 from The Wall Street Journal by 
  Joseph Rago, entitled ``How Algorithms Can Help Beat Islamic 
  State''........................................................    60
Response to written questions submitted to Monika Bickert by:
    Hon. Jerry Moran.............................................    63
    Hon. Ron Johnson.............................................    64
    Hon. Maria Cantwell..........................................    65
    Hon. Richard Blumenthal......................................    66
    Hon. Brian Schatz............................................    69
    Hon. Tammy Baldwin...........................................    73
    Hon. Catherine Cortez Masto..................................    75
Response to written questions submitted to Juniper Downs by:
    Hon. Jerry Moran.............................................    82
    Hon. Ron Johnson.............................................    82
    Hon. Maria Cantwell..........................................    83
    Hon. Richard Blumenthal......................................    84
    Hon. Brian Schatz............................................    86
    Hon. Tammy Baldwin...........................................    89
    Hon. Catherine Cortez Masto..................................    90
Response to written questions submitted to Carlos Monje, Jr. by:
    Hon. Roger Wicker............................................    93
    Hon. Jerry Moran.............................................    95
    Hon. Ron Johnson.............................................    98
    Hon. Maria Cantwell..........................................    99
    Hon. Richard Blumenthal......................................   100
    Hon. Brian Schatz............................................   102
    Hon. Tammy Baldwin...........................................   108
    Hon. Catherine Cortez Masto..................................   111
Response to written questions submitted to Clint Watts by:
    Hon. Jerry Moran.............................................   115
    Hon. Tammy Baldwin...........................................   115

 
                      TERRORISM AND SOCIAL MEDIA: 
                         #ISBIGTECHDOINGENOUGH?

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Cruz, 
Fischer, Moran, Heller, Inhofe, Lee, Capito, Gardner, Young, 
Nelson, Cantwell, Klobuchar, Blumenthal, Schatz, Markey, Udall, 
Peters, Baldwin, Hassan, Cortez Masto, and Tester.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. I want to thank everyone for 
being here to examine what social media companies are doing to 
combat terrorism, including terrorist propaganda and terrorist 
recruitment efforts, online.
    The positive contributions of social media platforms are 
well documented. YouTube, Facebook, and Twitter, among others, 
help to connect people around the world, give voice to those 
oppressed by totalitarian regimes, and provide a forum for 
discussions of every political, social, scientific, and 
cultural stripe. These services have thrived online because of 
the freedom made possible by the uniquely American guarantee of 
free speech and by a light touch regulatory policy.
    But, as is so often the case, enemies of our way of life 
have sought to take advantage of our freedoms to advance 
hateful causes. Violent Islamic terrorist groups like ISIS have 
been particularly aggressive in seeking to radicalize and 
recruit over the Internet and various social media platforms.
    The companies that our witnesses represent have a very 
difficult task: preserving the environment of openness upon on 
which their platforms have thrived, while seeking to 
responsibly manage and thwart the actions of those who would 
use their services for evil. We are here today to explore how 
they are doing that, what works, and what could be improved.
    Instances of Islamic terrorists using social media 
platforms to organize, instigate, and inspire are well 
documented. For example, the killer responsible for the Orlando 
nightclub shooting, in which 49 innocent people were murdered 
and 53 were injured, was reportedly inspired by digital 
material that was readily available on social media.
    And this issue is not new. Over the course of several 
years, YouTube hosted hundreds of videos by senior al Qaeda 
recruiter Anwar al-Awlaki. Although the company promised in 
2010 to remove all videos that advocated violence, al-Awlaki's 
Call to Jihad video, in which he advocates for western Muslims 
to carry out attacks at home, remained on the site for years. 
In fact, a New York Times report suggested that al-Awlaki 
videos influenced the Fort Hood terrorist, the Boston Marathon 
bombers, and the terrorist attacks in San Bernardino and 
Orlando.
    This issue is also international in scope. In response to 
recent terror attacks in London, British Prime Minister Theresa 
May has been especially outspoken in calling on social media 
platforms to do more to combat the kind of radicalization that 
occurs online. Last fall, for example, she was joined by other 
European leaders in calling upon social media companies to 
remove terrorist content from their sites within one to two 
hours after it appears.
    As we'll hear today, the companies before us are 
increasingly using technology to speed up their efforts to 
identify and neutralize the spread of terrorist content. In a 
recent blog post, Facebook said that artificial intelligence 
now removes 99 percent of ISIS and al Qaeda related terror 
content even before it can be flagged by a member of the 
community and sometimes even before it can be seen by any 
users.
    YouTube is also teaming up with Jigsaw, the in-house think 
tank of Google's parent company Alphabet, to test a new method 
of counter-radicalization referred to as the Redirect Method. 
Seeking to redirect or refocus potential terrorists at an 
earlier stage in the radicalization process, YouTube offers 
users searching for specific terrorist information additional 
videos made specifically to deter them from becoming 
radicalized.
    A little over a year ago, Facebook, YouTube, Microsoft, and 
Twitter committed to sharing a database of unique hashes and 
digital fingerprints of some of the most extreme terrorist-
produced content used for influence or recruitment. By cross-
sharing this information, terrorist content on each of the 
hosts' platforms will be more readily identified, hopefully 
resulting in faster and more efficient deletion of this 
material.
    Essentially, these companies are claiming they can tag 
individual videos and photos and, using automation, can kick 
them off their platforms before they are even seen. We all have 
a vested interest in their success, and I believe this 
Committee has a significant role to play in overseeing the 
effectiveness of their efforts.
    I do want to thank Ms. Bickert, Ms. Downs, and Mr. Monje 
for being here as representatives of their companies.
    To Mr. Watts, I look forward to hearing your thoughts about 
disrupting and defeating terrorism.
    With that, I will now recognize the Ranking Member, Senator 
Nelson, for any opening statement he'd like to make.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, within a few hours of the 
Pulse nightclub shooting, I was there on South Orange Avenue in 
Orlando, and I just want to comment that when a great tragedy 
occurs such as that, it's encouraging that the community comes 
together like Orlando did. The same can be said for Boston and 
so many other places where these tragedies occur, and yet we 
need to get at the root of the problem, which the Chairman has 
outlined.
    It's the first time that the Commerce Committee has had 
three of the largest social media companies before us. These 
social media platforms and those of many other smaller 
companies have revolutionized the way that Americans 
communicate, connect, and share information. And, by the way, a 
comment that the Chairman made about artificial intelligence 
screening out most of the bad guys' stuff--I wish one of you 
would explain that. That is encouraging, but it's not quite 
enough, as the Chairman has outlined.
    But at the same time, these platforms have created a new 
and stunningly effective way for nefarious actors to attack and 
to harm. It's startling that today, a terrorist can be 
radicalized and trained to conduct attacks all through social 
media. And then a terrorist cell can activate that individual 
to conduct an attack through the internet, creating an 
effective terrorist drone, in effect, controlled by social 
media.
    So thank you to all of our witnesses for being here and 
helping explain this and particularly explain what you're doing 
to rally to the common defense of our people and our country, 
because using social media to radicalize and influence users is 
not limited to extremists. Nation states, too, are exploiting 
social media vulnerabilities to conduct campaigns against this 
country and to interfere with our democracy.
    Now, the Russian hackers, at Vladimir Putin's direction, 
attempted to influence and did influence the 2016 Presidential 
election through all of these things that we've been reading 
about for over a year, and we also know that Putin is likely to 
do it again. In its January 2017 assessment, the intelligence 
community said that Putin and his intelligence services see the 
election influence campaign as a success and will seek to 
influence future elections. I will be asking Mr. Watts if he 
would outline what he sees is happening in this 2018 election.
    This should be a wake-up call to all of your companies. 
Indeed, it should be a wake-up call to all Americans, 
regardless of party. This was an attack on the very foundation 
of American democracy. We welcome the expertise that each of 
you bring to the table today. We welcome Mr. Watts and his 
expertise over many years of how bad actors like Russia use the 
internet and social media to influence so many things, not just 
elections.
    We even know that Putin is reaching down deep into our 
government, not just at the top. You remember a few weeks ago, 
part of the Federal Communications Commission's net neutrality 
proceeding--half a million comments were traced to Russian IP 
addresses. That's shocking. That's concerning. We should want 
to know why these comments were filed. What were they trying to 
do? And all of us should be very concerned about what's going 
to happen next.
    In the end, the basic questions that we want to ask are: 
What have we learned? What are we correcting? What's going to 
happen in the future, and how can we get ahead of it before it 
does?
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    We do appreciate the great panel of witnesses we have in 
front of us today. Thank you all for being here.
    On my left and your right is Ms. Monika Bickert, who is the 
Head of Product Policy and Counterterrorism, Facebook; Ms. 
Juniper Downs, who is Global Head of Public Policy and 
Government Relations at YouTube; Mr. Carlos Monje, who is 
Director of Public Policy and Philanthropy, U.S. and Canada at 
Twitter; and Mr. Clinton Watts, who is a Senior Fellow of the 
Foreign Policy Research Institute.
    So I'm going to start with Ms. Bickert, and we'll just move 
across the table. If you could confine your oral statements as 
close to 5 minutes as possible--any additional comments, 
obviously, will be included as part of the record--that will 
give us an optimal amount of time for members to ask questions.
    So thank you so much to all of you for being here. We look 
forward to hearing from you.
    Ms. Bickert.

    STATEMENT OF MONIKA BICKERT, HEAD OF PRODUCT POLICY AND 
                   COUNTERTERRORISM, FACEBOOK

    Ms. Bickert. Thank you. Chairman Thune, Ranking Member 
Nelson, and distinguished members of the Committee, I'm Monika 
Bickert, and I lead Product Policy and Counterterrorism for 
Facebook. I'm also a former Federal prosecutor, having spent 
more than a decade as an Assistant U.S. Attorney for the 
Department of Justice.
    The issues we're discussing here today are of the utmost 
importance, and on behalf of Facebook, I want to thank you for 
your leadership in seeking more effective ways to combat 
extremism, crime, and other threats to our national security.
    We share your concerns about terrorists' use of the 
internet. That's why we remove terrorist content as soon as we 
become aware of it. It's also why we have a dedicated 
counterterrorism team of people working across our company. 
This includes experts like former academics who have spent 
their career studying terror groups, tracking new trends and 
tactics. It includes former intelligence and law enforcement 
officials and prosecutors who have worked in the area of 
counterterrorism. It also includes engineers who are constantly 
improving the technology that helps us find and remove 
terrorist content.
    In my written testimony, I describe these efforts in more 
detail.
    I also want to note that we pursue this goal with a mindset 
that it's important to maximize free expression while keeping 
people safe online. We work proactively to keep terrorist 
content off Facebook, primarily through the use of automated 
systems like image matching and text-based machine learning. 
Now, more than 99 percent of ISIS and al Qaeda propaganda that 
we remove from our service is content that we identify 
ourselves before anybody has flagged it for us.
    Once we're aware of a piece of terrorist content, we remove 
the vast majority of subsequent uploads within one hour. We do 
not wait for these global bad actors to upload content to 
Facebook before placing it into our detection systems. Rather, 
we work with outside experts who track propaganda released by 
these groups across the Internet and then send it to us, and we 
proactively put it in our systems. Often, this means we're able 
to stop this content from ever being uploaded to Facebook.
    However, much of this work cannot be done by machines 
alone. Accurately removing terrorist content often requires a 
person to assess it. A photo of an ISIS fighter, for instance, 
that could be shared by somebody who's a supporter of the group 
could also be shared by a journalist who's raising awareness or 
a member of a civil society group who's condemning violence, 
and we need people to be able to assess that and tell the 
difference.
    We now have more than 7,500 reviewers who assess 
potentially violating content, including terrorist content, in 
dozens of different languages. By the end of 2018, we will more 
than double the 10,000 people who are already working on safety 
and security issues across our company.
    Now, some of these people are responsible for responding to 
law enforcement requests. We appreciate the critical role that 
law enforcement plays in keeping people safe, and we do want to 
do our part. Our global team responds to valid legal requests 
from law enforcement consistent with applicable laws and our 
policies, and this includes responding to emergency requests, 
where we strive to respond within minutes.
    We also want to do our part to stop radicalization and 
disrupt the recruitment process. That's why we've commissioned 
multiple research efforts over the past three years to 
understand how online speech can most effectively counter 
violent ideologies, and we've sponsored efforts to put those 
learnings into practice. One such example is our peer-to-peer 
challenging extremism program, which we sponsor with EdVenture 
Partners, and through that program, we've had more than 6,500 
students participate. They've created hundreds of campaigns 
that have been viewed worldwide more than 200 million times.
    No one company can combat the terrorist threat alone. So we 
partner with others, including companies, civil society, 
researchers, and governments around the world. Among other 
things, we work with 11 other companies, including those here, 
to maintain a shared industry database of hashes, unique 
digital fingerprints of terrorist content, so that we can all 
find and remove it faster. We've also recently launched a 
global internet forum where we can work with smaller companies 
to help them get better.
    In conclusion, let me reiterate that we share your goal of 
stopping terrorists from using social media, and we're going to 
keep getting better at it. I'm here today to listen to your 
ideas and your concerns and to continue this constructive 
dialog.
    Thank you for the opportunity, and I look forward to your 
questions.
    [The prepared statement of Ms. Bickert follows:]

   Prepared Statement of Monika Bickert, Head of Product Policy and 
                       Counterterrorism, Facebook
Introduction
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, thank you for the opportunity to appear before you 
today. My name is Monika Bickert, and I am the head of Product Policy 
and Counterterrorism at Facebook. Prior to assuming my current role, I 
served as lead security counsel for Facebook. I am also a former 
prosecutor, having worked for a decade as an Assistant U.S. Attorney 
with the Department of Justice. We appreciate the Committee's hard work 
as it continues to seek more effective ways to combat extremism, crime, 
and other threats to our national security.
    We take all of these threats very seriously. One of our chief 
commitments is to create and use innovative technology that gives 
people the power to build community and bring the world closer 
together. Keeping our community safe on Facebook is critical to this 
broader mission. We are proud that more than two billion people around 
the world come to Facebook every month to share with friends and 
family, to learn about new products and services, to volunteer or 
donate to organizations they care about, or help in a crisis. The 
promise of real connection, of extending the benefits of real world 
connections online, is at the heart of what we do and has helped us 
grow into a global company.
    Being at the forefront of new technology also means being at the 
forefront of new legal, security, and policy challenges. My team and 
thousands of other Facebook employees around the world come to work 
every day to confront these challenges head on. Our goal is to ensure 
Facebook is a place where both expression and personal safety are 
protected and respected. We appreciate your commitment to these values 
as well in your roles as policymakers.
Countering Terrorism on Facebook
    I would like to focus my testimony today on the ways Facebook is 
addressing the challenge of terrorist propaganda and recruitment 
online.
    On terrorist content, our view is simple: There is no place on 
Facebook for terrorism. Our longstanding policies, which are posted on 
our site, make clear that we do not allow terrorists to have any 
presence on Facebook. Even if they are not posting content that would 
violate our policies, we remove their accounts as soon as we find them. 
They simply are not allowed to use our services under any 
circumstances. We also remove any content that praises or supports 
terrorists or their actions whenever we become aware of it, and when we 
uncover evidence of imminent harm, we promptly inform authorities.
    We recognize the challenges associated with fighting online 
extremism, some of which I will outline in my comments today. We are 
committed to being part of the solution, and we are developing 
strategies built around both technology and human expertise to address 
these threats.
A. Using Technology to Identify and Remove Terrorist Content
    One of the challenges we face is identifying the small fraction of 
terrorist content posted to a platform used by more than two billion 
people every month. Our proactive efforts--specifically, the use of 
artificial intelligence (AI) and other automation--have become 
increasingly central to keeping this content off of Facebook. We 
currently focus our most cutting-edge techniques on combating terrorist 
content about ISIS, Al Qaeda, and their affiliates, and we are working 
to expand to other terrorist organizations. As we shared recently in a 
public blog post, 99 percent of the ISIS and Al Qaeda-related terror 
content that we remove from Facebook is detected and removed before 
anyone in our community reports it, and in some cases, before it goes 
live on the site. We do this primarily through the use of automated 
systems like photo and video matching and text-based machine learning. 
Once we are aware of a piece of terrorist content, we remove 83 percent 
of subsequently uploaded copies within one hour of upload.
    Importantly, we do not wait for ISIS or Al Qaeda to upload content 
to Facebook before placing it into our internal detection systems. 
Rather, we use a variety of techniques, including consulting external 
experts, to track propaganda released by these groups and proactively 
insert it into our matching systems. Often, this means we are able to 
prevent its upload to Facebook entirely.
    Because terrorists also adapt as technology evolves, we are 
constantly updating our technical solutions. I would like to share with 
you today several specific examples of the ways we are using technology 
to stay ahead of terrorist activity and combat terrorism online.
1. Image Matching and Language Understanding
    When someone tries to upload a terrorist photo or video, our 
systems look for whether the image matches a known terrorism photo or 
video. This means that if we previously removed an ISIS propaganda 
video, for example, we can work to prevent other accounts from 
uploading the same video to our site.
    We also have started experimenting with using AI to understand text 
that potentially advocates for terrorism. We are working to develop 
text-based signals to detect praise or support of terrorist 
organizations. These signals will be incorporated into an algorithm 
that is in the early stages of learning how to detect similar posts.
2. Removing Terrorist Clusters
    We know from the many terrorism academics and experts we work with 
that terrorists tend to radicalize and operate in clusters. This 
offline trend is reflected online as well. As such, when we identify 
Pages, groups, posts, or profiles that support terrorism, we use AI to 
identify related material that may also support terrorism. As part of 
that process, we utilize a variety of signals, including whether an 
account is ``friends'' with a high number of accounts that have been 
disabled for terrorism, or whether an account shares the same 
attributes as a disabled account.
3. Identifying Repeat Offenders
    When we disable terrorist accounts, those account owners may try to 
create new accounts using different identities. We have become faster 
at using technology to detect new fake accounts created by repeat 
offenders, or recidivists. Through this work, we have been able to 
dramatically reduce the time period that terrorist recidivist accounts 
are on Facebook.
4. Cross-Platform Collaboration
    Because we prohibit terrorists from maintaining a presence anywhere 
in the family of Facebook applications, we have begun work on systems 
that enable us to remove terrorist accounts across all of our 
platforms, including WhatsApp and Instagram. Given the limited data 
some of our applications collect as part of their service, this ability 
to share data helps immensely in keeping all of our applications safe.
    These are some of our key tools, but there are other tools as well. 
Our ability to outline them here is, however, constrained by the need 
to avoid providing a roadmap to bad actors seeking to evade detection.
B. Human Expertise
    Identifying terrorist content often requires analyzing the relevant 
context, and we know we cannot rely on AI alone to identify and remove 
terrorist content. For example, a photo of an armed man waving an ISIS 
flag could be propaganda or recruiting material, or it could be an 
image in a major news story. To understand more nuanced cases, we need 
human expertise.
    Our community of users helps us by reporting accounts or content 
that may violate our policies--including the small fraction that may be 
related to terrorism. Our content review teams around the world--which 
grew by 3,000 people last year--work 24 hours a day and in dozens of 
languages to review these reports. More broadly, by the end of 2018 we 
will more than double the number of people working on safety and 
security, including terrorism issues, from 10,000 to 20,000.
    We also have significantly grown our team of counterterrorism 
specialists. Distinct from our content review teams, we have more than 
150 highly trained people who are exclusively or primarily focused on 
preventing terrorist content from ever appearing on our platform and 
quickly and identifying and removing it if it does. This group includes 
former academics who are experts on counterterrorism, former 
prosecutors and law enforcement agents, investigators and analysts, and 
engineers. Within this specialist team alone, we speak nearly 30 
languages.
C. Partnering with Others
    We are proud of the work we have done to make Facebook a hostile 
place for terrorists. We understand, however, that simply working to 
keep terrorism off Facebook is an inadequate solution to the problem of 
online extremism, particularly because terrorists are able to leverage 
a variety of platforms. We believe our partnerships with others--
including other companies, civil society, researchers, and 
governments--are crucial to combating this threat.
    To this end, we have partnered with our industry counterparts to 
more quickly identify and slow the spread of terrorist content online. 
For example, in December 2016, we joined with Microsoft, Twitter, and 
YouTube to announce the development of a shared industry database of 
``hashes''--unique digital fingerprints for photos and videos--for 
content produced by or in support of terrorist organizations. The 
database now contains more than 40,000 hashes, and the consortium of 
companies has increased to include twelve companies.
    This past summer, we formalized our relationship with industry 
partners and announced the Global Internet Forum to Counter Terrorism 
(GIFCT), an endeavor that focuses on knowledge sharing, support for 
counterterrorism work, and technical cooperation, as represented by the 
hash consortium. Already, this endeavor has brought together more than 
68 technology companies over the course of international working 
sessions held on three continents. This effort gives structure to our 
existing and future areas of collaboration and fosters cooperation with 
smaller tech companies, civil society groups, academics, governments, 
and international bodies such as the EU and the UN.
    We engage with governments and inter-governmental agencies around 
the world and we recently commissioned a research consortium led by the 
Brookings Institute and the Royal United Services Institute to examine 
how governments, tech companies, and civil society can work together to 
fight online extremism and radicalization. We have learned much through 
briefings from agencies in different countries about extremist 
organizations' propaganda mechanisms. We also have participated in and 
benefited from efforts to support industry collaboration by 
organizations such as the National Counterterrorism Center (NCTC), the 
EU Internet Forum, the Global Coalition Against Daesh, and the UK Home 
Office.
    In recent months, we have further expanded our partnerships with 
several organizations including Flashpoint, the Middle East Media 
Research Institute (MEMRI), the SITE Intelligence Group, and the 
University of Alabama at Birmingham's Computer Forensics Research Lab. 
These organizations report Pages, profiles, and groups on Facebook that 
are potentially associated with terrorist groups. They also send us 
photo and video files associated with ISIS and Al Qaeda that they have 
located elsewhere on the internet. We check this information against 
our algorithms for file ``matches,'' in order to remove or prevent 
upload of the files to Facebook in the first instance.
    We appreciate the critical role that law enforcement plays in 
keeping people safe. Our legal and safety teams work hard to respond to 
legitimate law enforcement requests while fulfilling our responsibility 
to protect people's privacy and security. We have a global team that 
strives to respond within minutes to emergency requests from law 
enforcement. We provide the information that we can in response to law 
enforcement requests, consistent with applicable law and our policies. 
For example, in the first half of 2017, we provided information in 
response to more than 75 percent of the 1,864 requests for emergency 
disclosures that we received from U.S. law enforcement agencies.
Preventing Recruitment Through Counterspeech
    We believe that a key part of combating extremism is preventing 
recruitment by disrupting the underlying ideologies that drive people 
to commit acts of violence. That's why we support a variety of 
counterspeech efforts. Although counterspeech comes in many forms, at 
its core these are efforts to prevent people from pursuing a hate-
filled, violent life or convincing them to abandon such a life.
    Over the past three years, we have commissioned research on what 
types of counterspeech are the most effective at combating hate and 
violent extremism. Based on that research, we believe the credibility 
of the speaker is incredibly important. We have therefore partnered 
with non-governmental organizations and community groups around the 
world to empower positive and moderate voices. For example, two years 
ago, we worked with the Institute for Strategic Dialogue to launch the 
Online Civil Courage Initiative, a project that has engaged with more 
than 100 anti-hate and anti-extremism organizations across Europe. We 
also have worked with Affinis Labs to host hackathons in places like 
Manila, Dhaka, and Jakarta, where community leaders joined forces with 
tech entrepreneurs to develop innovative solutions to challenge 
extremism and hate online. Finally, we worked with EdVenture Partners 
to develop a peer-to-peer student competition called the Facebook 
Global Digital Challenge (P2P). This is a semester-long university 
course during which students build a campaign to combat extremism in 
their area, launch it, track its success, and then submit the results 
as part of a global competition. The University of Central Oklahoma 
recently implemented a student-led counterspeech program through P2P 
that uses social media to encourage people to challenge their beliefs 
and stereotypes. In less than three years, these P2P projects have 
reached more than 56 million people worldwide through more than 500 
anti-hate and extremism campaigns created by more than 5,500 university 
students in 68 countries.
Conclusion
    In conclusion, let me reiterate our commitment to combating 
extremism on our platform. We have a responsibility to do all we can to 
combat these threats, and we are committed to improving our efforts.
    Of course, companies like Facebook cannot do this without help. We 
will continue to partner with appropriate authorities to counteract 
these threats. By working together, business, government, and civil 
society can make it much harder for malicious actors to harm us, while 
simultaneously ensuring that people can express themselves freely and 
openly. I am here today to listen to your ideas and concerns, and I 
look forward to continuing this constructive dialogue.

    The Chairman. Thank you, Ms. Bickert.
    Ms. Downs.

    STATEMENT OF JUNIPER DOWNS, DIRECTOR, PUBLIC POLICY AND 
                 GOVERNMENT RELATIONS, YOUTUBE

    Ms. Downs. Thank you, Senator. Chairman Thune, Ranking 
Member Nelson, and distinguished members of the Committee, 
thank you for the opportunity to testify at today's hearing and 
for your leadership on these difficult issues. My name is 
Juniper Downs, and I serve as the Global Public Policy Lead for 
YouTube.
    At YouTube, we believe the world is a better place when we 
listen, share, and build community through our stories. Our 
mission is to give everyone a voice and show them the world. We 
see over 400 hours of video uploaded to YouTube every minute. 
With this comes many benefits to society: unparalleled access 
to art and culture, news and entertainment, educational 
materials, a remarkable diversity of viewpoints, and the 
freedom to exchange ideas. We value this openness. It has 
democratized how stories and whose stories get told.
    We are aware, however, that the very platforms that have 
enabled these societal benefits may also be used by those who 
wish to promote hatred or extremism. To that end, I'm pleased 
to have this opportunity to outline the approach we've taken on 
these issues.
    We've developed rigorous policies and programs to defend 
against the use of our platform to spread hate or incite 
violence. YouTube has long had policies that strictly prohibit 
terrorist content. This includes terrorist recruitment, violent 
extremism, incitement to violence, glorification of violence, 
and videos that teach people how to commit terrorist attacks. 
We apply these policies to violent extremism of all kinds, 
whether inciting violence on the basis of race or religion or 
as part of an organized terrorist group.
    We use a mix of technology and humans to remove violent 
content quickly. Users can alert us to content they think may 
violate our policies through a flag found below every YouTube 
video. We have teams charged with reviewing flagged content 24/
7 in multiple languages and countries around the world.
    We also work closely with members of our trusted flagger 
programs, NGOs who provide highly actionable flags and have 
expertise on issues like hate speech and terrorism, and, of 
course, we rely on our technology, which has always been a 
critical part of our solution. Our image-matching techniques, 
for example, can prevent the dissemination of violent content 
by catching re-uploads of known bad content before it becomes 
public.
    Nonetheless, given the evolving nature of the threat, it's 
necessary for us to continue enhancing our systems. Over the 
past year, in particular, we've taken several steps to build on 
our efforts. The first is an investment in machine learning 
technologies for the detection and removal of violent extremist 
videos. We recently deployed classifiers that detect new 
terrorist content and flag it for review. Machine learning is 
now helping our human reviewers remove nearly five times as 
many videos as they were before. Today, 98 percent of the 
videos we remove for violent extremism were identified by our 
algorithms.
    Second, we are focused on improving and expanding our 
expertise and resources on these issues. We expanded our 
trusted flagger program to an additional 50 NGOs in 2017, 
including several counterterrorism experts. Working with these 
organizations helps us to better identify emerging trends and 
understand how these issues manifest and evolve. In 2018, we 
will have 10,000 people across Google working to address 
content that might violate our policies.
    Finally, we're creating programs to promote counter-speech 
on our platforms. Our Creators for Change program supports 
YouTube creators who are tackling issues like extremism and 
hate by building empathy and acting as positive role models. 
Google's Jigsaw group has deployed the redirect method, which 
uses targeted ads and YouTube videos to disrupt online 
radicalization.
    We also collaborate across the industry. In 2016, we 
created a hash-sharing database with Facebook, Microsoft, and 
Twitter, where we share digital fingerprints of terrorist 
content to stop its spread across platforms. We added seven 
companies to this coalition in 2017, and our shared database 
now contains over 50,000 video and image hashes. Last summer, 
we announced the Global Industry Forum to Counter Terrorism to 
formalize industry collaboration on research, knowledge 
sharing, and technology.
    No single component or party can solve this problem in 
isolation. To get it right, we must all work together. We 
understand the importance of speed and comprehensiveness in our 
work. Since June, we've removed 160,000 videos and terminated 
30,000 channels for violent extremism. We've taken down nearly 
70 percent of violent extremist videos within 8 hours of upload 
and nearly half within two hours. We've reviewed over 2 million 
videos to make sure we're catching and removing all videos that 
violate these policies.
    We achieved these results through enhanced enforcement by 
machines and people and collaboration with outside experts. 
We're deeply committed to working with law enforcement, 
government, the tech industry, and NGOs to protect our services 
from being exploited by bad actors. We look forward to 
continued collaboration with the Committee as it examines these 
issues.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Ms. Downs follows:]

   Prepared Statement of Juniper Downs, Director, Public Policy and 
                     Government Relations, YouTube
    Chairman Thune, Ranking Member Nelson, and distinguished Members of 
the Committee: thank you for the opportunity to testify at today's 
hearing and for your leadership on these difficult issues. My name is 
Juniper Downs and I serve as the global policy lead for YouTube.
    At YouTube, we believe the world is a better place when we listen, 
share, and build community through our stories. Our mission is to give 
everyone a voice and show them the world. With this comes many benefits 
to society--unparalleled access to art and culture, news and 
entertainment, and educational materials. To put our work in context, 
it's important to recognize the scale and goal of our services. More 
than one and a half billion people come to YouTube every month. We see 
well over 400 hours of video uploaded every minute. Most of this 
content is perfectly benign--beauty vlogs, music, comedy. Digital 
platforms have also become a place for breaking news, exposing 
injustices, and sharing content from previously inaccessible places.
    We value this openness. It has democratized how stories, and whose 
stories, get told. And has created a platform where anyone can be a 
creator and can succeed. We are aware, however, that the very platforms 
that have enabled these societal benefits may also be abused by those 
who wish to promote hatred or extremism. These challenges are 
constantly evolving and changing, so our commitment to combat them is 
similarly sustained and unwavering. To be very clear: using YouTube to 
incite violence, spread violent extremist propaganda, recruit for 
terrorism, or celebrate or promote terrorist attacks is strictly and 
specifically prohibited by our terms of service.
    To that end, I am pleased to have this opportunity to outline the 
approach we have taken on these issues. We have developed rigorous 
policies and programs to defend the use of our platforms from the 
spread of hate and incitement to violence. We continue to refine them 
as we adapt to new and evolving threats. For example, YouTube has long 
had policies that prohibit terrorist content. This includes: terrorist 
recruitment, violent extremism, incitement to violence, and 
instructional content that could be used to facilitate substantial 
bodily injury or death. Extremism and violence are not confined to any 
one community. We apply these policies to violent extremism of all 
kinds, whether inciting violence on the basis of race or religion or as 
part of an organized terrorist group. When we become aware of content 
that violates these policies, we immediately remove it. Any channel 
that is dedicated to such content is terminated. We don't allow Foreign 
Terrorist Organizations (FTOs) to use Google at all--if an account is 
created by an FTO or its agent, we terminate immediately, regardless of 
the content it may be sharing.
    We also have a strict set of policies for monetizing content on 
YouTube. We recognize there may be videos that don't break our 
Community Guidelines, but which advertisers would not want to advertise 
against. We give advertisers the tools to control where their ads 
appear.
    We use a mix of technology and humans to remove violative content 
quickly. Users can alert us to content that they think may violate our 
policies through a flag found below every YouTube video. We have teams 
charged with reviewing flagged content 24/7 in multiple languages and 
countries around the world. We also work closely with members of our 
Trusted Flagger program, which is comprised of NGOs and government 
agencies with specific expertise who are provided a bulk-flagging tool 
to alert us to content that may violate our policies. And of course we 
rely upon our technology, which has always been a critical part of our 
solution. Our video-matching techniques, for example, can prevent the 
dissemination of violative content by catching re-uploads of known bad 
content before it is public.
    Nonetheless, given the evolving nature of the threat, it is 
necessary for us to continue enhancing our systems. We know that no 
enforcement regime will ever be 100 percent perfect. Over the past year 
in particular, we have taken several steps to build on our efforts:

  <bullet> The first is an investment in machine learning technologies 
        for the detection and removal of violent extremist videos. We 
        have been working on machine learning for years, and recently 
        deployed classifiers that detect terrorist material and flag it 
        for review. Since June, our teams have manually reviewed 
        approximately two million videos to improve this flagging 
        technology by providing large volumes of training examples. 
        Machine learning is now helping our human reviewers remove 
        nearly five times as many videos in violation of our policies 
        than they were previously. Last June, only 40 percent of the 
        videos we removed for violent extremism were identified by our 
        algorithms. Today, that number is 98 percent. Our advances in 
        machine learning let us now take down nearly 70 percent of 
        violent extremism content within 8 hours of upload and nearly 
        half of it in 2 hours.

  <bullet> Second, we are focused on improving and expanding our 
        expertise and resources on these issues. We expanded our 
        Trusted Flagger Program to an additional 50 NGOs in 2017, 
        including to groups like Anti-Defamation League and several 
        counter-terrorism experts such as the Institute of Strategic 
        Dialogue and International Centre for the Study of 
        Radicalization. Working with these organizations helps us to 
        better identify emerging trends and understand how these issues 
        manifest and evolve. In 2018, we will have 10,000 people across 
        Google working to address content that might violate our 
        policies. This includes engineers and reviewers who work around 
        the world, 24/7, and speak many different languages.

  <bullet> We are taking a tougher stance on videos that may be 
        offensive, but do not violate our policies. Our Community 
        Guidelines prohibit hate speech that either promotes violence 
        or has the primary purpose of inciting hatred against 
        individuals or groups based on certain attributes. Some 
        borderline videos, such as those containing inflammatory 
        religious or supremacist content without a direct call to 
        violence or a primary purpose of inciting hatred, may not cross 
        these lines for removal. But we understand that these videos 
        may be offensive to many and have developed a new treatment for 
        them. Identified borderline content will remain on YouTube 
        behind an interstitial, won't be recommended, won't be 
        monetized, and won't have key features including comments, 
        suggested videos, and likes. Initial uses have been positive 
        and have shown a substantial reduction in watch time of those 
        videos.

  <bullet> Greater Transparency. We understand that people want a 
        clearer view of how we're tackling problematic content. That's 
        why in 2018, we will be creating a report to provide more 
        aggregate data about the flags we receive and the actions we 
        take to remove videos and comments that violate our content 
        policies.

  <bullet> Finally, we are creating programs to promote counterspeech 
        on our platforms. We are expanding our counter-extremism work 
        to present counternarratives and elevate the voices that are 
        most credible in speaking out against terrorism, hate, and 
        violence.

    <ctr-circle> For example, our Creators for Change program supports 
            creators who are tackling social issues, including 
            extremism and hate, by building empathy and acting as 
            positive role models. There are 60 million video views of 
            Creators for Change content to date; 731,000 total watch 
            time hours of Creators for Change content; and through 
            `Local chapters' of Creators for Change, creators tackle 
            social challenges specific to different markets.

    <ctr-circle> Google's Jigsaw group, an incubator to tackle some of 
            the toughest global security challenges, has deployed the 
            Redirect Method, which uses Adwords targeting tools and 
            curated YouTube videos uploaded to disrupt online 
            radicalization. It focuses on the slice of ISIS's audience 
            that is most susceptible to its messaging and redirects 
            them towards YouTube playlists of videos debunking ISIS 
            recruiting themes.

    We also collaborate across the industry. In 2016, we created a 
hash-sharing database with Facebook, Twitter and Microsoft, where we 
share hashes (or ``digital fingerprints'') of terrorist content to stop 
its spread across platforms. Using other companies to give us notice is 
effective because of the counter-terrorism research showing the pattern 
of cross-platform abuse and the particularly dangerous nature of this 
content. We added 7 companies to this coalition in 2017 and our shared 
database contains over fifty thousand videos and image hashes. Last 
summer, we announced the Global Industry Forum to Counter Terrorism 
(GIFCT) to formalize industry collaboration on research, knowledge 
sharing, and technology. The GIFCT also set a goal of working with 50 
smaller tech companies in 2017 to help them better tackle terrorist 
content on their platforms--and we exceeded that goal. To date, we've 
hosted 68 small companies at workshops through the Tech Against 
Terrorism Initiative, our partners under the UN Counter Terrorism 
Executive Directorate. We've held workshops for smaller companies in 
San Francisco and New York, Paris, Jakarta, London, and Brussels.
    No single component can solve the problem in isolation. To get this 
right, we must all work together. Since June, YouTube has removed over 
160,000 violent extremist videos and has terminated approximately 
30,000 channels for violation of our policies against terrorist 
content. We achieved these results through tougher policies, enhanced 
enforcement by machines and people, and collaboration with outside 
experts. That has become the blueprint for how we tackle this 
challenge.
    While Google's services can provide real benefits to our users, we 
recognize that detecting and preventing misuse of those services is 
critically important. We are deeply committed to working with law 
enforcement, government, others in the tech industry, and the NGO 
community to protect our protect our services from being exploited by 
bad actors. We will only make progress by working together to address 
these complex issues at their root. That is why forums like this are so 
important to underscoring our shared goals and commitments. We look 
forward to continued collaboration with the Committee as it examines 
these issues.
    Thank you for your time. I look forward to taking your questions.

    The Chairman. Thank you, Ms. Downs.
    Mr. Monje.

  STATEMENT OF CARLOS MONJE, JR., DIRECTOR, PUBLIC POLICY AND 
             PHILANTHROPY, U.S. AND CANADA, TWITTER

    Mr. Monje. Thank you, Chairman Thune, Ranking Member 
Nelson, distinguished members of the Committee, and staff.
    I'm here on behalf of Twitter, an open communications 
platform that allows more than 330 million users to see what's 
happening in the world and to share viewpoints from every side. 
Each day, we serve 500 million tweets. We have about 3,700 
employees around the world.
    Twitter has been at the forefront of preventing terrorist 
exploitation of the internet. Our work in this area will never 
be complete as the threats we face constantly evolve. As new 
challenges emerge, we will continue our efforts to both ensure 
terrorists don't have a place on Twitter while also giving 
voice to those who promote a positive message for the future.
    Twitter has a zero tolerance policy for terrorist content. 
This includes not only specific threats of violence, but also 
promoting terrorism, affiliating with violent extremist groups, 
and glorifying violence. Our job is to enforce this policy 
globally, at scale, to evolve to stay one step ahead of the 
terrorists. We have dramatically improved our ability to 
implement these rules and have suspended more than 1.1 million 
terrorist accounts since mid 2015.
    Our progress fighting terrorist content is due to our 
commitment to innovation. While there is no ``magic algorithm'' 
for identifying terrorist content, we have increasingly 
improved the effectiveness of our in-house proprietary 
technology. Our technology supplements user reports, human 
review, and it significantly augments our ability to identify 
and remove bad content from Twitter.
    At the beginning of 2015, our in-house technology detected 
roughly a third of the terrorist accounts that we pulled down 
at that time. Last year, that number increased dramatically. We 
identified more than 90 percent of suspensions for terrorism by 
our internal tools, and 75 percent or three-quarters of those 
accounts were suspended before they had a chance to tweet even 
once. Let me repeat that because it's important. We spot more 
than 90 percent of terrorist accounts before anyone else does, 
and we stop 75 percent of those accounts before they can spread 
any of their deplorable ideology.
    Of course, like any determined adversary, as we make it 
harder for terrorists to use Twitter, their behavior evolves. 
To stay in front of this, we continue to invest in technology 
to prevent new accounts from being opened to replace those that 
we suspend while also developing further the tools that prevent 
the distribution of propaganda in the aftermath of attacks.
    Because this is a shared challenge, our industry has 
established the Global Internet Forum to Counter Terrorism, 
which is focused on learning and collaboration, on technical 
cooperation, and research. Twitter sees the forum as a 
substantial opportunity to ensure that smaller companies are 
not soft targets for terrorists. We have engaged with 68 
smaller companies over the past several months to share best 
practices and learnings, and we plan to grow on that work.
    Removing a tweet doesn't eliminate the ideology behind it, 
so we invest heavily in alternative narratives. Twitter has 
participated in more than 100 NGO trainings and events around 
the world since 2015. We work with respected organizations to 
empower credible, non-governmental voices against violent 
extremism.
    As part of a continuing effort to make Twitter a safe place 
for open democratic debate, late last year, we broadened our 
rules to prohibit accounts affiliated with violent extremist 
groups and to make hateful imagery much harder to find on our 
platform. We also stepped up our enforcement of abuse reported 
by witnesses and increased transparency about our enforcement 
decisions to further educate our users about our terms of 
service.
    Twitter has also devoted significant resources to combat 
disinformation and election interference by foreign state 
actors. To prepare for the U.S. midterm elections this year, a 
cross-functional elections task force is prepared to verify 
major party candidates as a hedge against impersonation, to 
maintain open lines of communication with Federal and State 
election officials, to continually improve and apply our 
technology to address networks of malicious automation, and to 
monitor trends and spikes in conversations related to the 
elections.
    The companies here today have both shared and unique 
challenges, and while we are competitors in the marketplace, we 
are close partners in combating the threats of extremism and 
those who would harm our democratic process.
    Thank you. Thank you for your leadership on these issues. I 
look forward to this discussion.
    [The prepared statement of Mr. Monje follows:]

 Prepared Statement of Carlos Monje, Jr., Director, Public Policy and 
                 Philanthropy, U.S. and Canada, Twitter
    Thank you Chairman Thune, Ranking Member Nelson, and distinguished 
members of the Committee and staff. Twitter has been at the forefront 
of responding to the evolving challenge of preventing terrorist 
exploitation of the Internet. Our work in this area will never be 
complete, as the threats we face constantly evolve. As new challenges 
emerge, we will continue our efforts to both ensure terrorists don't 
have a place on Twitter while giving voice to those who promote 
positive messages for the future.
The Twitter Rules
    To be clear, terrorist organizations have no place on Twitter and 
the promotion of terrorism is against our Rules. The Twitter Rules make 
clear:

  <bullet> You may not make specific threats of violence or wish for 
        the serious physical harm, death, or disease of an individual 
        or group of people. This includes, but is not limited to, 
        threatening or promoting terrorism. You also may not affiliate 
        with organizations that--whether by their own statements or 
        activity both on and off the platform--use or promote violence 
        against civilians to further their causes.

    Moreover, our Rules prohibit content that glorifies violence or the 
perpetrators of a violent act. This includes celebrating any violent 
act in a manner that may inspire others to replicate it or any violence 
where people were targeted because of their membership or inclusion in 
a protected group.
Terrorist Content Removals
    Beyond having a clear policy against the promotion of terrorism, we 
have been tackling the issue of terrorist content on the Twitter 
platform for many years. As our biennial Twitter Transparency Reports 
indicate we have made steady progress in this area:

  <bullet> In 2015, 67,069 accounts suspended

  <bullet> In 2016: 569,202 accounts suspended

  <bullet> In 2017: 574,070 accounts suspended

    In total, we have suspended more than 1.1 million terrorist 
accounts since mid-2015.
Technology
    Our progress fighting terrorists on Twitter is due to the 
commitment we have made internally to harness innovation to address the 
tactics employed by terrorist organizations on our platform. While 
there is no ``magic algorithm'' for identifying terrorist content on 
the Internet, we have increasingly tapped technology in efforts to 
improve the effectiveness of our in-house proprietary anti-spam 
technology. This technology supplements reports from our users and 
dramatically augments our ability to identify and remove violative 
content from Twitter. Through these efforts we have found success in 
preventing recently suspended users from coming back onto Twitter.
    At the beginning of 2015, this technology was being used to detect 
roughly one-third of the terrorist accounts we suspended at that time. 
Last year, that number increased to more than 90 percent of suspensions 
being flagged by our internal tools. Three-quarters of those 
suspensions were flagged before the account had a chance to Tweet even 
once. As is the case with a determined adversary, as we make it harder 
for terrorists to use Twitter, their behavior evolves. To stay in front 
of this, we continue to invest in technology to prevent new accounts 
being opened to replace those we suspend, while also developing further 
the tools that prevent the distribution of propaganda in the aftermath 
of attacks.
Industry Collaboration 
    Because this is a shared challenge, our industry has established 
the Global Internet Forum to Counter Terrorism (GIFCT), which has 
focused on learning and collaboration; technical cooperation; and 
research. This builds on previous work undertaken by the EU Internet 
Forum and follows constructive discussions held at the UN General 
Assembly and the G7 Interior Ministers meeting. Twitter sees the GIFCT 
as a substantial opportunity to ensure that smaller companies are not 
soft targets for terrorists and that the learnings that we have 
developed are shared and built upon. The GIFCT's initial goal for 2017 
was to work with 50 smaller tech companies to share best practices on 
how to disrupt the spread of violent extremist material. We have 
exceeded that goal, engaging with 68 companies over the past several 
months.
    In the coming months, we plan to deepen this collaboration with 
smaller companies, working directly to educate them about potential 
technological approaches, sharing expertise from our own operational 
teams and allowing them to develop a peer network across industry to 
support their work.
Twitter Countering Violent Extremism Trainings
    The GIFCT, through its work with the Tech Against Terrorism and 
ICT4Peace projects, is a further avenue through which best practices 
can be shared and our existing company efforts can be further scaled-
up. Twitter has participated in more than 100 CVE trainings and events 
since 2015, including events in Beirut, Bosnia, Belfast and Brussels 
and summits at the White House, the United Nations and in London and 
Sydney.
    We work with respected organizations such as Parle-moi d'Islam 
(France), Active Change Foundation (UK), Wahid Foundation (Indonesia), 
The Sawab Center (UAE), and True Islam (US) to empower credible non-
governmental voices against violent extremism. We also continue to play 
an active role in the task force created by the French Interior 
Ministry and have attended government-convened summits on CVE hosted by 
the French Interior Ministry and the Indonesian National 
Counterterrorism Agency.
    We supported the Institute for Strategic Dialogue's ``Against 
Violent Extremism'' project, the results of which were published in a 
report, ``The Impact of Counternarratives.'' The project used pro bono 
Twitter advertising to increase the reach of key NGOs. The campaigns 
yielded real results. One NGO participant, Average Mohamed, doubled its 
number of Twitter followers and another, ExitUSA, tripled its Twitter 
followers.
    We also are a member of the Anti-Defamation League's Cyberhate 
Problem-Solving Lab, which works collaboratively to counter hate speech 
online.
Extremism
    Late last year we broadened our rules to encompass accounts 
affiliated with violent extremist groups and to cover violent content 
or hateful imagery displayed in profile information. Our prohibition on 
the use of Twitter's services by violent extremist groups--i.e., 
identified groups subscribing to the use of violence as a means to 
advance their cause--applies whether the purpose or cause of any such 
group is a political, religious, or social objective.
    Accounts affiliated with groups or organizations in which violence 
is a component of advancing their cause risk having a chilling effect 
on opponents of that cause who may want to comment on Twitter. In 
addition, the violence that such groups promote online could also have 
dangerous consequences offline, potentially putting the physical safety 
of Twitter users and others in jeopardy.
    The broadening of our policies against violent extremism also 
includes covering any account that abuses or threatens others through 
their profile information. In other words, if an account's profile 
information includes a violent threat or multiple slurs, racist or 
sexist tropes, or incites fear or otherwise dehumanizes another person, 
it will be removed. Further, hateful imagery will now be included in 
the category of ``sensitive media'' under our rules. This change means 
that logos, symbols, or images whose purpose is to promote hostility 
and malice to others based upon their race, religion, disability, 
sexual orientation, or ethnicity will now be actionable and we will 
require accounts displaying such imagery to remove such violative media 
content.
Misinformation
    As we have previously described, Twitter has also devoted 
significant resources to the issue of misinformation and interference 
in the election context by foreign state actors. We have sought through 
our Information Quality initiative to enhance our ability going forward 
to detect and stop such activity and to do our part to protect the 
democratic process from interference and abuse. We have also undertaken 
a retrospective review to further the public's understanding of what 
happened in the 2016 election. As we explained last year, we expect to 
keep Congress updated on the latest results of that ongoing review as 
our work progresses. And we made the decision last year not only to 
offboard both RT and Sputnik as advertisers on our platform, but also 
to commit to donate the revenue we received from those sources to 
research into elections and civic engagement on Twitter. We have begun 
to scope such research needs and are in dialogue with several academic 
researchers and NGOs in this area. We take these issues seriously and 
our efforts to address them remain among our highest priorities.
Preparing for the U.S. Midterms
    Since 2016 we've had additional elections around the world--such as 
in France, Germany, and South Korea during 2017--and we have midterm 
elections approaching this November in the United States.
    To prepare for the U.S. midterm elections, we have organized 
internally to ensure that our teams are working to address election-
related issues as they may arise. Our cross-functional elections task 
force will be prepared to:

  <bullet> Verify major party candidates for all statewide and Federal 
        elective offices, and major national party accounts, as a hedge 
        against impersonation;

  <bullet> Maintain open lines of communication to Federal and state 
        election officials to quickly escalate issues that arise;

  <bullet> Address escalations of account issues with respect to 
        violations of Twitter Rules or applicable laws;

  <bullet> Continually improve and apply our anti-spam technology to 
        address networks of malicious automation targeting election-
        related matters;

  <bullet> Monitor trends and spikes in conversations relating to the 
        2018 elections for potential manipulation activity; and

  <bullet> Implement our Ads Transparency Center to bring transparency 
        to voters about political ads they see on Twitter.

    The companies here today have both shared and unique challenges. 
And while we are competitors in the marketplace, we are close partners 
in combating the threat of extremism or those who would do harm to our 
democratic process. We value the collaboration with our industry peers, 
and coordinated efforts are driving further progress to degrade the 
presence of content promoting terrorism.
    Thank you, and I look forward to this discussion.

    The Chairman. Thank you, Mr. Monje.
    Mr. Watts.

        STATEMENT OF CLINT WATTS, ROBERT A. FOX FELLOW, 
 FOREIGN POLICY RESEARCH INSTITUTE; SENIOR FELLOW, CENTER FOR 
CYBER AND HOMELAND SECURITY, THE GEORGE WASHINGTON UNIVERSITY; 
   AND NON-RESIDENT FELLOW, ALLIANCE FOR SECURING DEMOCRACY, 
           GERMAN MARSHALL FUND OF THE UNITED STATES

    Mr. Watts. Chairman Thune, members of the Committee, thanks 
for having me here today.
    Ten years ago, it was al Qaeda in Iraq videos on YouTube. A 
few years later, al Shabaab's deadly rampages played out on 
Twitter. Shortly after, Facebook groups and Twitter feeds 
brought the Islamic State to the world's attention and into the 
homes of new recruits before they scurried off to other social 
media platforms like Telegram. And 4 years ago, amongst global 
jihad's social media storm, I stumbled into Russian influence 
campaigns, their reboot of an old playbook called ``Active 
Measures,'' which they've deployed across nearly every social 
media platform with devastating effect.
    Social media at its height offered a platform for 
discussion across diverse audiences and led to uprisings 
toppling dictators during the Arab Spring. But bad actors with 
motivation, money, manpower, and know-how will always come to 
these information gateways to pursue their objectives. Lesser 
educated populations around the world predominately arriving in 
cyber space via mobile phones will be particularly vulnerable 
to the social media manipulation of terrorists and 
authoritarians.
    American focus on the Islamic State social media 
recruitment or Russian meddling in the Presidential election of 
2016 overlooks other indicators of damaging activity. American 
companies have suffered and remain particularly vulnerable to 
smear campaigns launched by foreign state actors through 
malicious false narratives, pushing their stock prices down and 
decreasing sales through reputational damage.
    Beyond just smear campaigns and character assassinations, 
this committee should take seriously the ability of foreign 
nations to mobilize violence inside the U.S. through an 
evolution I would call ``Anwar Awlaki Meets PizzaGate.'' Just a 
few years ago, Anwar Awlaki, al Qaeda's external operations 
leader in Yemen, recognized the power of the Internet to 
recruit and mobilize terrorists in America to conduct violence 
in the U.S. homeland.
    The Islamic State took this to another level with their 
spokesman, Abu Muhammad al-Adnani, calling on supporters to 
conduct attacks at home and then further enabling those e-
recruits by using a social media battalion to guide those plots 
remotely. A little over a year ago, America saw an individual 
consume a false conspiracy on the internet and social media, 
known as PizzaGate, and then travel to Washington, D.C., to 
investigate those claims. He arrived at a falsely implicated 
restaurant and discharged a weapon before being arrested.
    Surely, a foreign adversary of the United States sees an 
opportunity in combining these two scenarios. The greatest 
concern moving forward might likely be a foreign intelligence 
service posing as Americans on social media, infiltrating one 
or both political extremes in the U.S., and then recruiting 
unwitting Americans to undertake violence against a target of 
the foreign power's choosing. Social media companies will be 
better positioned to stop this potential scenario from 
occurring than U.S. intelligence or Homeland Security that are 
blind to the technical signatures behind this manipulation.
    Social media companies realize the damage of these bad 
actors far too late. They race to implement policies to prevent 
the last information attack, but have yet to anticipate the 
next abuse of their social media platforms by emerging threats. 
I've offered a range of recommendations for how to counter bad 
actors using social media in previous testimony. I'll focus on 
a few issues here today.
    The first and most pressing challenge comes in the debate 
over social media account anonymity versus authenticity. 
Anonymity of social media accounts has in many cases allowed 
the oppressed and the downtrodden to speak out about injustice. 
But over time, anonymity has empowered hackers, extremists, and 
authoritarians. Under the veil of anonymity, they spread hate, 
recruit members, and advance divisions in American society.
    Social media companies can and should protect the public 
anonymity of account holders if their user chooses, but they 
must be able to determine a real person resides behind each 
persona. Social media companies have better advanced tools 
recently to certify authenticity. However, the current level of 
authenticity on the Twitter platform is suboptimal. I'd 
encourage Twitter to rapidly expand its verification to as many 
users as possible as quickly as possible.
    Closely connected to the issue of account authenticity is 
the rise of computational propaganda. The negative effects of 
social bots far outweigh any benefits. The anonymous 
replication of accounts that routinely broadcast high volumes 
of misinformation can pose a serious risk to public safety and, 
when employed by authoritarians, a direct threat to democracy.
    Last, social media companies continue to get beat in part 
because they rely too heavily on technologists and technical 
detection to catch bad actors. Artificial intelligence and 
machine learning will greatly assist in cleaning up nefarious 
activity, but will for the near future, fail to detect that 
which hasn't been seen before. Those who understand the 
intentions and actions of criminals, terrorists, and 
authoritarians must work alongside technologists to sustain the 
integrity of these social media platforms.
    I know it is unreasonable to think that every social media 
company can and should hire threat analysts for every possible 
emerging threat. But a variety of rapid outreach approaches 
with external social media analysts and threat experts 
positioned outside social media companies could easily be 
developed or even be collectively sponsored by social media 
companies. Several models from counterterrorism and 
cybersecurity could be adopted by Silicon Valley in this 
regard. I've made other recommendations in the past which I can 
address during the Q and A.
    But, in conclusion, some social media companies have done 
more than others to improve the safety and integrity of their 
platforms. Others have a lot of work to do to improve their 
platforms against bad actors. Ultimately, the American consumer 
will decide whether the benefits of using these services 
outweigh the risks. Many are walking away from social media 
applications because they can't trust the information being 
shared or tolerate the vitriolic user experience.
    Social media companies should move aggressively to thwart 
terrorists and authoritarians exploiting their systems not only 
because it's what's best for their users and society, but 
because it's good for business as well.
    Thank you for having me.
    [The prepared statement of Mr. Watts follows:]

Prepared Statement of Clint Watts, Robert A. Fox Fellow, Foreign Policy 
   Research Institute; Senior Fellow, Center for Cyber and Homeland 
 Security, the George Washington University; and Non-Resident Fellow, 
  Alliance For Securing Democracy, German Marshall Fund of the United 
                                 States
    Ten years ago, it was al Qaeda in Iraq videos on YouTube. A few 
years later, al Shabaab's deadly rampages played out on Twitter. 
Shortly after, Facebook groups and Twitter feeds brought the Islamic 
State to the world's attention and into the homes of new recruits, 
before they scurried off to other social media applications like 
Telegram. And four years ago amongst global jihad's social media storm, 
I stumbled into Russian influence campaigns, their reboot of an old 
playbook called ``Active Measures'', which they've deployed across 
nearly all social media platforms with devastating effect.
    Today, disinformation spread on Facebook propels deadly violence in 
Myanmar against the minority Ronhingya population.<SUP>i</SUP> The 
Duterte regime in the Philippines uses social media groups to suppress 
domestic political opponents.<SUP>ii</SUP> LTG H.R. McMaster, our 
National Security Advisor, noted just last week the Kremlin is again 
using its cyber influence just across our southern border seeking to 
push their preferred party and politicians to the forefront in 
Mexico.<SUP>iii</SUP>
---------------------------------------------------------------------------
    \i\ Hannah Beech. ``Across Myanmar, Denial of Ethnic Cleansing and 
Loathing of Rohingya.'' New York Times. 24 October 2017. Available at: 
https://www.nytimes.com/2017/10/24/world/asia/myanmar-rohingya-ethnic-
cleansing.html?_r=0.
    \ii\ Lauren Etter. ``What happens when the government uses Facebook 
as a weapon?'' Bloomberg. 7 December 2017 Available at: https://
www.bloomberg.com/news/features/2017-12-07/how-rodrigo-duterte-turned-
facebook-into-a-weapon-with-a-little-help-from-facebook.
    \iii\ David Alire Garcia and Noe Torres. ``Russia meddling in 
Mexican election: White House aide McMaster.'' Reuters. 7 January 2018. 
Available at: https://www.reuters.com/article/us-mexico-russia-usa/
russia-meddling-in-mexican-election-white-house-aide-mcmaster-
idUSKBN1EW0UD.
---------------------------------------------------------------------------
    Social media, at its height, offered a platform for discussion 
across diverse audiences and led to uprisings usurping dictators during 
the Arab Spring. But bad actors with motivation, money, manpower and 
know--how will always come to these information gateways to pursue 
their objectives. Criminals, terrorists and authoritarians see the 
Internet and social media as a cost effective open doorway into the 
very heart of their adversaries. Authoritarians worldwide now recognize 
the power of the Kremlin's social media manipulation, and if left 
unchecked, will copy and deploy Russia's playbook against their 
enemies. Lesser--educated populations around the world predominately 
arriving in cyberspace via mobile phones will be particularly 
vulnerable to the social media manipulation of terrorists and 
authoritarians.
    American focus on the Islamic State's social media recruitment or 
Russian meddling in the 2016 Presidential election overlooks other 
indicators of damaging activity. American companies have suffered and 
remain particularly vulnerable to smear campaigns launched by foreign 
state actors through malicious, false narratives pushed by bogus social 
media personas. These campaigns can cause serious reputational damage 
sending stock prices plummeting and decreasing sales.
    Beyond just smear campaigns and character assassination, this 
committee should take seriously the ability of foreign nations to 
mobilize violence inside the U.S. through an evolution I would call 
``Anwar Awlaki meets PizzaGate''. Just a few years ago, Anwar al--
Awlaki, al Qaeda in the Arabian Peninsula's leader of external 
operations, recognized the power of the Internet to recruit and 
mobilize terrorists in America to conduct violence in the U.S. 
homeland. The Islamic State took this to another level with their 
spokesman abu Muhammad al--Adnani calling on supporters to conduct 
attacks at home<SUP>iv</SUP> and then further enabling e--recruits by 
using a social media battalion to guide plots remotely--connecting 
with, coaching and directing terrorists in the West to specific 
targets.<SUP>v</SUP> A little over a year ago, America saw an 
individual consume a false conspiracy on the Internet and social media, 
known as PizzaGate, and then travel to Washington DC to investigate 
these bogus claims. He arrived at a falsely implicated restaurant and 
discharged a weapon before being arrested.<SUP>vi</SUP>
---------------------------------------------------------------------------
    \iv\ Bulos, Nabih. ``Islamic State's taunting speech calls for 
killing civilians.'' LA Times. 22 September 2014. Available at: http://
beta.latimes.com/world/middleeast/la-fg-islamic-state-taunts-20140922-
story.html.
    \v\ Rukmini Callimachi, ``Not `Lone Wolves' After All: How ISIS 
Guides World's Terror Plots From Afar.'' New York Times. 4 Feb 2017. 
Available at: https://www.nytimes.com/2017/02/04/world/asia/isis-
messaging-app-terror-plot.html?_r=0.
    \vi\ Grace Hauck. ``Pizzagate shooter sentenced to 4 years in 
prison.'' CNN. 22 June 2017. Available at: http://www.cnn.com/2017/06/
22/politics/pizzagate-sentencing/index.html.
---------------------------------------------------------------------------
    Surely a foreign adversary of the United States sees an opportunity 
in combining these two scenarios. The greatest concern moving forward 
might likely be a foreign intelligence service, posing as Americans on 
social media, infiltrating one or both political extremes in the U.S. 
and then recruiting unwitting Americans to undertake violence against a 
target of the foreign power's choosing. Social media companies will be 
better positioned to stop this potential scenario from occurring than 
U.S. intelligence or homeland security that are blind to the technical 
signatures behind this manipulation.
    The U.S. Government's response to terrorist social media use has 
been sustained and significant, and their response to state sponsored 
influence on Americans disjointed and perplexing. In both cases, 
government officials have pointed to social media companies asking why 
they would allow their platforms to be used for nefarious purposes.
    Social media companies realize the damage of these bad actors far 
too late. They race to implement policies to prevent the last 
information attack, but have yet to anticipate the next abuse of their 
social media platforms by emerging threats seeking to do bad things to 
good people. In previous testimony to the Senate Homeland 
Security,<SUP>vii</SUP> Intelligence,<SUP>viii</SUP> Armed Services 
<SUP>ix</SUP> and Judiciary<SUP>x</SUP> committees, I've offered a 
range of recommendations for how to counter bad actors using social 
media in the pursuit of violence and nefarious influence. Today, I'll 
focus and reiterate a few of these recommendations.
---------------------------------------------------------------------------
    \vii\ Clint Watts. ``Terror in Europe: Safeguarding U.S. Citizens 
at Home and Abroad.'' Statement prepared for the Senate Committee on 
Homeland Security and Government Affairs, 5 April 2016. Available at: 
https://www.fpri.org/article/2016/04/terror-europe-safeguarding-u-s-
citizens-home-abroad/
    \viii\ Clint Watts. ``Disinformation: A Primer In Russian Active 
Measures and Influence Campaigns.'' Statement prepared for the Senate 
Select Committee on Intelligence, 30 March 2017. Available at: https://
www.intelligence.senate.gov/sites/default/files/documents/os-cwatts-
033017.pdf.
    \ix\ Clint Watts. ``Cyber-enabled Information Operations.'' 
Statement prepared for the Senate Committee on the Armed Services, 
Subcommittee on Cybersecurity, 27 April 2017. Available at: https://
www.armed-services.senate.gov/download/watts_04-27-17
    \x\ Clint Watts. ``Extremist Content and Russian Disinformation 
Online: Working with Tech to Find Solutions.'' Statement prepared for 
the Senate Committee on the Judiciary, Subcommittee on Crime and 
Terrorism. Available at: https://www.judiciary.senate.gov/download/10-
31-17-watts-testimony.
---------------------------------------------------------------------------
    The first and most pressing challenge comes in the debate over 
social media account anonymity and authenticity. Anonymity of social 
media accounts has in many cases allowed the oppressed and the 
downtrodden to speak out about injustice. It's given the weak a voice 
against the strong, powerful, and corrupt. But over time, anonymity has 
empowered hackers, extremists and authoritarians to inflict harm on the 
public. Under the veil of anonymity, they spread hate, recruit members 
and advance divisions in American society.
    All people, real humans and their virtual personas, have the right 
to free speech, but this right to free speech does not permit them to 
endanger society. Account anonymity today allows nefarious social media 
personas to shout the online equivalent of ``fire'' in a movie theater. 
Bad actors and their fictitious and/or anonymous social media accounts 
can and have created a threat to public safety. This is not protected 
free speech and many social media companies offer no method to hold 
these anonymous personas accountable.
    Social media companies can and should protect the public anonymity 
of account holders if the user chooses, but they must be able to 
determine a real, authentic person resides behind each persona 
accountable for their actions on the platform. Some social media 
companies have advanced better methods to certify account authenticity. 
However, the current level of authenticity on the Twitter platform is 
sub-optimal. I'd encourage Twitter to rapidly expand its verification 
to as many users as possible, as quickly as possible.
    Closely connected to the issue of account authenticity is the rise 
of computational propaganda. The negative effects of social bots far 
outweigh any benefits. The anonymous, replication of accounts that 
routinely broadcast high volumes of misinformation can pose a serious 
risk to public safety and when employed by authoritarians a direct 
threat to democracy. Social bots should be ceased immediately. For non-
automated accounts, reasonable limits on the number of posts any 
account can make during an hour, day or week should be developed. Even 
further, human verification systems (CAPTCHA) should be employed by all 
social media companies to reduce automated broadcasting.
    Federal laws governing attribution of political ads and 
solicitations in television, radio and print should immediately be 
extended to social media advertising conducted by political campaigns 
and political action committees. Social media political advertising 
will continue to grow in every election cycle and U.S. citizens must 
know the source of the information they consume in any medium--print, 
radio, television or social media.
    Social media companies continue to get beat in part because they 
rely too heavily on technologists and technical detection to catch bad 
actors. Artificial intelligence and machine learning will greatly 
assist in cleaning up nefarious activity, but will for the near future, 
fail to detect that which hasn't been seen before. Threat intelligence 
proactively anticipating how bad actors will use social media platforms 
to advance their cause must be used to generate behavioral indicators 
that inform technical detection. Those that understand the intentions 
and actions of criminals, terrorists and authoritarians must work 
alongside technologists to sustain the integrity of social media 
platforms. Some social media companies have already moved in this 
direction.
    I'd note it's unreasonable to think that every social media company 
can and should hire threat analysts for every possible emerging threat. 
But a variety of rapid outreach approaches with external social media 
analysts and threat experts positioned outside social media companies 
could easily be developed or even be collectively sponsored by social 
media companies. Several models from counterterrorism and cybersecurity 
could be adopted by Silicon Valley in this regard.
    I've made many other recommendations in the past but will close for 
now and can elaborate further on them during the question and answer 
session. In conclusion, some social media companies have done more than 
others to improve the safety and integrity of their platforms. Others 
have a lot of work to do to improve their platforms against
    bad actors. Ultimately, the American consumer will decide whether 
the benefits of using these services outweigh the risks. Many are 
walking away from social media applications because they can't trust 
the information being shared or tolerate the vitriolic user experience. 
Social media companies should move aggressively to thwart terrorists 
and authoritarians exploiting their systems not only because its what's 
best for their users and society, but because it's good for business as 
well.

    The Chairman. Thank you, Mr. Watts.
    Senator Nelson. Mr. Chairman.
    The Chairman. I recognize Senator Nelson for an 
introduction.
    Senator Nelson. We have a new member of the Committee.
    The Chairman. We do, indeed.
    Senator Nelson. Senator Jon Tester of Montana. Senator 
Tester has been wanting to get on this Committee for quite a 
while, and we are so happy that he finally was able to be 
appointed to the Committee. He brings a wealth of experience as 
a senior member of the Appropriations Committee to this 
committee.
    So, welcome, Senator Tester.
    The Chairman. Senator Tester.
    Senator Tester. Mr. Chairman and Ranking Member, I just 
very quickly--first of all, thanks for the welcome. I look 
forward to working on this Committee, although I will tell you 
I have flashbacks to 2007 right now. Thank you.
    The Chairman. Well, I also want to thank and welcome 
Senator Tester for joining the Committee. It's always nice to 
have another rural Senator on this Committee, somebody who is 
my neighbor and represents a state like mine where there are 
more cattle than there are people, and, obviously, an area 
where there are still cell phone and broadband free areas. But 
we're hoping to change that. Senator Tester can probably 
remember the days like I can when there were party phone lines. 
So we've come a long way, but we've got a long way to go, and a 
lot of the issues that we address on this committee are issues 
that impact the daily lives of people in his state just like 
they do with so many members of this Committee.
    Senator Tester, welcome. It's good to have you here.
    We're going to start with some questions, and I want to 
direct this to Mr. Monje and Ms. Bickert. As you mentioned, 
both of you, I think, in your testimony, Google, Facebook, 
Twitter, and Microsoft announced the formation of a hashing 
coalition to better identify and ultimately remove offending 
content. The question is: Is there any shared standard for what 
constitutes extremist or terrorist content in your coalition?
    Mr. Monje. Thank you, Chairman, for that question. Our 
companies are constantly working with one another and with 
civil society and with smaller companies to address the issues 
that change and evolve and new things that we see around the 
world. We are constantly adapting how we attack the challenge, 
and we do rely on the advice and good counsel not only of our 
peer companies but also of academics and NGOs.
    The Chairman. There's no standard definition, though, that 
you've agreed upon?
    Ms. Bickert. That's right, Mr. Chairman. I would just add 
that the companies--we launched the Global Internet Forum in 
June 2017, but we've actually been working together for a 
number of years informally. Part of those meetings is 
discussing what the appropriate standards are, recognizing, of 
course, that these different products work differently.
    But the two types of policies I think you most commonly see 
are first directed toward the groups having any presence on the 
platform. So, for instance, at Facebook, if you are Boko Haram, 
you cannot have a page on Facebook even if you're just talking 
about the lovely weather. You simply can't be on the platform. 
And then the other types of policies that you see certainly 
across the major companies is banning any praise or support of 
these groups or their actions.
    The Chairman. Ms. Downs, according to the Counter Extremist 
Project, one single bomb-making video used to instruct the 
Manchester suicide bomber has been uploaded to YouTube and 
removed 11 times but continues to resurface as recently as this 
month. How is it possible for that to happen? Why aren't your 
hashing efforts working to keep this video off your platform 
permanently?
    Ms. Downs. Thank you, Chairman. As I mentioned, we have 
strict policies against terrorist content, including videos 
that instruct people on how to commit terrorist attacks. This 
certainly includes bomb-making videos, videos instructing 
people on how to drive vehicles into crowds, and so on. This 
particular video was caught by our systems. We have used it in 
our hash-sharing database, and we are catching re-uploads of 
the video quickly and removing it as soon as those uploads are 
detected.
    The Chairman. Are your companies--and anybody can answer 
this. But are your companies, as you start to roll out some of 
these new counterterrorism programs--how do you have ways of 
measuring their effectiveness? What is sort of the metric or 
the standard?
    Mr. Monje. Chairman, at Twitter, we've really doubled down 
on the technology, on the machine learning, to try to identify 
and remove content as quickly as possible. So our metric is how 
many accounts are we taking down, how many accounts are we 
identifying proactively, and how many are we able to take down 
before they're able to tweet. And we've seen steady progress in 
that. We started--we were taking down about a third of our 
content proactively with our machine learning. Today, that's 
north of 90 percent, with 75 percent of that coming down before 
anybody gets a chance to tweet. So that's how we--that's our 
main metric.
    The Chairman. So it's been reported that ISIS surrogates 
are using AI bots to carry out recruiting and messaging 
campaigns, and as you all become more sophisticated in how to 
prevent and root out, the bad people also become more 
sophisticated in how to get around, and the threat evolves. So 
are you seeing that level of sophistication, and, if so, what 
are you doing to mitigate it--the use of AI against you by 
these groups?
    Does anybody want to take a stab at that?
    Ms. Downs. In addition to our policies against terrorist 
content, we have very aggressive and proprietary spam detection 
systems which would catch massive re-uploads of AI-generated 
videos. So our long history in fighting spam across our 
services is an effective technique to get at that behavior.
    The Chairman. Anybody else?
    Mr. Monje. I would just agree with you, Chairman, that it 
is a cat and mouse game, and we are constantly evolving to meet 
the challenge. When we, often in the past, would ban an 
account, suspend an account, they would try to come back and 
then brag about the fact that they were banned. That became a 
very strong signal for us which resulted in them being taken 
down even quicker. So they've stopped doing that.
    The Chairman. My time has expired.
    Senator Nelson.
    Senator Nelson. Mr. Watts, I'd like you to take my time and 
inform the Committee with your expertise what the Russians--for 
that matter, anybody else--can do to us in this coming 
election?
    Mr. Watts. Thank you, Senator. I think I would start off 
with--there has been no response from the U.S. Government with 
regards to Russian influencing campaigns with social media. So, 
therefore, they have stayed on course with their operations. 
During non-election years, they tend to focus on social issues 
and what I would say is audience infiltration. So any 
organization, entity, social media group that they really want 
to be able to move or influence later, they begin infiltrating 
that by just sharing the same content back with that audience 
and trying to develop their own content within it.
    Beyond just the United States and this Presidential 
election, I think we should look at all elections worldwide. 
They've realized that this playbook works very well. It's 
extremely cost-effective, and there has been almost no 
downside, at least to this point, of doing it. So you've seen 
it in Europe, where they continue to seed audience bases.
    Anywhere that they can break up a union--so the European 
Union or NATO--they will continue to seed in those populations. 
So I would tell you to look at Catalonia or even Scotland, 
places like that where they see an opportunity to break up an 
alliance, to create divisions within a democracy--they are 
moving there. I think Lieutenant General McMaster last week 
pointed to Mexico as another example of where they've seen some 
sort of audience infiltration.
    The key trigger I always look for is hacking. When they 
launch widespread hacking against a target, they are making a 
strategic decision to go after an objective, and that's one 
thing I would tell everyone to look for on the horizon.
    Beyond that, if you want to know where the Russians are 
going with their influence, you should always look at where 
they are putting up new state-sponsored outlets. To infiltrate 
an audience, you have to have a base of content to launch your 
campaign. So when they add an additional language or for their 
wire service--let's say Sputnik News--or an RT YouTube channel, 
that is an audience that they're going to reach for. And I will 
tell you right now, they are looking very heavily into Latin 
America. I think they would like to build a capability more in 
the Middle East moving forward.
    Beyond just Russia, they will focus on social issues to win 
over audiences during non-election years to then be able to 
pivot them toward whichever candidate or party they want to 
support moving forward. The goal isn't one party or the other 
and their victory. The goal is to create divisions inside the 
United States, and that will be their predominant focus moving 
forward, further polarizing the information landscape.
    I would also note that everyone is adopting this technique. 
You see it in Myanmar. You see it in the Philippines. Any low-
level educated population around the world that's on social 
media, particularly through mobile applications, is highly 
vulnerable to this. They have not built up the ability to 
assess information or how to avoid being influenced, and so 
they're highly vulnerable to this influence technique.
    And, last, I would say it's political campaigns and the 
companies that are going to be hired. If there's not some sort 
of regulation put around ads in social media, every political 
campaign, whether it's in the U.S. or around the world, will 
have to use a dark social media campaign through either Super 
PACs or candidates to keep up with their competitors, and it 
will further--it will not only harm the societies in which it's 
in, but it will actually harm the social media companies and 
their platforms. They will actually make the environment so 
terrible and so polarized, as we've seen over the past few 
years, that it will create just a nasty sense for democracy.
    If you want to look at how this has effected in Russia, 
Russia did this to their own people first before they came, you 
know, across the ocean. It creates widespread apathy in 
democracies. It dilutes the line between fact and fiction, and 
when that happens, you actually cannot keep a democracy moving 
forward. I think that's what's most dangerous about this entire 
system, is it's agnostic of party or candidate. Ultimately, 
it's about breaking our system and turning it against each 
other.
    Senator Nelson. So when you see them dive deep into the 
instrumentalities of government, such as the example that I 
gave, that there were half a million comments on the recent FCC 
rule, and when you see that--you read the public press that 
they're in 20 states' elections divisions, sketch out what are 
some of the dastardly things that they could do to undermine 
America.
    Mr. Watts. The one big thing that they would try and do is 
an information attack on the integrity of a democratic 
institution. That's really played out in both of those 
scenarios. With the FCC, it's ``you can't trust the FCC. We 
need to get rid of these regulatory bodies. You can't trust 
them. They're trying to mind control you.''
    The other part is the elections, the integrity of an 
election. The second campaign they launched in the run-up to 
2016 was voter fraud, election rigged. They didn't really care 
what candidate won. They wanted the American people to think 
that their vote did not count. The hacking campaign against 
voter databases--it was to sow doubt such that when you see the 
narrative of voter fraud, election rigged, you might think, 
``Oh, maybe my candidate didn't really get elected because my 
vote didn't count.''
    So it's about destroying democratic institutions and 
confidence in the U.S. Government or democratic institutions to 
govern properly, that the system is always rigged and you can't 
trust anyone. That's really the focal point of all of those 
efforts the Russians might run or any authoritarian regime that 
wants to run a campaign against the U.S. Government.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.

                STATEMENT OF HON. ROGER WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. So it wasn't so much an attempt to get one 
candidate elected over the other. It was knowing there was 
going to be loser and that relatively half of the population 
who supported that loser would think their vote hasn't counted.
    Mr. Watts. That was their second campaign. They ran four 
narratives during the first one which were specific to the 
candidates. Then in October 2016, they really shifted to the 
integrity of democratic institutions. So it was twofold. They 
were running to try and get a candidate they wanted up to 
election day, and then beyond election day, it was to create 
mass chaos inside the United States.
    Senator Wicker. Thank you for clearing that up. Let me move 
to Twitter.
    Is it Monje? Am I pronouncing it correctly?
    Mr. Monje. Thank you for asking, sir. It's Monje.
    Senator Wicker. Monje. OK. Good. Well, let me ask you, 
then--and is that a Cajun name? You told me you're from New 
Orleans.
    Mr. Monje. I am from New Orleans, sir. I'm a Saints fan. 
But my family is from Argentina.
    Senator Wicker. Very interesting. Let me ask you about 
aggregate user data. There are data analytics companies who 
purchase aggregate user data from all of you, Twitter. Is that 
correct?
    Mr. Monje. Yes, sir.
    Senator Wicker. So, for example, if I am an analytic 
company, and I want to work for the NFL, for example, I would 
purchase aggregate user data from Twitter and, using keywords, 
develop information that might be helpful to the National 
Football League.
    Mr. Monje. It depends on what it is they plan to use it 
for. A lot of times, what our data is used most often for is to 
target advertising.
    Senator Wicker. To target advertising. OK. Let me ask you 
this. Is that same ability to purchase aggregate data available 
to Federal law enforcement? Is it available to Federal anti-
terrorism agencies?
    Mr. Monje. It depends on what the purpose of the use of 
data is, and we have rules about how any entity, regardless of 
whether governmental or not, anywhere in the world, can use our 
data.
    Senator Wicker. And what are those rules with regard to 
terrorism?
    Mr. Monje. With regards to terrorism. I'd have to get back 
to you on the exact rule--on the exact language of that, sir.
    Senator Wicker. OK. Well, because this is pretty important. 
If a data analytics company wants to purchase data from 
Twitter, you're willing to sell that to them. What I want to 
know is if that company is going to supply information to 
agencies that are seeking information about terrorist 
activities and that activity is part of this aggregate user 
data. Will you sell that data to them? Because, frankly, I'm 
informed that you will not do so.
    Mr. Monje. Well, let me tell you a little bit about what we 
do with our data, sir, which is we--on our side, on the Twitter 
side of the equation--are very data-focused and use that data 
to inform the machines that help us fight the terrorists. We 
work on a daily basis with law enforcement.
    Senator Wicker. That's within the Twitter organization.
    Mr. Monje. Within the Twitter organization. We work on a 
daily basis with law enforcement, particularly with the FBI, 
and will respond to any request that they have, as long as they 
give us the proper legal process, and we are on a first name 
basis with our counterparts at the FBI.
    Senator Wicker. And what would that proper legal process 
be?
    Mr. Monje. It depends on what they're looking for. It could 
be a warrant--depending on whether they're looking for private 
or non-private information on--where they're looking for direct 
messages.
    Senator Wicker. Has Twitter told these data analytic 
companies that the purchases of this data cannot be used for 
counterterrorism purposes?
    Mr. Monje. They cannot be used for persistent surveillance 
of individuals.
    Senator Wicker. They can be used to target advertising and 
products and sales, but they cannot be used to help our anti-
terrorism agencies. Is that correct?
    Mr. Monje. We do help our anti-terror agencies, 
particularly the Federal Bureau of Investigation on a daily 
basis. And in response----
    Senator Wicker. But if a third----
    Mr. Monje. I'm sorry, sir. After you.
    Senator Wicker. Go ahead, please.
    Mr. Monje. No and to respond to their request, we have a 
very fast system that is an input--any time they have 
information to us, we turn it around as quickly as we can, 
within hours. We do not allow persistent surveillance of our 
users. We protect the privacy of our users.
    Senator Wicker. You protect the privacy of your users, even 
if a Federal agency wants to surveil that public information 
for anti-terrorism purposes?
    Mr. Monje. If an agency comes to us with the right process, 
and it's according to Federal law, the ECPA----
    Senator Wicker. But that's not what I'm talking about. I'm 
talking about an independent data analytics company.
    Mr. Monje. Yes, sir. So----
    Senator Wicker. You will sell that data to them, but you 
tell that company they can't use it for anti-terrorism 
purposes. Is that correct?
    Mr. Monje. We're not going to allow any company, whether 
they're selling cars or cereal or anything, the NFL, to 
persistently figure out where somebody is in a given time. But 
we do have news products, data alerts, for law enforcement, for 
the FBI, that they use.
    Senator Wicker. Ms. Bickert, is that the policy of 
Facebook?
    Ms. Bickert. Thank you, Senator. We don't sell user data 
outside the context of allowing people to target audiences in 
their advertisements. That is a capability that is equally 
available to law enforcement, as it would be to anybody else. 
Law enforcement can provide us--if they want to find out 
specifics about an individual user, they can provide us with 
legal process, and we will respond.
    Senator Wicker. What is the privacy concern that supersedes 
the need to surveil terrorist organizations that participate in 
Facebook?
    Ms. Bickert. Senator, we absolutely respond to valid law 
enforcement requests. If it's part of an investigation, and 
they give us that process, we do respond.
    Senator Wicker. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wicker.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I came in, and three senators told me, Mr. Monje, that you 
were a Saints fan. Is that correct?
    [Laughter.]
    Senator Klobuchar. I would just like to note my scarf and 
who won the game.
    Who won the game, Mr. Monje?
    Mr. Monje. It was an excellent game, and it was a 
spectacular ending for the Vikings.
    Senator Klobuchar. Thank you very much. Now, let's get to 
some serious matters.
    So we've had a hearing focused on the election piece of the 
internet, and I note that, while I want to get to some 
questions about terrorism as well, there are many ways we can 
undermine our country and undermine our democracy. One is 
obvious, with violent attacks. Another is if Americans aren't 
able to make their own decisions about who they were voting for 
because they get false information. So that's why Senators 
Warner, McCain, and I have introduced the Honest Ads Act. We 
had an entire hearing about this over in Judiciary.
    But I would just start with you, Mr. Watts. As you know, 
right now, there are disclosure rules so radio, TV, print--they 
all have to keep on file ads of national and political 
importance, legislative importance, as well as candidate ads, 
so that opposing campaigns' press can see these ads, as well as 
disclaimer requirements. Do you think those should apply to 
social media ads, paid ads as well?
    Mr. Watts. Absolutely. If it does not happen, I mean, both 
from society and social media's perspective, the conversation 
will continue to get more polarized and more negative, and 
people won't be able to trust information on the platform, 
regardless. So I think it's essential that the ad regulation 
extend to social media because that's where all advertising is 
going in the future.
    Senator Klobuchar. Exactly. We had $1.4 billion in the last 
election, and there are projections it's going to go to $3 
billion or $4 billion and things like that, and there are 
literally no rules. We do appreciate that a number of the 
companies, including the ones here, have stepped up to start 
putting in place some of their own guidelines and changes. But 
I do believe that this won't work unless we have guidelines 
like we have for media. Do you agree with that?
    Mr. Watts. I do. If we don't, it can have a very 
devastating effect and force all political campaigns 
essentially to try to do social media manipulation that's maybe 
not entirely authentic.
    Senator Klobuchar. Thank you. Terrorist online recruiting--
my state has had its share of that recruiting, especially 
related--some from ISIS, but in past years, al Shabaab. We've 
had dozens of prosecutions out of our U.S. Attorney's office, 
successful ones, where people have actually been recruited to 
go overseas to fight on behalf of terrorist groups.
    What kind of recruiting activity are you able to detect on 
your platforms, and what can you tell us about the trends? How 
are they changing their strategies? I remember the FBI showing 
me the ads targeted at Minnesota with literally airplane 
tickets from Minnesota to Somalia for terrorists. So tell me 
what you're doing now and what you see in terms of recruiting 
and what you can do about it.
    Anyone?
    [No verbal response.]
    Senator Klobuchar. OK. Should I call on people?
    Mr. Watts. Well, I'm sure they don't want to answer as much 
as I do, so I'll go first.
    [Laughter.]
    Mr. Watts. What I would say is that what we should note is 
that these social media companies here were the forerunners, 
but they're also the dinosaurs of the social media era, meaning 
that they're the largest platforms and they have the greatest 
capability to actually deter this activity. But in the future, 
if I were a terrorist or an extremist group trying to mobilize, 
I would go to the smaller social media applications that have 
the greatest encryption, the largest dissemination capability, 
and I would focus there and then move to other social media 
platforms, because there would be less ability for them to 
deter my activity on the platform.
    With that, in terms of the extremists, I think you need to 
look at what are the social media applications essentially 
being used by language--language is the key for actually doing 
recruitment--and where are the populations in each of your 
states and cities that are refugee populations, immigrant 
populations, and then how does that sort of play out, and who 
are they interfacing with overseas.
    Senator Klobuchar. One last question here. Throughout the 
2016 cycle, Russians worked to influence the U.S. electorate, 
as I mentioned, and part of it was they did it by searching 
algorithms to promote misinformation. In the current news era, 
information is consumed rapidly, and algorithms play a 
significant role in deciding what content consumers see.
    Mr. Monje and Ms. Bickert, what are Twitter and Facebook 
doing to help ensure the information appearing in search 
results and on consumers' feeds is free from that kind of 
exploitation?
    Mr. Monje. Thank you very much, Senator, for that question, 
and we do quite a bit to protect our search, in particular. 
More than 95 percent of our users as a default setting have 
safe search as part of their experience on Twitter. So what we 
do is when we identify a bot, malicious automation, which is a 
lot of the ways that this kind of information has promulgated 
on the internet, is that is severely down ranked so it's very 
hard to find.
    Senator Klobuchar. Ms. Bickert?
    Ms. Bickert. Thank you, Senator. We are increasingly 
finding new ways to disrupt false news and help people connect 
with authentic news. We know that's what they want to do. We're 
also investing in efforts to help people distinguish between 
the two, which includes basic education and public outreach.
    As far as disrupting the false news, oftentimes--because we 
have a requirement that people have to use Facebook with their 
authentic name--if we can identify inauthentic accounts--and 
we're getting much better at that--we can remove those accounts 
and the false news goes away. The majority of the actors that 
we see trying to spread disinformation are financially 
motivated. So that goes a long way.
    We're also working with our community to flag false news, 
send it to third-party fact checkers, and make that content 
less visible and put it in context. So now, if you come to 
Facebook and you see a story in your news feed that is an 
article that has been flagged as potentially false by our 
community, we will also show you some related articles 
underneath it so that you have a sense of where this story sits 
in the broader spectrum of news.
    We're working with responsible publishers to make sure that 
they know how to most effectively use social media, and then 
we're also working on user education campaigns.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you. Thank you to you 
and the Ranking Member for conducting this hearing. I think 
it's one of the most interesting and potentially valuable 
hearings we will have had, and what a great development it 
would be if we could reduce the military necessity and the loss 
of life that comes from military action in fighting terror if 
we can keep it from occurring in the first place.
    So thank you for being here. Thank you for your testimony. 
Let me ask this. Some of you covered in your testimony 
collaborative efforts among multiple businesses and groups that 
involved a shared industry database, which eventually led to 
the formulation of the Global Internet Forum to Counter 
Terrorism. I want to know more about that collaboration.
    Part of the reason for that question is that my guess is 
that as larger social media companies become more innovative 
and effective in what you're attempting to accomplish, 
preventing terrorism, it would seem to me that other smaller 
platforms may become the platform of choice in this space. So 
if you're successful in your efforts, what prevents terrorists 
from moving to a different platform, and, therefore, what's 
those smaller platforms' engagement in what you're doing? It's 
directed at anyone who desires to answer. Or maybe if no one 
does----
    Ms. Bickert. Thank you, Senator. That is exactly what we 
were thinking as the large companies, was that we needed to 
make sure that this movement was industry-wide. With that in 
mind, we reached out to a number of small companies several 
years ago. I think we reached out to 18 companies initially. 
All 18 said yes, they wanted to meet to talk about best 
practices to counter terrorism.
    We then met for more than a year before we ultimately 
launched the Global Internet Forum. Through that forum, which 
we launched in June, we've since had five international working 
group sessions with 68 smaller companies based around the 
world, and this is an opportunity for us to share expertise and 
learnings from the larger companies.
    Senator Moran. And let me take that a step further. So what 
are the smaller companies, smaller platforms, doing? They're a 
participant in this collaboration? They're doing something 
similar to what you're telling us that your companies are doing 
today?
    Ms. Bickert. Yes, Senator. Often, they are learning from 
what we are experiencing as the larger platforms in terms of 
the conduct that we see from bad actors, the policies we've put 
in place, and how we're thinking about using technology and 
people to combat those threats.
    Senator Moran. Anyone else?
    Mr. Monje. I would just add that, you know, we've been 
extremely successful at taking terrorist content off of 
Twitter. It's a tremendous success for Twitter, but it doesn't 
eliminate the terrorists and them moving to other platforms 
like Telegram. It doesn't help everybody. You know, Twitter is 
a smaller company among the giants, and so we often--because 
we've had to be creative and innovative in our use of 
technology--can help be a bridge to the smaller companies and 
tell them you can make significant progress. You just have to 
invest in the technology.
    Senator Moran. What evidence do you see that terrorist 
organizations are changing their behavior as a result of what 
you're doing?
    Mr. Watts. There is open--you know, in some of their forums 
right now--they're trying to find a platform where they can go 
in a secure fashion, communicate, and push their propaganda 
around the world. So they're actively seeking new platforms.
    And I think your question is a great one, which is how do 
we help these small companies that are developing new social 
media applications, who don't have the capabilities in terms of 
security, ward this off, and I don't think there's a good 
answer for that question. But they are seeking a new home. They 
just haven't found it yet.
    Senator Moran. Mr. Watts, is the response by terrorist 
organizations to seek a new home, or are they finding ways to 
hinder your efforts, or both?
    Mr. Watts. Both. They're looking for a place where they can 
communicate and organize, but they have to be able to push 
their propaganda globally in order to recruit and gain 
resources, so they need some way to do that. They will continue 
to try and exploit these small applications, but it's tougher 
for them on these small applications because, globally, there 
are not as many people on them.
    So it's a better problem to have than what we've had in the 
past, but it really begs the question that, ultimately, one of 
these social media platforms that's popular overseas will start 
to gain traction with them, either due to its encryption 
capabilities or how they can connect with audience or how they 
can load and share videos. I think this is important across all 
extremist groups. If you look at some of the platforms that are 
out there, Reddit, 4Chan, these anonymous platforms, they also 
can be great tools, and it would be great to see them 
integrated with the bigger companies that have way more 
capability to detect that activity.
    Senator Moran. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Moran.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you all for being here. Context--Facebook had $10.3 
billion in revenue last quarter, about 23,000 employees, if I'm 
not mistaken; Twitter, $590 million in revenue last quarter, 
3,700 employees. So my question for Facebook and Twitter is: In 
dollars, as a percentage of revenue, however you want to 
calculate it, and in terms of employee count, both part-time 
and full time, how many people, how many dollars are you 
devoting to this problem?
    Ms. Bickert?
    Ms. Bickert. Thank you, Senator. This has been a 
significant area of investment for us, not just now, but over 
the past years. But I do want to point to a recent announcement 
from our CEO, Mark Zuckerberg, after we released earnings last 
quarter where he specifically pointed to the fact that as we 
invest in safety and security, people should expect to see 
Facebook's costs go up. That's reflected in the fact that we 
now have more than 7,500 people who are working to review 
terror content and other potential violations.
    We have 180 people who are focused specifically on 
countering terrorism. So these are people like the former 
academics, like Brian Fishman, formerly with the West Point 
Counterterrorism Research Center, and others.
    Senator Schatz. So 180 full time; 7,500, it's part of their 
job?
    Ms. Bickert. Seventy-five hundred are content reviewers. In 
the area of safety and security, more generally, we have 10,000 
people currently. We are looking to be at 20,000 by the end of 
the year.
    Senator Schatz. Mr. Monje?
    Mr. Monje. It is fewer than that. But I can tell you that 
our entire engineering, product, and design team at various 
stages are all working on this. We're a small team. We have to 
be supple. We have to be able to shift as the challenges move. 
The numbers that are really important also to look at are 2 
billion users, 400 hours of video every minute, and, for us, 
350,000 tweets every minute.
    This isn't--in order to make progress on this issue, you do 
need to have humans, and we have former law enforcement; we 
have experts; we partner with contractors, consultants, 
academics----
    Senator Schatz. I want to give you an opportunity to set 
the record straight about fake accounts. I've been reading a 
lot about this. I saw anywhere from 9 percent to 15 percent 
fake. I saw another USC study that said it's actually 48 
million out of your nearly 300 million users. What's the 
number? How many fake accounts do you have?
    Mr. Monje. We believe that fewer than 5 percent of the 
accounts on Twitter are fake accounts.
    Senator Schatz. Now, if you've kind of zeroed in on--let's 
stipulate that it's 5 percent of almost 300 million, right? If 
you know they're fake, what's the issue here?
    Mr. Monje. We are--they keep coming back, and they try 
different methods to get back on the radar screen, actually, 
and so we are, as a matter of course, consistently fighting 
malicious automation. We are now challenging 4 million 
malicious automated accounts a week. That means we are 
essentially sending them a note saying, ``You're acting weird. 
Can you verify you're a human being?'' That's double where we 
were last year.
    Senator Schatz. Can I just talk to you about bots a little 
bit? I know this is a hearing about terrorism, primarily, but I 
think it's worth asking what we're doing about active measures. 
You know, there was public reporting that the Roy Moore 
campaign went from 27,000 to 47,000 Twitter followers over the 
weekend, and a substantial portion of those appeared to be 
located in Russia. We had the take-a-knee thing where, clearly, 
there was an active measure to try to just sow discord. In 
other words, you've got bots and bot farms out there that are 
taking both sides of the argument.
    So when we get into a conversation about active measures 
against our country, I don't think we should think of it as 
active measures against Democrats, and I don't think we should 
assume that it's just Russian active measures. We have to think 
of this as undermining democracy itself and undermining our 
ability to have our First Amendment rights exercised in any way 
that's meaningful.
    So my question for you is--I mean, this is relatively 
recent, and it doesn't seem to--you can give us the measure of 
your activities, you know. Four million accounts are being 
challenged, and 500,000 accounts have been taken down. But 
based on results, you're not where you need to be for us to be 
reassured that you're securing our democracy. To the degree and 
extent that elected officials and people who vote and our 
adversaries are participating in your platform, how can we know 
that you're going to get this right and before the midterms?
    Mr. Monje. Yes, sir. Thank you for that question, and 
that's exactly the question that we ask ourselves every day. We 
think we're better prepared for this election than we've ever 
been. We are continually improving our tools, and we're going 
to get better, and we're going to report to the American people 
the results of our efforts.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Senator Young's not here.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Last month, the FCC gutted the net neutrality rules that 
protected the Internet as we know it, and as a result, the next 
Facebook, the next YouTube, the next Twitter will struggle to 
get off the ground. I strongly oppose that FCC decision, which 
is why I plan to introduce a Congressional Review Act 
Resolution of Disapproval, which will undo the FCC's recent 
actions and restore the 2015 Open Internet Order. My resolution 
enjoys the support of Democrats. Susan Collins, the Senator 
from Maine, has indicated that she will vote for it.
    My question to each company here is simple. Do you support 
my CRA resolution which would put net neutrality back on the 
books?
    Mr. Monje.
    Mr. Monje. Yes, sir. Thank you for your leadership on this 
issue. It's an important issue for our company and for our 
users.
    Senator Markey. You would support it. Thank you.
    Ms. Downs.
    Ms. Downs. We support strong enforceable net neutrality 
protections. We supported the 2015 rules, and we will support 
any effort to put those rules back in place.
    Senator Markey. Thank you.
    Ms. Bickert.
    Ms. Bickert. Thank you, Senator. Same answer. We will 
support the CRA, and we also support and will work with anybody 
who's interested in working to find a way to put those rules 
back in place.
    Senator Markey. Thank you. We thank each of you. Thank you 
so much.
    Next question. Bad actors can and do use the internet and 
social media to acquire weapons, including firearms. That's why 
in 2016, I wrote a letter to Facebook and Instagram asking why 
gun sales continue to take place on their sites, even after 
announcement of self-imposed policy changes aimed at 
eliminating this type of activity. I was pleased when both 
Facebook and Instagram announced they would prohibit individual 
users from buying and selling firearms on their sites.
    Yet recent media reports indicate that users are still able 
to gain access to deadly weapons on social media. Just last 
month, the Chicago Police Department arrested 50 people in a 
case involving the sale of illegal guns in Facebook groups.
    Ms. Bickert, it appears that gun sales on your platform may 
have moved into private Facebook groups. How is Facebook 
working to stop the sale of firearms in that corner of your 
platform? Notably, the Chicago Police Department said it did 
not receive cooperation from Facebook during its 10-month 
investigation. Law enforcement officials reported that Facebook 
hampered their investigation by shutting down accounts that 
officers were using to infiltrate the group in question.
    Ms. Bickert. Thank you, Senator. It's certainly an issue 
that we take seriously, and as a former Federal prosecutor 
based in Chicago, our relationship with law enforcement 
authorities is very important to us. We have cooperated with 
law enforcement and will continue to do so in that case.
    We do not allow firearm sales. Enforcement has presented 
challenges for us, and to get better, one of the things we're 
doing is working on our technology. Anybody in the community 
can report gun sales to us, and we will take action, and that's 
important, and that does happen even in private groups. But we 
know we need to do more, and that's why we're now using things 
like image prediction technology to help us recognize when 
those sales might be taking place.
    Senator Markey. So since Instagram can turn into Instagun, 
you know, for someone who intends on using it for nefarious 
purposes, the answer that you would give to the Chicago Police 
Department when it said it did not receive cooperation from 
Facebook during its 10-month investigation is that you did 
cooperate or that you have now established a policy of 
cooperation with the Chicago Police Department and every police 
department across the country?
    Ms. Bickert. Thank you, Senator. I believe they clarified 
their statement afterwards. We have been cooperative with them 
from the beginning, and I would be happy to follow up 
afterwards with you on that.
    Senator Markey. That would be helpful. And in terms of the 
private Facebook groups that this type of activity has migrated 
to, you are saying as well that you are working to shut that 
down as well?
    Ms. Bickert. That's right, Senator. This is an area where 
we recognize enforcement can be challenging, and we have to be 
proactive in looking for solutions. So we're trying to make it 
easy for people to report, but also going further to look for 
this content.
    Senator Markey. Thank you. And that's why this hearing is 
so important.
    I would thank you, Mr. Chairman, because the internet can 
be used to spread hate, but it can also be used to spread 
weapons of war into the hands of those who are the haters and 
do enormous harm in all of our communities across the country. 
So thank you.
    We thank each of you for your testimony.
    The Chairman. Thank you, Senator Markey.
    I would just ask the three, too, that you all, I assume, 
would support legislation that would put in place rules for an 
open Internet as well. Would that be true?
    Mr. Monje. Twitter has long been a supporter of net 
neutrality, and, hopefully, Congress can develop good rules.
    Ms. Downs. Same answer.
    Ms. Bickert. Same answer, Mr. Chairman.
    The Chairman. Very good.
    Next up is Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman and Ranking 
Member, for this important hearing.
    Much of the conversation today has been focused on 
addressing foreign terrorist organizations' use of your 
platforms as tools to recruit and radicalize individuals both 
here and abroad. I'd like to turn to how you are addressing the 
use of social media to further domestic extremism. Whether it's 
the vehicular attack on counter-protestors in Charlottesville 
this summer or the 2012 shooting at a Sikh temple in my home 
state of Wisconsin, we've seen numerous individuals subscribing 
to racist ideologies turning to violence.
    Beyond that, there's a disturbing increase in hate crimes 
in this country, as documented by FBI's limited collection of 
data from state and local law enforcement. As with other forms 
of extremism, social media is undoubtedly playing a role in 
spreading these ideologies and channeling these individuals 
into violent action. How are your companies working to address 
the role of social media in furthering domestic extremism, 
particularly white nationalist or white supremacist violence?
    I'd like to start with you, Ms. Bickert.
    Ms. Bickert. Thank you, Senator. I want to be clear that 
our policies prohibit any group that is either a violent 
organization--and that's regardless of ideology. So if it is a 
domestic terror organization, if it's a foreign terror 
organization, no matter what the ideological underpinning is, 
they are not allowed on Facebook.
    But we also prohibit hate organizations, and these are 
groups that are propagating hate based on a protected 
characteristic, like race, religion, gender, gender identity, 
and so forth. The same consequences under our policies apply. 
They're not allowed to be on our platform. People cannot praise 
or support them.
    Senator Baldwin. Ms. Downs.
    Ms. Downs. Thank you, Senator. Our violent extremism 
policies apply to violent extremism in all its forms, including 
white supremacy and other forms of hatred, and we apply our 
policies against incitement to violence and violent ideology 
consistently across violent extremism in all its 
manifestations.
    Senator Baldwin. Mr. Monje.
    Mr. Monje. That's a very similar answer for Twitter as 
well. We don't allow violent extremist groups. We don't allow 
glorification of violence. I think it's also when--you know, 
Charlottesville was a hard day for a lot of folks, and I think 
what you saw not only online was the very small minority of 
folks who were saying terrible things, but the vast majority of 
folks who were coming out to reject it.
    Senator Baldwin. I'm going to turn to a different topic. 
I'm concerned by President Trump's and Secretary of State 
Tillerson's reluctance to support, fund, and staff the State 
Department's Global Engagement Center, which is tasked with 
coordinating U.S. efforts to counter extremist propaganda and 
recruitment as well as Russian active measures like 
disinformation.
    I'd like to hear from each of the companies about their 
experiences working with the Center and how cooperative efforts 
could be improved.
    And, Mr. Watts, what are the national security impacts of 
this administration's failure to prioritize the Center, 
especially in the context of Russia?
    Why don't we again go right down the line?
    Ms. Bickert.
    Ms. Bickert. Thank you, Senator. We are committed to 
working with governments around the world in promoting and 
finding counter-speech solutions. We have worked with the 
Global Engagement Center and others in the U.S. Government. We 
have found that collaboration to be effective. Often, what we 
find is that government can be very effective as a convening 
power for bringing together civil society stakeholders and then 
industry and researchers to get together and share their 
knowledge. That's something that we hope to continue in the 
future.
    Ms. Downs. Thank you, Senator. Our efforts to combat 
terrorism on our product obviously start with making sure we're 
removing the most egregious content. But an equally important 
part of the strategy is our investment in counter-speech, to do 
the hearts and minds work to address these issues at their 
root. So we meet regularly with NGOs and government actors, 
including the State Department and the Global Engagement 
Center, to talk about counter-speech and the importance of 
investing in that work.
    Senator Baldwin. Mr. Monje.
    Mr. Monje. A very similar answer as well, in that, you 
know, government does have an important role in combating this 
issue and not only investing in counter-speech but investing in 
the groups that are authentic voices in their communities.
    Senator Baldwin. Mr. Watts.
    Mr. Watts. I'm absolutely baffled as to why the Global 
Engagement Center--they received that mission, from what I 
understood, in 2016 before the election. Senator Portman, if I 
recall, was one of the leaders of that, and I had actually 
communicated with their staff on the Russia issue. At a bare 
minimum, the U.S. Government needs to have a real-time 
understanding of what Russia is doing in social media.
    The Hamilton 68 platform I've tried to provide to the U.S. 
Government directly through multiple agencies. I have briefed 
the U.S. Government since 2014 in different contexts on Russian 
active measures. I sit here today and I have no answer for you.
    I don't understand why we wouldn't, at a minimum, 
regardless of the outcome of the election in 2016, want to 
equip our intelligence agencies, our law enforcement agencies, 
and the Department of Defense with just an understanding--we 
don't even have to counter--just an understanding of what 
Russian active measures are doing around the world. There's no 
excuse for it. I can't understand it.
    The Chairman. Thank you, Senator Baldwin.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman. I really 
appreciate you and the Ranking Member pursuing this very, very 
important topic.
    Terrorism and social media is a challenging and, I think, 
pressing subject, and I recognize that technology companies 
cannot solve this alone. But they must do more, and I think 
that has been highlighted by the questioning you've seen here 
today. I'm focusing--my first question is similar to Senator 
Baldwin's. I'm particularly concerned about the explosion of 
white supremacists online.
    In December, after years of posting fantasies about school 
shootings and hate-filled racist rants over many internet 
platforms and many other identities, a young man took a gun to 
a local high school in Aztec, New Mexico, and killed two 
students before taking his own life. And listening to you, I'm 
wondering, you know, what can be done in this kind of 
situation?
    Ms. Bickert, in your testimony, you highlighted the efforts 
that Facebook is taking to counteract ISIS and other foreign 
terrorists. But can you speak to the efforts Facebook is taking 
to fight one of the most and biggest--one of the biggest 
threats to us in the United States, domestic terrorists like 
white supremacists? I mean, in this kind of situation where you 
have an individual under various identities taking positions 
and indicating right on the edge of violence, what can be done 
in this kind of circumstance, and have you run into situations 
like this before?
    Ms. Bickert. Thank you, Senator. It's certainly an 
important issue. We stand against violence in all its forms, 
and we don't allow any violent organization, regardless of 
ideology. If we become aware of a threat of violence, credible 
threats of eminent harm to somebody, we proactively reach out 
to law enforcement authorities, and that is something that we 
have done in cases where we've seen a threat like a shooter. 
Whatever the ideology is, it doesn't matter. We will 
proactively provide that to law enforcement.
    Senator Udall. Mr. Watts, do you think more could be done 
here based on the answers you hear?
    Mr. Watts. In terms of domestic extremism, I side with the 
social media companies in the sense that it's difficult to 
understand where to fall, because there's not good leadership 
from the U.S. Government about what a domestic extremism group 
is. We have the luxury----
    Senator Udall. Do you think we could do more there, in 
terms of the government?
    Mr. Watts. Yes. If we delineate more appropriately as a 
Federal Government, we can then enable the social media 
companies to effectively draw the line. I don't like the social 
media companies having to decide what is free speech versus 
violent speech or extremist versus norm. It puts them in a 
terrible position. I also don't think it's good for business 
and their platforms.
    At the same time, you know, how do you do that short of a 
violent threat or an eminent threat? To do that, we would have 
to have the equivalent of an FTO or a foreign terrorist 
designation program in the domestic context. I'm not sure how 
we get there.
    Senator Udall. And that may be something we should 
consider, is how to urge the government to be more specific 
here and outline areas where we could work with industry in 
order to move that along.
    Mr. Watts. I think--so it's difficult, even from the FBI's 
perspective, that there are two different playbooks. There's 
the international terrorist playbook and the domestic terrorist 
playbook, and without that formalization of what an extremist 
group is or an extremist, individually, is, it's really hard, I 
think, for any corporation or company to evenly and 
legitimately enforce any sort of regulation on a user or a 
group.
    Senator Udall. Mr. Monje, in your testimony, you outlined 
Twitter rules against terrorism that expressly include that 
users--and I'm quoting here--``cannot make specific threats of 
violence or wish for serious physical harm, death, or disease 
of an individual or group of people,'' end quote. I'm curious, 
then, what Twitter's position is on one of the President's 
video tweets, where he was body slamming a person with the CNN 
logo superimposed on their face. The video appears to promote 
serious physical harm to CNN reporters in the context of an 
alarming increase in violence against reporters in the U.S.
    Mr. Monje. Thank you very much, Senator, for that question. 
No Twitter user is above the Twitter rules. As we action 
accounts on any given moment, we are looking whether they are 
trying to do satire, whether they're trying to do humor, even 
if it's not successful humor. We also recognize that world 
leaders do have a special voice, and it is in the public 
interest for their constituents to hear from them.
    Senator Udall. Well, I don't think this was humor, and I 
don't think the result--I think if you look at the--what CNN 
reporters have said since this, there's more violence toward 
them. There's more animosity toward them. I think you need to 
look at it in the whole context, and I would encourage all the 
companies at this table to take threats to journalists very 
seriously. I'm extremely concerned when any threats of 
violence-based reporting that the President finds disagreeable 
with our President calling U.S. media outlets ``the enemy of 
the people.'' I think it is up to all of us to safeguard the 
First Amendment.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman and Ranking Member 
Nelson. Thanks for having this hearing, and I want to thank the 
witnesses today.
    I think we'll start with you, Mr. Watts. Can you tell me 
why transparency behind who's paying for political ads and 
issue-based ads is important?
    Mr. Watts. Yes. I think the number one issue with that is 
public safety. We saw with Russian active measures one of the 
primary things they sought to do was actually mobilize the 
population regardless of the election, mobilize people to 
protest or counter protest, which can lead to violent 
confrontations. At the same point, those advertisements, when 
annotated and noted based on campaign laws, give legitimacy to 
those advertisements so that the public actually knows what is 
a real political stance versus a false or manipulated truth or 
a narrative, they have to stand behind their actions. I think 
that's important for the public to restore trust and faith in 
the democratic processes.
    Senator Tester. Could it also have impacts on election 
results?
    Mr. Watts. Yes. It makes it more difficult for a foreign 
adversary or even a social media manipulator with a lot of 
resources and an ax to grind to do character assassination or 
to tear down social movements.
    Senator Tester. OK. So--and this goes to any one of the 
other three that wants to answer this. Can you tell me why you 
don't tell us who's paying for the ads, whether they're 
political ads or whether they're issue-based ads? Who wants to 
answer that?
    Mr. Monje. Thank you, Senator. Twitter is very proud that 
we last year announced industry-leading transparency practices 
for political advertising.
    Senator Tester. So do you tell people who's paying for the 
ads?
    Mr. Monje. For electioneering ads, yes, sir.
    Senator Tester. How about issue-based ads?
    Mr. Monje. Issue-based ads are a harder-to crack. It's 
harder to determine--and we are working with our colleagues, 
with our peer companies, to try to figure out what the right 
way to address those issues are.
    Senator Tester. OK. How about the other two? Do you want to 
talk about political ads versus issue-based ads and if you're 
telling us who's paying for them?
    Ms. Downs. We're working to put more transparency into the 
election-based advertising system and are taking four steps in 
advance of the 2018 midterms. The first is verification. We 
will require advertisers to identify who they are and where 
they're from before purchasing advertisements. We'll also 
launch in-ad disclosures where we notify users of who is 
running an election-based ad. We'll release a transparency 
report on election advertising purchased through Google, and 
we'll also release a creative library to the public where all 
of those advertisements are made public.
    Senator Tester. And will that release of the transparency 
report have who's paid for the ads?
    Ms. Downs. I believe it will, yes, sir, Senator.
    Ms. Bickert. Thank you, Senator. Our answer is 
substantially similar to my peer companies on the issue of 
Federal election related ads. And like Mr. Monje, political 
ads, broadly, is a little bit more complicated, but certainly 
an area where we think increased transparency is important.
    Senator Tester. Political ads are more complicated than 
issue-based ads, or the other way around?
    Ms. Bickert. The issue-based--I'm sorry, Senator. The 
issue-based ads--they're hard to define. But that said, we're 
very interested in how we can increase transparency, and we 
look forward to talking to yourself and other policymakers 
about it.
    Senator Tester. Well, I would just tell you this as an 
editorial comment. I would agree with Senator Schatz. I don't 
think this is a Democrat-Republican issue. I think this is a 
democracy issue, and you guys are smart guys, and just about 
everybody I read writings of tell me that it's not that 
difficult, and they're smart people, too. So I would hope that 
you guys really would put pen to paper, if that's what you do 
these days, and figure out how you can let people know who's 
paying for ads. And I think issue-based ads, by the way, are 
just as important as political-based ads, because those fall 
into the political category, and I would just say that's 
important.
    Every one of you said that you did not like the FCC 
decision on net neutrality that came out a month or two ago. 
During that debate, we had learned that there were bots that 
dropped comments into the hopper that distorted the whole 
public comment period. How is that going to be stopped the next 
time we have a public comment period on a rule that's written 
by an agency?
    Anybody want to answer that? And I'm out of time, so make 
it quick.
    [No verbal response.]
    Senator Tester. I'll tell you what. We'll not occupy the 
time of the Committee. Give me an answer to that in writing 
when you go back to your folks.
    This is a really important issue. I just want to say this 
is a really important issue, from a terrorist standpoint, from 
all the questions that were asked before. But our democracy is 
at risk here. We've got to figure out how to get this done and 
get it done right and get it done very quickly, or we may not 
have a democracy to have you guys up to hear you out.
    The Chairman. Thank you, Senator Tester.
    Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman, for holding 
this hearing on terrorism and social media.
    YouTube went from having 40 percent of its post takedowns 
last June, being identified by algorithms, AI, and machine 
learning, to 98 percent today. Twitter went from roughly 33 
percent detection of terrorist accounts in 2015 to more than 90 
percent of the detections today, again attributable to 
algorithms, AI, or machine learning. Facebook has stated that 
nearly 99 percent of ISIS and al Qaeda related content is 
detected and removed before anyone even reports it.
    So what is--Ms. Bickert, Ms. Downs, Ms. Monje, what's 
responsible for the recent increase in the use of AI and 
machine learning for this purpose of taking down posts? Is it 
primarily because of a new commitment to take down posts by 
your companies, or is it simply that the technology is finally 
at a place to be effective, or some combination thereof? We'll 
start with Ms. Bickert.
    Ms. Bickert. Thank you, Senator. It's definitely a timely 
question. These innovations have been happening over the years. 
We have seen a lot of improvement, particularly over the past 
one to two years at Facebook. A lot of these efforts have been 
in place since I joined the company 6 years ago, such as still 
image hashing, but it has gotten better.
    In the fall of 2016 is when we finally found video hashing 
to be sufficiently reliable, where we could use it to detect 
these terror propaganda videos. And for some of them, like a 
beheading video, that we know violates our policies regardless 
of how it's shared, we could actually accurately identify it 
and stop it at the time of upload. That's something we've been 
trying to do for a while and had not been able to do.
    Another area where we've gotten better is in detecting 
recidivists. So we take down the bad account. They try to come 
back. That's something that for a variety of reasons has been 
important to the company for years, but an area where we've 
made significant progress in the past one to two years.
    And then the final advance I'll point to before turning to 
my colleagues is in the area of natural language understanding. 
This is hard. We have many different languages that we support 
on Facebook, and when you train these models, they have to be 
trained on sufficient data. So this process takes a long time, 
but we are making progress here, and we're now using it in the 
area of terrorism where we couldn't before.
    Senator Young. Thank you.
    Ms. Downs.
    Ms. Downs. Thank you, Senator. We've always used a mix of 
technology and humans to enforce our policies, and as 
technology gets better, we see it doing more of the heavy 
lifting in detecting the content that violates our policies and 
needs to be removed. These are a reinforcing loop, where as 
humans make judgments about what content violates our policies, 
that feeds back into the training set of data to teach the 
classifiers and algorithms what they're looking for. So the 
more content we review over time, the better and better these 
classifiers get and the more they're able to detect the content 
that needs to be removed.
    Senator Young. Before I turn to--my apologies--Mr. Monje--I 
just stepped into the room--I would just note you referenced 
human judgments and how that feeds into an algorithm to help 
make more informed decisions moving forward. There won't be 
time to explore it here, but one of the things I really want to 
learn more about is what parameters are used to determine, by a 
human, what is an appropriate or an inappropriate post, and is 
there transparency, or will there be transparency about that 
decisionmaking process? But, again, that's for another day 
since I have 47 seconds left.
    Mr. Monje.
    Mr. Monje. Yes, sir. I'd just very briefly--we approach it 
very similarly to our peer companies and are constantly trying 
to figure out ways that we can use our technology and feeding 
it the input so that it can tackle--the AI can tackle 
increasingly more difficult and more nuance challenges.
    Senator Young. OK. I'll just note in the remaining time 
here that I really enjoyed visiting with Yasmin Green, Director 
of R and D at Google's Jigsaw group. I'll say that Alphabet is 
doing some really great work there, and I look forward to 
working with all of you to improve how we remove this horrible 
content from the Internet and keep Americans more safe and 
secure.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Young.
    Next up is Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
holding this hearing and thank you to this really all-star 
panel for being here today.
    Mr. Watts, I find your testimony absolutely chilling. The 
Internet is a potential monster when it comes to extremists and 
terrorism, and it requires the kind of inventive and robust 
investment attitude that, in fact, created the internet. I've 
been reading a book called The Innovators by Walter Isaacson, 
and it is an inspiring account of how we came to have the 
Internet and social media, involving heroes whose names have 
been largely lost to history, including some Nobel Prize 
winners.
    But the point that he makes that I think is so relevant to 
this discussion is that the Internet itself is the result of a 
partnership between private industry and inventors, government, 
and academia, and those partners are as necessary for this 
effort in combating terrorism and extremism as they were in 
inventing the platforms themselves.
    I want to join in thanking you for your commitment to net 
neutrality. I also want to thank you for the commitments that 
your companies have made with varying degrees of enthusiasm to 
our anti-sex trafficking efforts, most especially SESTA, which, 
hopefully, will come to a vote. I encourage you to enlist more 
of your colleagues in that effort.
    I want to highlight the importance of the nationalist hate 
groups and extremist groups that have come to pose a very dire 
extremist threat. You received a letter signed by 19 civil 
rights groups, including Muslim advocates, on October 30, 2017. 
It was co-signed to Facebook, but it's equally applicable to 
all of your companies. I ask that it be made a part of the 
record, and I see the Chairman has stepped off, but I'm 
assuming there will be no objection and it will be made part of 
the record.
    [The information referred to follows:]

                                                   October 30, 2017
Mr. Mark Zuckerberg, Chief Executive Officer
Ms. Sheryl Sandberg, Chief Operating Officer
Facebook, Inc.
1 Hacker Way
Menlo Park, CA 94025

Dear Mr. Zuckerberg and Ms. Sandberg,

    We, the undersigned civil rights, interfaith, and advocacy 
organizations write to express our deep concern regarding ads, pages, 
and hateful content on your platform used to divide our country, and in 
particular, to promote anti-Muslim, anti-Black, anti immigrant, and 
anti-LGBTQ animus. We thank you for recent meetings with some of our 
organizations representing communities that were directly affected by 
the material on your platform. We appreciate that senior members of 
your team--including you, Ms. Sandberg--have facilitated these 
meetings, and we hope that these conversations are the beginning of a 
serious and ongoing dialogue. Now, it is necessary for Facebook to take 
critical steps to address the bigotry and discrimination generated on 
your platform.
    As you know, we do not yet have access to all the divisive content 
targeting communities we represent; therefore, we are only able to cite 
to the few examples that were leaked to the media.
    For example, Russian operatives set up misleading accounts 
impersonating or posing as American individuals and groups on Facebook 
to promote Russian propaganda during the American election season. 
Reports indicate that a Russian Facebook account called 
``SecuredBorders'' posed as a group of U.S. citizens concerned about 
the increased number of refugees in America. This fake account not only 
promoted anti-immigrant messaging online, but also managed to organize 
an in-person anti-refugee rally in Twin Falls, Idaho in August 2016.\1\
---------------------------------------------------------------------------
    \1\ Geoffrey Smith, ``Russia Orchestrated Anti-Immigrant Rallies in 
the U.S. via Facebook Last Year,'' Fortune, Sept. 12, 2017, available 
at http://fortune.com/2017/09/12/russia-orchestrated-anti-immigrant-
rallies-in-the-u-s-via-facebook-last-year/.
---------------------------------------------------------------------------
    In addition, a Facebook page entitled ``United Muslims of America'' 
was an imposter account traced back to Russia \2\--the real United 
Muslims of America is a California-based interfaith organization 
working at the local level to promote dialogue and political 
participation.\3\ The imposter account smeared political candidates and 
promoted political rallies aimed at Muslim audiences.\4\ In another 
example, the Internet Research Agency in Russia promoted an anti-Muslim 
rally thousands of miles away in Houston, Texas where individuals 
protested outside of a mosque.\5\ Additional reports indicate that 
Facebook offered its expertise to a bigoted advocacy group by creating 
a case study testing different video formats, and advising on how to 
enhance the reach of the group's anti-refugee campaign in swing states 
during the final weeks of the 2016 election.\6\ These examples of 
content on Facebook were not only harmful, but also used to rile up 
supporters of President Trump.
---------------------------------------------------------------------------
    \2\ Dean Obeidallah, ``How Russian Hackers Used My Face to Sabotage 
Our Politics and Elect Trump,'' The Daily Beast, Sept. 27, 2017, 
available at https://fwww.thedailybeast.com/how-russian-hackers-used-
my-face-to-sabotage-our-politics-and-elect-trump.
    \3\ United Muslims of America ``About'' page, available at http:/
fwww.umanet:orgfabout-us.
    \4\ Obeiallah, supra note 1.
    \5\ Tim Lister & Clare Sebastian, ``Stoking Islamophobia and 
secession in Texas--from an office in Russia,'' CNN Politics, Oct. 6, 
2017, available at http://www.cnn.com/2017/10/05/politics/heart-of-
texas-russia-event/index.html.
    \6\ Melanie Ehrenkranz, ``Facebook Reportedly Used Anti-Muslim Ad 
as Test Case in Video Formats,'' Gizmodo, Oct. 18, 2017, available at 
https://gizmodo.com/facebook-reportedly-used-anti-muslim-ad-as-test-
case-in-1819645900.
---------------------------------------------------------------------------
    Furthermore, it has been reported that Russian operatives purchased 
Facebook ads about Black Lives Matter--some impersonating the group and 
others describing it as a threat.\7\ This included ads that were 
directly targeted to reach audiences in Ferguson, Missouri and 
Baltimore, Maryland. CNN reports that the Russian Internet Research 
Agency used these ads in an attempt to amplify political discord and 
create a general atmosphere of incivility and chaos.\8\ This included a 
fake ad containing an image of an African-American woman dry-firing a 
rifle, playing on the worst stereotypes regarding African-Americans as 
threatening or violent.\9\
---------------------------------------------------------------------------
    \7\ Adam Entous, Craig Tim berg, & Elizabeth Dwoskin, ``Russian 
operatives used Facebook ads to exploit America's racial and religious 
divisions,'' The Washington Post, Sept. 25, 2017, available at https://
www.washingtonpost.comfbusiness/technology/russian-operatives-used-
facebook-ads-to-exploit-divisions-over-black-political-activism-and-
muslims/2017/09/25f4a011242-a21b-11e7-ade1-
76d061d56efa_story.html?tid=sm_tw&utm_term=.e49cecc1a834.
    \8\ Dylan Byers, ``Exclusive: Russian-bought Black Lives Matter ad 
on Facebook targeted Baltimore and Ferguson,'' CNN Media, Sept. 
28,2017, available at http://money.cnn.com/2017/09/27fmedia/facebook-
black-lives-matter-targeting/index.html.
    \9\ Adam Entous, Craig Timberg, & Elizabeth Dwoskin, ``Russian 
Facebook ads showed a black woman firing a rifle, amid efforts to stoke 
racial strife,'' The Washington Post, Oct. 2, 2017, available at 
https://www.washingtonpost.com/business/technology/russian-facebook-
ads-show
ed-a-black-woman-firing-a-rifle-amid-efforts-to-stoke-racial-strife/
2017/10/02/e4e78312-a785-11
e7-b3aa-c0e2e1d41e38_story.html?utm_term=.aa2267a2f46c.
---------------------------------------------------------------------------
    We were alarmed to see your platform being abused to promote 
bigotry, and especially disappointed that it has taken media exposure 
and congressional oversight to give a degree of transparency into your 
practices. It is important to keep in mind that pervasive bigotry has 
long existed on your platform, and the Russian operatives simply 
exploited the hateful content and activity already present. We are 
concerned about how a platform like Facebook's could operate without 
appropriate safeguards that take into account how it could be 
manipulated to further sow divisions in our society.
    As a company and social network platform whose mission is ``to give 
people the power to build community and bring the world closer 
together,'' \10\ we hope that you understand the gravity of this 
hateful rhetoric and behavior. During a time when anti Muslim, anti-
Black, anti-LGBTQ, and anti-immigrant sentiment has swept the nation, 
it is more important than ever for companies like yours to take an 
unequivocal stance against bigotry.
---------------------------------------------------------------------------
    \10\ Facebook ``About'' page, February 4, 2004, available at 
https://www.facebook.com/pg/face
bookf/about/?ref=page_internal.
---------------------------------------------------------------------------
    Over the years, many of us have raised concerns about how your 
platform may have a negative impact on our communities, with 
disappointing results. For example, we have requested that you address 
attacks on African Americans and Muslims, organizing by hate groups, 
and the censorship of Black, Arab, Muslim, and other marginalized 
voices. As a result of the pervasive presence and organizing by hate 
groups on your platform-some could not exist as national level entities 
without it we have repeatedly requested that you convene a gathering 
with civil rights organizations to discuss appropriate and strategic 
responses. While you were unable to sufficiently respond to the 
concerns raised above, Facebook participated in and organized events 
that stigmatized Muslims and other communities such as a recent 
convening called ``Tech Against Terrorism.''
    Though in the past you have displayed a willingness to listen to 
our concerns, we have yet to see meaningful change. It is our hope that 
recent developments will mark a new chapter in Facebook's commitment to 
protecting the rights of all who use your platform.
    As we continue this important dialogue, we urge you to:

  1.  Fully disclose to the public all of the ads, pages, events, 
        accounts, and posts you have traced back to Russian operatives 
        targeting African American, LGBTQ, and Muslim communities. In 
        particular, we believe that Facebook has a special 
        responsibility to notify those individuals and organizations 
        who have been impersonated or misrepresented.

  2.  Bring on an independent third-party team to conduct a thorough 
        and public audit of the civil rights impact of your policies 
        and programs, as well as how the platform has been used by hate 
        groups, political entities, and others to stoke racial or 
        religious resentment or violence. Other leading companies in 
        the industry like Airbnb have made the decision to conduct such 
        an assessment, and we hope you will follow their lead.

  3.  Regularly convene a new working group of a diverse group of civil 
        rights organizations working to counter bigotry, and solicit 
        input on policies and processes from this group. And, integrate 
        addressing hate into Facebook's corporate structure by:

      a.  Assigning a board committee with responsibility for assessing 
            management efforts to stop hate groups, state actors, and 
            individuals engaged in hate from using your platform and 
            tools;

      b.  Assigning a senior manager who is a member of Facebook's 
            Executive Team with authority to oversee addressing hate 
            company-wide and name that person publicly and employing 
            staff with expertise in this area to vet advertisements and 
            develop process and procedures the address this issue; and,

      c.  Creating a committee of outside advisors with expertise in 
            identifying and tracking hate who will be responsible for 
            producing an annual report on the effectiveness of steps 
            taken by Facebook.

  4.  Develop, with input from diverse civil rights groups and experts, 
        and make public a clear process for how Facebook:

      a.  Reviews content constituting hate speech;

      b.  Reviews efforts to use Facebook as a platform to stoke 
            identity-based, racial, or religious resentment or violent 
            actions; and,

      c.  Responds to complaints about content that reasonably creates 
            fear and chills speech on Facebook.

  5.  Make public detailed information regarding training and support 
        for anti immigrant, anti-Muslim, anti-black, and anti-LGBTQ 
        organizations, including the monetary value of these services; 
        and establish a fund to provide grants to organizations 
        combating hatred and bigotry.

    Thank you in advance for your consideration. Please contact Naheed 
Qureshi at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f09e9198959594b09d85839c999d9194869f9391849583de9f8297">[email&#160;protected]</a> with any questions.
    We look forward to your reply.
            Sincerely,

Arab American Institute (AAI)
Asian Americans Advancing Justice/AAJC
Center for Media Justice
Center for New Community
Color of Change
CREDO
Human Rights Campaign (HRC)
The Leadership Conference on Civil and Human Rights
League of United Latin American Citizens (LULAC)
MoveOn.org
Muslim Advocates
NAACP
NAACP Legal Defense and Educational Fund, Inc. (LDF)
National Center for Lesbian Rights
National Hispanic Media Coalition
National LGBTQ Task Force
National Sikh Campaign
Sikh Coalition
Southern Poverty Law Center

    Senator Cortez Masto. No objection.
    [Laughter.]
    Senator Blumenthal. And I'm not willing to yield a part of 
my time to address that objection.
    The Southern Poverty Law Center has warned that social 
media has been instrumental to the growth of the alt-right 
movement, allowing legions of anonymous Twitter users to use 
the hashtag alt-right to push far right extremism. On YouTube, 
for example, it's easy to find anti-Semitic content. All of 
these forms of extremism, often white supremacist extremism, 
have been allowed to flourish, and they pose a real and present 
danger.
    In the time that I have left, I want to ask about a letter 
that I wrote to Facebook, Google, and Twitter calling on these 
companies to individually inform all users who are exposed to 
false, misleading, and inflammatory posts generated by Russian 
agents. I'm assuming that none of you have any doubt that the 
Russians meddled in our 2016 election and attacked our 
democracy. Any question?
    [No verbal response.]
    Senator Blumenthal. None. And that the investigation of 
those efforts is not a hoax, or a witch hunt, that this danger 
is continuing, as Mr. Watts has so dramatically and powerfully 
outlined, and that they will continue to do it unless they're 
made to pay a price, and those who colluded and cooperated with 
them are made to pay a price.
    I want to thank Facebook for its substantive response in 
terms of its commitment to providing consumers with an online 
tool to inform users if they have interacted with Russian-
sponsored pages or accounts. I'm hopeful that Facebook will do 
even more with more robust steps to further increase 
transparency in the future, but I am very, very grateful for 
your beginning.
    And I just want to be blunt. I am disappointed by Google's 
written response. It essentially blew off my concerns by saying 
the nature of the platform made it difficult to know who has 
viewed its content. I look forward to responses from Twitter 
and others. If you want to respond now, I would be eager to 
hear what your response is to the letter that I wrote.
    Mr. Monje. Thank you, Senator, and we have briefed your 
staff on our plans, and we'll be rolling out the fulsome 
response shortly.
    Senator Blumenthal. And what will that response be?
    Mr. Monje. We will be working to identify and inform 
individually the users who may have been exposed to the IRA 
accounts during the election.
    Senator Blumenthal. Thank you. I think it's so tremendously 
important that we have all hands on deck in dealing with this 
threat, not only the companies that are represented here, but, 
again, as Mr. Watts said, some of the smaller actors, some of 
the newer ones. And there will be others coming that provide, 
in effect, platforms for hate, extremism, terrorism, division, 
chaos. In some ways, they are the biggest threat to our 
democracy today, those groups that want to foster hate.
    And, of course, the Russians will continue. They have an 
asymmetric advantage here. It's an absolutely wondrous 
investment for Vladimir Putin. He gets more return on the 
dollar than any other investment he can make in sowing chaos 
and discord in our democracies, and we must be as inventive as 
the innovators were, the inventers of the internet, in 
combating this threat to our democracy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Welcome and thank you for this conversation. I wanted to 
start with, unfortunately, a horrific tragedy that occurred in 
my home town on October 1, 2017. Las Vegas experienced the 
worst tragedy that we have ever seen, and it is the worst mass 
shooting in American history. As we were dealing with the 
horrific tragedy of the situation and trying to gain 
information, particularly for law enforcement purposes, 
unfortunately, a lot of misinformation was being spread after 
that tragedy on some of your platforms and on the internet, 
and, particularly, misinformation about the shooter was 
highlighted on both Google and Facebook.
    Obviously, that's incredibly unhelpful for law enforcement, 
particularly as we move through an unfolding potentially 
dangerous situation. I know both Facebook and Google cited the 
need to make algorithm improvements to fight the spread of fake 
news during a crisis. What do you see as your companies' roles 
in fighting fake news, especially during a crisis such as a 
mass shooting or a terrorist attack, and what specific and 
verifiable metrics can you provide us to ensure our trust in 
these remedies? I'll start with Ms. Bickert.
    Ms. Bickert. Thank you, Senator. What happened in Las Vegas 
was horrific, and there were false news stories that we saw 
that we did address, but not fast enough, and it's an area 
where we're trying to get faster. We've changed the way that 
our crisis center operates so that we can make sure that that 
type of false news story does not appear in the headlines that 
people are seeing. The crisis center can be incredibly useful 
during times like this.
    In Las Vegas, we saw people using not only our safety 
check, which allows people to say that they're safe, but also 
coordinating help, offers of housing and assistance to people 
throughout the city. So we want to make sure that's working 
effectively. Things we're doing: removing the bad accounts that 
are propagating this false news, making algorithmic changes to 
make news that is likely to be false less visible on the site, 
providing related articles when people see a news story that 
has been flagged as something that might be false so that they 
can see the broad spectrum of information across the internet, 
and then working with responsible publishers to make sure that 
they know how to use our tools to get their stories out there.
    Senator Cortez Masto. Thank you.
    Ms. Downs.
    Ms. Downs. Thank you, Senator, and my heart goes out to the 
City of Las Vegas and all the victims of that senseless 
tragedy.
    We take misinformation on our platforms very seriously, and 
we've made a lot of efforts in our products, from improvements 
to our ranking algorithms to highlight authoritative sources 
and to demote low-quality or less reliable sources, 
particularly when users are seeking news content. We also have 
strict policies in place against the monetization of news sites 
that are misrepresenting themselves in order to remove the 
financial incentive to create and distribute fake news.
    Senator Masto Cortez. Thank you.
    Mr. Monje. And a very similar answer for us. I'd only add 
that one of Twitter's great advantages in the world is that 
it's fast. It's faster than television news often. We try to 
arm emergency responders with the knowledge of how to use that 
as a strength, and so it's one of our key pieces.
    During the hurricanes in the Gulf Coast, we were actively 
working with folks who were responding--they were actually 
folks in Texas and Houston who were using our platform to 
identify people to rescue. And so it's one of the strengths of 
our platform, and, like everyone, it's a continuing challenge 
to address misinformation.
    Senator Cortez Masto. Thank you.
    Mr. Watts, would you like to address this, or is there 
anything else that can be done?
    Mr. Watts. I don't know in terms of the technical things 
that could be done. But I do think the spread of misinformation 
so quickly like that--the first thing that you see is what you 
tend to believe over time. That which you see the most is what 
you tend to believe as well. It really empowers social media 
manipulators if you can do amplification through social bots, 
or if you can generate other systems to push the news quicker 
than everybody else, and so you see a lot of gaming in terms of 
trending hashtags and things like that.
    I think there has to be some sort of trip that you can put 
in technically over time--and I'm sure that all these companies 
are trying to develop--that will tamp that out. When you see an 
artificial spike in any one of those trends, you should be able 
to detect it, and I think they're advancing on that. But it's a 
huge public safety issue, regardless of the threat actor that's 
employing it.
    Senator Cortez Masto. Thank you. I know I'm running out of 
time, but let me just say this. I had the opportunity to work 
with Facebook on our Internet Crimes Against Children Task 
Force in Nevada when I was Attorney General, and I will tell 
you that for every company that we reached out to, whether it 
was YouTube, Google, they were willing to work with law 
enforcement.
    So I know there has been a lot of discussion on that 
interaction that you've had with law enforcement, but I've seen 
it from one side of it. I know now there is this balance we 
need to find to figure out how we continue to work together to 
address these evolving crimes and activity that's happening on 
the internet, and I'm grateful that you're here, and I look 
forward to figure out how we can continue to evolve that 
relationship as well. So thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Mr. Chairman.
    Thanks to each of you for being here. We live in an 
exciting world. We live at a time when the companies 
represented at this table today 15 years ago were just ideas, 
and today, they've changed the way we interact with the world 
around us. Today, these companies have made it possible in ways 
never imagined just a couple of decades ago for a few people 
with very little money to have an impact, not only in their 
community, but across the country and throughout the world. But 
with that comes a lot of challenges, and those challenges are 
the reason why we're here today at this hearing.
    In some parts of the world, there has been a suggestion 
that I can summarize only as an effort to make public utility 
companies out of social media enterprises that would rather 
comprehensively attempt to regulate social media, imposing 
escalating fines and other penalties on companies that fail to 
report certain types of information to the government. Some of 
these recommendations for policies like this have been made in 
the United Kingdom and in the European Union.
    To me, this is kind of distressing, in part because I worry 
about what that would do to private property, what that would 
do to these thriving businesses that have given so many people 
so much of an opportunity to be heard. I also worry about what 
it would do to public safety, the very end sought to be 
achieved by these proposals. Sometimes when government gets 
involved and it sets a certain standard in place, that becomes 
both the floor and the ceiling. Understandably, I would worry 
about that.
    So I'd like to--we'll start with you, Ms. Bickert. Tell me 
what you think about proposals like that and what some of the 
risks might be to starting to treat social media companies like 
public utilities?
    Ms. Bickert. Thank you, Senator. I think whenever we think 
about regulation, there often are unforeseen consequences, and 
those can impede our ability to provide services to the people 
that trust and need our products. I think the big thing for us 
is that our incentives are often aligned with those of 
government in terms of creating a safe community.
    On this issue, absolutely, there is no question that the 
companies here do not want terrorists using their platforms. 
The long-term business interest for Facebook is we need people 
to have a good experience when they come to Facebook. We need 
them to like this community and want to be a part of it, and 
that means keeping them safe and removing bad content. So the 
incentives are there. These companies are working together to 
address these challenges, and that's how we think it can work 
best.
    That said, we will continue to have a productive dialog 
with government. The concerns that you face and what you're 
hearing from your constituents matter to us very much, and we 
want to make sure that we're considering that in responding to 
that.
    Senator Lee. In light of the fact that your company and 
others have--that the progress that your company and others 
have made in this area does not suggest that some of these 
proposals are unnecessary, in any event?
    Ms. Bickert. Thank you, Senator. Because our incentives are 
aligned, the kind of progress that you're going to see is going 
to happen regardless of what we're seeing from governments, 
what we're hearing from governments. It's still important to 
have that dialog. We learn every time that we engage with 
policymakers. But the incentives exist independently.
    Senator Lee. Ms. Downs, would you agree with that?
    Ms. Downs. Yes. The security and integrity of our products 
is core to our business model, and that includes the expedient 
enforcement of all of our content policies. So we are already 
sufficiently motivated to invest the necessary resources and 
people in addressing this threat.
    Senator Lee. And how might treating you more like a public 
utility change that dynamic?
    Ms. Downs. I think the risks that you outlined are 
important things for policymakers to remain cognizant of. 
Obviously, the tech industry is incredibly innovative, has 
created tremendous economic opportunity, and anything that 
slows down that innovation will cause damage to the ability of 
the industry to continue to thrive.
    Senator Lee. Mr. Monje.
    Mr. Monje. I'd agree with that. We take our responsibility 
extremely seriously, and it is important to our business to get 
it right. We measure progress in matters of weeks and months. 
We move very quickly. So I'd agree with everything that was 
said.
    Senator Lee. I've got one second remaining, if I can just--
how do you determine--we'll just go with you, Mr. Monje, since 
we're already on you. How do you determine what constitutes 
terrorist or extremist content? For example, do you make this 
determination internally within your staff? Do you have certain 
subject matter experts that help you decide that?
    Mr. Monje. Yes, sir. We have former law enforcement 
officials who are on our team. We also interact with and 
communicate with governments and NGOs to determine that on an 
individual basis.
    Senator Lee. My time has expired. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lee.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chairman, and 
thank you to our panelists today.
    I want to talk about the See Something, Say Something 
campaign. The campaign is simple, and many of the thwarted 
terrorist attacks in the U.S. were stopped because everyday 
people alerted authorities to suspicious behavior. So I'd like 
to get a better sense of whether your companies fully embrace 
this See Something, Say Something campaign. While I understand 
that most of you shut down accounts that espouse violent 
extremist propaganda, it's not clear that you proactively 
report those accounts to law enforcement.
    Here's an example of why that makes us less safe. In 2012, 
Tamerlan Tsarnaev, one of the Boston Marathon bombers, posted 
on YouTube several videos espousing al Qaeda propaganda under 
the name Muaz. At the time, the FBI was unaware of this 
account. However, the FBI had previously investigated Tamerlan, 
thanks to a tip from the Russians, but found nothing to 
corroborate the Russians' claims.
    In September 2012, Tamerlan applied for U.S. citizenship 
with DHS. As part of the vetting process, DHS instructed the 
FBI to run a check on the application, which came up all clear. 
However, in his application, Tamerlan revealed that he tried to 
change his legal name to Muaz, the same name as his YouTube 
account. Eight months later, Tamerlan orchestrated a terrorist 
attack with his brother that resulted in the death of four 
people and almost 300 injured.
    In hindsight, if YouTube had reported Muaz's troubling 
social media account to the FBI, then maybe the FBI would have 
been able to link Tamerlan to Muaz's extremist YouTube account 
when Tamerlan was applying for citizenship. That could have 
prompted the FBI to re-open a closed terrorism investigation 
just weeks before Tamerlan carried out this awful tragic 
bombing.
    So to Mr. Monje and Ms. Bickert and Ms. Downs, I'd like to 
understand how and when your companies report extremist 
accounts to law enforcement, and has it changed since the days 
of the Boston Marathon bomber?
    Mr. Monje. Thank you, Senator, for that question. When 
we're aware of an imminent threat, we absolutely do proactively 
reach out to law enforcement. Whenever they come to us and ask 
for information, as long as they have the right process, which 
we are very good with working with them to figure out, we will 
respond as quickly as we can.
    Senator Hassan. Thank you.
    Ms. Downs?
    Ms. Downs. Thank you, Senator. We also cooperate with law 
enforcement pursuant to the legal process, including the 
emergency disclosure provisions, where if we detect any content 
on our services that poses a threat to life, we proactively 
report it to law enforcement.
    Senator Hassan. And Ms. Bickert?
    Ms. Bickert. Thank you, Senator. The same answer.
    Senator Hassan. Well, I thank you. I will say that the See 
Something, Say Something campaign is premised on something a 
little bit different than what you all just said, because it's 
premised on ``if you think,'' not ``does this meet my 
definition of eminent danger.'' But we ask members of the 
public if they see something suspicious to step up, and what 
you're all saying is that if it meets certain criteria or if 
you're asked, and I think that's a little bit different.
    So let me follow up with Mr. Watts. As a former Federal law 
enforcement officer, how would you grade these companies' 
performance in addressing violent extremist accounts? Do you 
think they can do more to actively support Federal law 
enforcement and counterterrorism officials?
    Mr. Watts. Over the last decade or so, they've all done 
better. Facebook and Google have outpaced Twitter. Twitter, in 
my opinion, relies too much on technical signatures and doesn't 
staff on the threat intelligence level to the extent that they 
should.
    Senator Hassan. Thank you very much.
    Thank you. That's all the questions I have, Mr. Chair.
    The Chairman. Thank you, Senator Hassan.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And to each of our witnesses, thank you for being here 
today. It's an important topic, and we appreciate your active 
involvement in this.
    My question concerns the extent that algorithms are used 
and play a role in the problem and how algorithms can also be 
used as a solution to this problem that we're dealing with. I 
was pleased to read Ms. Bickert's post in the Facebook newsroom 
that Facebook has started using artificial intelligence to help 
counter terrorist threat efforts on your platforms.
    The speed and breadth of the Internet certainly makes it 
nearly impossible for humans to keep track of all this. We need 
to have AI systems to do that, and they need to continually 
evolve if we're going to be effective in using them. However, 
it is likely that algorithms may be partly responsible for 
getting extremist material in front of users, whether it be in 
search results through Facebook's news feed or YouTube's up 
next list or elsewhere.
    So my question is these algorithms are under your direct 
control, as all platform providers can control that. What are 
you specifically doing to learn more about whether and how your 
algorithms may be promoting extremist content?
    I'll start with you, Ms. Bickert.
    Ms. Bickert. Thank you, Senator. The first thing that we 
need to do is make sure we're removing the terror content, and 
then it doesn't matter--once you take it out of the equation, 
then the algorithm has no role in promoting it because the 
content is simply not available on Facebook. That's something 
that we do by, as you pointed out, using technology to find the 
content.
    But we don't stop there. After we find an account that is 
associated with terrorism, if we remove that account, we also 
fan out from that account. We look at associated content, 
associated accounts, and we remove those as well. If we can get 
better in that space, then we can make sure that the content is 
not appearing before our community.
    Senator Peters. Ms. Downs.
    Ms. Downs. Thank you, Senator. Absolutely correct that the 
first priority is making sure that none of this content is on 
the platform in the first place. At the same time, we also have 
teams that are protecting our algorithms from being gamed. 
Obviously, this is a threat to our services and to our users' 
experience on our services across many issues, and so we have 
dedicated teams to make sure that people aren't manipulating 
our systems and that they're working as intended to serve 
relevant information to users who come to YouTube.
    Mr. Monje. Very similar answer from Twitter. We've been 
able to use our machine learning, our algorithms, to help 
identify more than 90 percent of the terrorist content that 
we've taken down before anybody else brings it to our 
attention, 75 percent of those before they get to tweet once. 
And, also, we protect our trends against manipulation. We've 
done that since 2014, and we continually improve our processes 
to protect our users' experience.
    Senator Peters. Mr. Watts?
    Mr. Watts. I would just note that any sort of algorithm 
detection technique is only as good as what's already been seen 
out in the world, which is part of the reason why the Russians 
have been more successful in terms of social media 
manipulation. They understand the terms of service. They have 
the capabilities to actually beat those systems, and they play 
within the rules.
    The smarter, better-resourced, higher computational people 
around the world that want to use it will do better. It's kind 
of like zero day viruses in cybersecurity speak. Cybersecurity 
protections, anti-virus, is only as good as what has already 
been seen before in terms of malware, and so the only way to 
get in front of that is to combine really smart threat analysts 
on whatever threat actor it is that's out there with the 
technologists, and those companies that do that do better in 
terms of getting in front of these actions.
    Senator Peters. What's your assessment of the companies 
here and others in the United States?
    Mr. Watts. I think Facebook and Google--I've seen massive 
increases and much more success in that space. I think Twitter 
gets beat oftentimes and can continue to get beaten because 
they rely too heavily on technology, and I don't think they 
have the partnerships they need to adequately get out in front 
of it.
    Mr. Monje. If I could respond to that, because----
    Senator Peters. Absolutely.
    Mr. Monje.--because he said it twice, and I disagree. I 
think there are many external researchers who said that a lot 
of this terrorist content doesn't--has moved off of our 
platform. The average ISIS account in 2014 had 177 followers, 
and now they have 14. They measure their life on Twitter in 
minutes and hours. We are extremely effective at taking them 
out. We do have the resources in place and the technology in 
place to fight the fight.
    Senator Peters. Mr. Watts?
    Mr. Watts. They get beat by a new terrorist group every few 
years. I mean, al Shabaab--we watched the entire Westgate 
attack go down on Twitter, monitoring it. We had a key 
monitoring list that we watch on that. With ISIS and al Nusra 
in Syria, we were able to build that list of anywhere from 
3,000 to 4,000 terrorist accounts at any given time.
    They do better after the fact, once they pick up what the 
signatures are. But the problem is you're always trailing 
whatever the threat actor is. You're not staying out in front 
of it, which is why in the cybersecurity space--or even some 
social media companies are taking this on now--you employ the 
threat analysts so they can work with the technologists. 
Otherwise, the technologists are always behind the curve. They 
have to wait until the group creates enough signatures that 
they can detect it, and then they can weed it out.
    They're getting better all the time, but AI and machine 
learning, even with its advancements, can only detect what's 
already been seen before. And what humans are very good at, at 
least up until now and until they become autonomous machines 
out there--they're good at gaming systems and figuring out ways 
around it.
    So I think in the case of the Russians, for example--and 
I've seen the takedowns of their accounts by Twitter, and they 
are hardly making a dent in what I'm seeing in terms of flows. 
I can't confirm all those accounts that are out there, but, you 
know, I hear about troll farms. Why do we think there's only 
one?
    So I think in terms of moving forward, there has got to be 
a much bigger focus for those social media companies on putting 
threat analysts and pairing them together--and I know both 
analysts that have gone to Facebook and Google in that space, 
and they haven't--you know, some have been there longer than 
others, but I think that's the right approach moving forward.
    Senator Peters. Thank you. I'm out of time. Thank you so 
much.
    The Chairman. Thank you, Senator Peters.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Welcome to each of the witnesses. I'd like to start by 
asking each of the company representatives a simple question, 
which is do you consider your companies to be neutral public 
fora?
    Ms. Bickert.
    Ms. Bickert. Thank you, Senator. The mission of our company 
is to connect people. We do not look at ideology or politics. 
We want people to be able to connect and share who they are.
    Senator Cruz. I'm just looking for a yes or no, whether you 
consider yourself to be a neutral public forum.
    Ms. Bickert. We do not have any policies about political 
ideology that affect our platform.
    Senator Cruz. Ms. Downs.
    Ms. Downs. Yes, our goal is to design products for 
everyone, subject to our policies, and on occasions they impose 
on the types of content that people may share on our product.
    Senator Cruz. So you're saying you do consider YouTube to 
be a neutral public forum.
    Ms. Downs. Correct. We enforce our policies in a 
politically neutral way. Certain things are prohibited by our 
community guidelines, which are spelled out and provided 
publicly to all of our users.
    Senator Cruz. Mr. Monje.
    Mr. Monje. Yes, sir.
    Senator Cruz. Well, let me focus for a minute, Mr. Monje. 
As you know, there have been several videos that were released 
in recent weeks that I and a lot of other people thought were 
highly troubling, and so I want to give you an opportunity to 
respond to that.
    One individual, Abhinav Vadrevu, described as a former 
Twitter software engineer, was captured on video saying the 
following, quote, ``One strategy is to shadow ban so you have 
ultimate control. The idea of a shadow ban is that you ban 
someone but they don't know they've been banned, because they 
keep posting and no one sees their content. So they just think 
that no one is engaging with their content, when, in reality, 
no one is seeing it.'' Is that a practice that occurs at 
Twitter?
    Mr. Monje. No, sir. We do not shadow ban users.
    Senator Cruz. Why would this individual described as a 
former Twitter software engineer say that?
    Mr. Monje. Thank you for the opportunity to respond, 
Senator, about this. These folks were caught on video. They 
weren't speaking on behalf of the company. They were speaking 
in their personal capacity. We do not shadow ban folks. What we 
do do is if an account is spamming, meaning engaging in 
malicious automation, we will hide--make it harder for them to 
find--to be found on our platform.
    If I could continue, sir, that was one of the reasons why 
the efforts that we saw with the Russian misinformation didn't 
hit as big a mark as they were hoping for. We were able to stop 
that in real time. The other thing, sir--I'm sorry sir.
    Senator Cruz. Another individual named Mo Norai, a Twitter 
content review agent, was quoted on a video as saying ``On 
stuff like that, it was more discretion on your viewpoint, I 
guess how you felt about a particular matter. Yes, if they said 
this is, quote, `pro-Trump,' I don't want it because it offends 
me, this, that, and I say I ban the whole thing, and it goes 
over here and they're like, 'Oh, you know what? I don't like 
it, too. You know what? Mo's right. Let's go. Let's carry on. 
What's next?' ''
    Is that individual describing a practice that occurs at 
Twitter?
    Mr. Monje. No, sir. We use algorithms as a way to--if we 
see an account that is being abusive, that also will be down 
ranked. If they're engaging in targeted abuse against 
minorities, if they're being--if they're consistently violating 
our terms of service but they haven't crossed the line into 
being suspended, we'll make it less visible. But what we won't 
do is make--your followers will always be able to see you, and 
we are not--we ensure that--if you go on Twitter at any moment, 
you can see--you can see arguments on all sides of the issue.
    Senator Cruz. Wait. I want to make sure I'm understanding 
you right. You're saying for some people who are posting, you 
will restrict viewership only to those who are actively 
following them?
    Mr. Monje. If we believe that they're engaged in malicious 
automation, if we believe that they're violating our terms of 
service when it comes to abuse.
    Senator Cruz. So is it your position that the individuals 
that are subject to this form of censorship are extremists or 
fringe? Is that what you're telling us?
    Mr. Monje. It depends on the user. I can tell you that this 
is not something that we hide from the public. This is out in 
the open, the fact that we will reduce the visibility of tweets 
that are abusive or that are engaged in malicious automation.
    Senator Cruz. Well, let me ask, what about Congresswoman 
Marsha Blackburn? Is she someone you would consider somehow 
abusive or fringe or otherwise?
    Mr. Monje. No, sir.
    Senator Cruz. Well, then, why did Twitter restrict and 
censor her announcement video announcing as a candidate for the 
U.S. Senate?
    Mr. Monje. I want to be very clear about that, sir, and 
thank you for the question. We never removed her tweet, and 
what she did do is advertise on our platform. We do, like many 
platforms, have a higher standard when it comes to advertising, 
because we are putting in front of people things they didn't 
ask to see. Her video was reported to us. There was a decision 
that was made that was later reversed because of some of the 
language that was used in her account. It was a mistake, and we 
acknowledged it.
    Senator Cruz. So her announcement was censored because it 
was pro-life content. Has Twitter ever censored anyone for pro-
choice content?
    Mr. Monje. She was never censored.
    Senator Cruz. So you're saying nothing happened to her 
tweet?
    Mr. Monje. Her tweet got a lot of attention on the organic 
side. We action our accounts, and we take our terms of service 
very seriously. Sometimes we make the wrong decision. We have 
action on all sides of issues, and we strive to be better every 
day.
    Senator Cruz. Let me ask a final question, because my time 
has expired.
    Ms. Downs, I'd like to know--what is YouTube's policy with 
respect to Prager University and the allegations that the 
content Prager University is putting out are being restricted 
and censored by YouTube?
    Ms. Downs. As I mentioned, we enforce our policies in a 
politically neutral way. In terms of the specifics of Prager 
University, it's a subject of ongoing litigation, so I'm not 
free to comment on the specifics of that case.
    Senator Cruz. Well, I will say the pattern of political 
censorship that we are seeing across the technology companies 
is highly concerning, and the opening question I asked you, 
whether you're a neutral public forum--if you are a neutral 
public forum, that does not allow for political editorializing 
and censorship, and if you're not a neutral public forum, the 
entire predicate for liability immunity under the CDA is 
claiming to be a neutral public forum. So you can't have it 
both ways.
    Thank you.
    The Chairman. Thank you, Senator Cruz.
    I think we've exhausted all the questions. Thank you all 
for being here. It has been a very informative session. We all 
know that the Internet is an incredibly powerful tool which 
offers enormous benefits to people globally. But we also 
realize we live in a dangerous world, and that there are people 
out there who want to do harm and do bad things and are looking 
for any means in order to accomplish those. Of course, we know 
that in the modern world, cyber has become increasingly the 
tool of choice for a lot of bad actors.
    So we appreciate your informing us about steps that you're 
taking to try and police some of that bad behavior. As I said 
earlier, you know, we have constitutional protections and a 
Bill of Rights, and we also have--I think we want to make sure 
that we have a light touch when it comes to regulating the 
internet, and that's certainly something that I hope that this 
Committee will continue to support, and that those at 
regulatory agencies will adopt as well. But we also want to 
make sure that we are doing what we can to keep our country 
safe.
    So we appreciate the efforts that you have undertaken 
already and those that you--as you continue to develop and look 
at ways to combat some of these threats that we face, and we 
hope that, working together as partners, that we can do a 
better job, and there's always room for improvement. So thank 
you for what you've done and for what you continue to do, and 
we'll look forward to discussing, I'm sure, in the future, as 
the threats continue to evolve, things that we can do better.
    Thank you all for being here.
    I'm going to just say that before we close, I've got a 
letter from the Consumer Extremism Project highlighting its 
work on combating radicalization online, and I'm going to enter 
that into the record, and also enter a piece by the Wall Street 
Journal authored by the Counter Extremism Project's Senior 
Advisor, Dr.--let me see if I can say this right here--Hany 
Farid, underscoring his work on this important issue.
    [The information referred to can be found in the Appendix.]
    The Chairman. We'll keep the hearing record open for a 
couple of weeks. Senators are encouraged to submit any 
questions that they have for the record, and upon receipt of 
those questions, we ask our witnesses to submit their written 
responses to the Committee as quickly as possible.
    Thank you all for being here. This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

          Prepared Statement of the Counter Extremism Project
    Thank you Chairman Thune, Ranking Member Nelson and distinguished 
members of the Committee for holding this hearing to examine the 
commitment and performance of Google/YouTube, Facebook and Twitter in 
permanently removing persistent and dangerous extremist and terrorist 
content on their platforms.
    The Counter Extremism Project (CEP) is a not-for-profit, non-
partisan, international policy organization formed in 2014 to combat 
the growing threat from extremist ideologies. Since its inception, CEP 
has pioneered efforts to combat extremists' radicalization and 
recruitment tactics online, and has persistently called upon Internet 
and social media companies, to take definitive action and adopt 
policies to stop the misuse of their platforms that has cost many lives 
around the world.
    The Internet promised to democratize access to knowledge, spread 
great ideas, and promote tolerance and understanding around the globe. 
This promise, however, is being poisoned by the rise of trolling, 
cyber-bullying, revenge porn, fake news, child exploitation, hate, 
intolerance, and extremist and terrorist propaganda.
    The horrific aftermath of extremists' weaponization of the Internet 
and social media platforms stretches from Paris, to Brussels, to 
London, Orlando, San Bernardino, Istanbul, Beirut, Cairo, and New York 
Only a few years ago, big technology companies flatly denied the 
existence of this problem. And while their tone has undoubtedly 
changed, CEP remains concerned about the level of commitment, 
consistency and transparency that will be required to overcome the 
systematic misuse by these platforms. While big social media platforms 
acknowledge the existence of radicalizing content that violates their 
stated terms of service, their response to date has followed a familiar 
pattern utilized in response to other discoveries of abuse: denial, 
followed by half-measures and attempts to spin the issue in the media, 
and finally, reluctant action when faced with threats to their bottom-
line or possible regulatory action.
    Make no mistake. There is no question that reigning in online 
abuses is challenging. There is also no question, however, that we can 
and must do more than we are to mitigate the harm that is being seeded 
and fueled online, while maintaining an open and free Internet where 
ideas can be shared and debated.
    To cite but a few examples of ongoing problems of moderation. After 
it was determined that Manchester suicide bomber Salman Abedi, who 
killed 22 people on May 22, 2017 relied in part on ISIS bomb-making 
instructional videos on YouTube to build his explosive device, Google 
declared that bomb-making videos had no place on the platform. However, 
that same video was still on YouTube almost two months after the 
suicide bomb attack CEP has determined that the bomb making video has 
been uploaded (and removed) from Google platforms at least 11times 
since, most recently on January 9, although the actual number is most 
likely much higher.
    The ISIS video ``The Religion of Kufr is One,'' which shows 
multiple executions by firearms and a hanging-clear violations of 
YouTube's terms of service-has been uploaded and removed from YouTube 
at least six times since May 30, 2016.
    Google/YouTube's process for detecting and removing terror content 
is still allowing prohibited content to be repeatedly uploaded and stay 
live for a sufficient period of time for hundreds people to view and 
download. Experience has shown that if most of the sharing of a video 
can take place in the first few hours it is available, meaning if the 
content is not removed quickly and uploads prevented, the moderating 
process has failed.
    The Committee will no doubt hear today from Google, Facebook and 
Twitter about improvement they have made and pledges of more action. 
CEP notes that in November, Google/YouTube removed the lectures and 
sermons from al-Qaeda operative Anwar ai Awlaki from its platform. That 
decision, however, followed a multi-year CEP campaign that included 
direct outreach to the leadership of Google, a sustained effort to 
highlight issues in the media, including via op-eds in USA Today and 
Fox News, and a series of original reports detailing Awlaki's 
ubiquitous presence on YouTube and other Internet platforms, as well as 
his radicalizing influence on U.S. and European terrorists. For 
example, CEP researchers identified 90 extremists in the U.S. and 
Europe with ties to al Awlaki, including Said and Cherif Kouachi, who 
carried out the Charlie Hebdo attacks; Omar Mateen, who killed 49 
people in Orlando; Ohio State car attacker Abdul Razak Ali Artan; 
Boston Marathon bombers Dzhokhar and Tamerlan Tsarnaev; and many 
others.
    One action does not constitute a lasting solution. Industrywide 
standards are needed to ensure the timely and permanent removal of 
dangerous content, especially when produced by groups and individuals 
on the State Department's Foreign Terrorist Organizations list, the 
Treasury Department's Specially Designated Nationals and Blocked 
Persons list, and the United Nations Security Council Sanctions list, 
and individuals with demonstrable links to violence. There is no 
shortage of extremists online--Turki ai-Binali, Abdullah Faisal, Yusuf 
al-Qaradawi and Ahmad Musa Jibril are notable examples. They must be 
subject to the same treatment and their content should be swiftly and 
permanently removed.
    Existing technology can also assist with the enforcement of new 
polices and prevent the re-upload of material from known extremists 
such as Mr. Awlaki. Dr. Hany Farid, a professor of computer science at 
Dartmouth College who advises our organization, developed an algorithm 
called eGLYPH that quickly and accurately identifies for removal known 
extremist material on the Internet and social media platforms. This 
technology is based on software developed by Dr. Farid and Microsoft 
almost a decade ago called PhotoDNA. In 2016 alone PhotoDNA was 
responsible for the take-down of over 10 million child pornography 
images around the world, based on known images as determined by the 
National Center for Missing and Exploited Children (NCMEC).
    It has already been proven that technology exists to effectively, 
aggressively, and consistently filter content that is either illegal or 
an explicit violation of a company's terms of service. While there is 
no question that reasonable people can disagree about the extremist-
nature of some content, we can all agree that videos of a murder, 
videos of beheadings, videos with explicit calls to violence, or videos 
on how to build a suicide vest are extremist in nature--the worst-of-
the-worst--and violate terms of service of all major tech companies. It 
is important to understand that technologies like eGLYPH, which was 
offered to all three of the companies before you today for free, simply 
allow companies to effectively, consistently, and transparently enforce 
their own terms of service, their standards for what is and what is not 
allowed on their networks.
    There is no technological, economic, or legal reason why we cannot 
purge major online platforms of the worst-of-the-worst extremist 
content that grows more pernicious each year. There is no reason why we 
can't significantly disrupt global online radicalization and 
recruitment by hate and extremist groups. And, there is no doubt that 
this can be accomplished in a thoughtful, effective, and transparent 
manner, while respecting the privacy and rights of every user.
    Lawmakers and the public should demand that tech finally implement 
industry-wide standards and policies that ensure the timely and 
permanent removal of dangerous extremist and terrorist material, 
establish measurable best practices and transparently deploy proven 
technologies to prevent there-upload of materials already determined to 
violate company policies. If tech fails to act, then it is time for 
regulators to promulgate measures to force the industry to take 
necessary action to protect the public.
                                 ______
                                 

               How Algorithms Can Help Beat Islamic State

        Hany Farid `changed the world' by combating child porn. Now his 
        software could suppress terrorists online.

                     By Joseph Rago, Hanover, N.H.

    You can't blame the message on the medium, not exactly. But maybe, 
all things considered, arming everyone with pocket supercomputers, and 
then filtering most of human experience through social-media feedback 
loops, wasn't the greatest idea.
    America recently endured the most electronic and media-saturated 
presidential campaign in memory, with its hacks, private servers, 
secret videotapes, fake news, troll armies and hour-by-hour Internet 
outrage across all platforms. And however glorious modern 
communications may be, they've also empowered a cast of goons, crooks 
and jihadists to build audiences and influence worldwide.
    A technological solution, at least to that last problem, may lie 
2,600 miles east of Silicon Valley, in a computer-science laboratory at 
Dartmouth College. Prof. Hany Farid, chairman of the department, 
creates algorithms that can sweep digital networks and automatically 
purge extremist content--if only the tech companies will adopt them.
    ``If you look at recent attacks, from Orlando to San Bernardino to 
Nice to Paris to Brussels,'' Mr. Farid says, ``all of those attackers 
had been radicalized online. They weren't going to Syria. They watched 
YouTube videos.''
    He continues: ``The dark side of the open Internet is that truly 
fringe and harmful ideas now are mainstream, or at least accessible to 
7\1/2\ billion people.'' Yet ``whenever we have one of these attacks, 
we just wring our hands for a few weeks and then wait for the next one 
to happen.''
    Social networks have created ``a new environment for radicalization 
and recruitment,'' says David Ibsen, executive director of the Counter 
Extremism Project, a nonprofit research and advocacy organization to 
which Mr. Farid is a senior adviser. Terror groups weaponized Twitter, 
Google, Facebook and other forums to plan or encourage violence; to 
discover the vulnerable or disaffected; and to publish professional, 
sophisticated and carefully presented propaganda.
    Islamic State is basically a digital-first media startup. (By 
comparison, al Qaeda was MySpace.) ISIS content is beamed out globally 
and becomes refractory across the viral web. Some videos show vignettes 
of ISIS bureaucrats delivering social services or its fighters talking 
about the battle between belief and unbelief. Others are more savage--
beheadings, stonings, drownings, other torture and combat operations.
    Mr. Farid slipped into this world slant-wise. He's a founder of the 
computer-science field known as digital forensics. In the late 1990s as 
a postdoctoral researcher, he was among the first to recognize that 
mathematical and computational techniques to authenticate digital 
images and other media would be useful to society.
    Because images so powerfully change what we are willing to believe, 
the modern era requires a scientific method to ensure we can trust 
them. How can we prove, for example, that digital photographs aren't 
forgeries so they are admissible as evidence in court? Images are 
increasingly important in cellular, molecular and neurological 
medicine, Mr. Farid notes, and tampering has led to more than one 
research-and-retraction scandal. Unscrupulous stringers sometimes file 
doctored photos with news organizations, and unscrupulous motorists 
sometimes photoshop pictures to exaggerate fender-benders for insurance 
claims.
    Mr. Farid explains how image authentication works: ``We think about 
how light interacts in the physical world; what happens when that light 
hits the front of the lens and gets focused and goes through an optical 
train; what happens when that light hits an electronic sensor and gets 
converted from an analog to a digital and then goes through a 
postprocessing and gets saved as .jpeg and then gets posted on 
Facebook.'' By identifying ``statistical and geometrical and physical 
regularities'' in this life cycle, software can search for 
inconsistencies to expose manipulation.
    In 2008 this research pulled Mr. Farid into another underworld--
child pornography. In 2002 the U.S. Supreme Court struck down a ban on 
``virtual'' child porn--computer-generated images that ``appear to 
depict minors but were produced without using any real children.'' Mr. 
Farid is sometimes brought in as an outside expert when a defendant 
claims the material at issue is virtual.
    The child-porn industry was nearly defunct by the 1990s, because 
negatives and videotapes can be confiscated and destroyed. ``Then the 
Internet came,'' Mr. Farid says, ``and all hell broke loose.''
    Supply can create its own demand. Much like jihadists, deviants 
formed a global community, finding each other online and sharing what 
are really crime-scene photos. Like ISIS agitprop, material is 
continuously copied, cut, spliced, resized, recompressed and otherwise 
changed, in part to evade detection as it is retransmitted again and 
again.
    Mr. Farid worked with Microsoft to solve both problems--detection 
and replication. He coded a tool called Photo DNA that uses ``robust 
hashing'' to sweep for child porn. ``The hashing part is that you reach 
into a digital image and extract a unique signature. The robust part is 
if that image undergoes simple changes, the fingerprint shouldn't 
change. When you change your clothes, cut your hair, as you age, your 
DNA stays constant,'' he says. ``That's what you want from this 
distinct fingerprint.''
    The algorithm matches against a registry of known illegal 
signatures, or hashes, to find and delete photographs, audio and video. 
Photo DNA is engineered to work at ``internet scale,'' says Mr. Farid, 
meaning it can process billions of uploads a day in microseconds with a 
low false-positive rate and little human intervention.
    Monitoring by Photo DNA, which is licensed by Microsoft at no cost 
and now used in most networks, revealed that the nature of the problem 
was ``not what we thought it was,'' says Ernie Allen, the retired head 
of the National Center for Missing and Exploited Children. Child 
pornography was far more widely circulated than law enforcement 
believed. ``Hany Farid changed the world,'' Mr. Allen adds. ``His 
innovation rescued or touched the lives of thousand of kids, and 
uncovered perpetrators, and prevented terrible revictimization as 
content was constantly redistributed.''
    Mr. Farid linked up with the Counter Extremism Project to apply the 
same robust-hashing method to extremist propaganda. But this effort has 
encountered resistance. ``The pushback from the tech companies has been 
pretty strong,'' the project's Mr. Ibsen says dryly.
    U.S. law immunizes Internet companies from criminal and civil 
liability for content that travels over their transoms. Their terms of 
service forbid abusive content, but they rely on users instead of 
algorithms to police violations. ``It's a very slow and tedious 
process: You wait for it to get reported, somebody has to review it, 
they make mistakes,'' Mr. Farid says. ``They take down the Vietnam 
napalm girl on Facebook.''
    Liability aside, what about their moral obligations to help prevent 
death, injury and destruction? ``In my mind, we're not asking them even 
to do something that they haven't said they want to do already. We're 
saying, hey, would you please do the thing that you promised you would 
do?'' he explains. ``I am simply saying, look, for free, you can 
automate this and make it really efficient and really fast and save you 
money on the side.''
    But the ``ethos'' of Silicon Valley doesn't include becoming the 
censors of the internet, and tech firms fear a slippery slope. ``The 
concern they have is, OK, first they came for the child porn, then they 
came for the extremism, next they're going to take the kitten videos,'' 
Mr. Farid says. ``I think that's a bit of a hysterical leap. We are 
talking about content with very clear and well-defined harm. These are 
not abstract notions--`I don't want people to be mean to me.' We're not 
talking about bullying. We are talking about things with very immediate 
consequences and very real harm.''
    One question is how to distinguish support for terrorism from the 
merely inappropriate or objectionable. What about Islamic State's 
black-flag brand, or a declaration of a caliphate, or the sermons of 
Anwar al-Awlaki? Maybe you know it when you see it.
    ``Is an ISIS fighter saying `Death to the West' extremism? I don't 
know. I don't want to have that conversation,'' Mr. Farid replies. 
``I'm talking about explicit acts of violence, explicit calls to 
violence, explicit glorification of violence, depravity, the worst of 
the worst of the worst.''
    His point is that tech companies can make judgment calls about the 
middle ground, wherever it might be, for themselves: ``You decide: Yes, 
no, yes, no, yes, no, and then we'll build a cache and eliminate that 
content from your networks.''
    Mr. Farid concedes that there are dangers: ``This type of 
technology is agnostic in what it's looking for. It can be used in ways 
we would not approve of, such as stifling speech. You can't deny that. 
This is what we've learned about technology over the years--it can be 
used for good and for bad. Social media platforms can be good and 
bad.''
    There has been some progress. Twitter has deleted hundreds of 
thousands of handles associated with terrorism since 2015, and late 
last year Twitter, Facebook, Microsoft and YouTube announced an 
industry antiterror consortium. But Mr. Farid's robust hashing remains 
a hard sell.
    The irony is that algorithms increasingly govern the world. 
Networks are perpetually scanned for spam, malware, viruses; Google 
reads your e-mail to target ads; credit-card companies monitor your 
financial transactions to prevent fraud. Facebook's Mark Zuckerberg 
even promises to use algorithms to distinguish truth from falsehood. As 
a scholar of the differences between the two, Mr. Farid has a few 
thoughts.
    In the backwash of 2016, Mr. Zuckerberg published a 5,800-word 
manifesto that promised Facebook's artificial intelligence would soon 
learn to sort real news from hoaxes and misinformation, break up 
``filter bubbles,'' and draw a line between free speech and suborning 
terror. The goal, he wrote, is to preserve ``our shared sense of 
reality.''
    Mr. Farid is a skeptic: ``As somebody who worked for a long time in 
this space, I think he's underestimating what a hard problem this is.'' 
Mr. Zuckerberg ``paints this picture like machine learning is going to 
be fully automatic--basically you'll be able to set criteria on your 
page, ``I don't want to see violence, I don't want to see bad words,'' 
and it'll just work.
    ``Even as a technologist, and despite all the advance of 
technology, the human brain is astonishing at what it does. Our ability 
to make these types of assessments that are really hard for these AI 
algorithms is humbling. I don't think we'll get it in the next five or 
10 years.''
    Meantime, Mr. Farid has developed a technology that could work 
today to contain a growing threat. While we await the Facebook utopia, 
perhaps our digital lives--and our real lives--would be healthier if it 
were widely deployed.

Mr. Rago is a member of The Wall Street Journal's editorial board.

Appeared in the March 11, 2017, print edition.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                             Monika Bickert
    Question 1. Your written testimony emphasized the importance of the 
credibility of the speaker as it relates to Facebook's efforts to 
prevent recruitment through ``counterspeech.'' How have your strategic 
partnerships with non-governmental organization and community groups 
bolstered Facebook's ``counterspeech'' efforts?
    Answer. We believe that a key part of combating extremism is 
preventing recruitment by disrupting the underlying ideologies that 
drive people to commit acts of violence. That's why we support a 
variety of counterspeech efforts. Although counterspeech comes in many 
forms, at its core it includes efforts to prevent people from pursuing 
a hate-filled, violent life or convincing them to abandon such a life.
    Our efforts are focused on empowering counterspeech creators and 
amplifying local voices by building awareness, educating communities, 
encouraging cohesion, and directly countering hateful narratives. We 
have partnered with non-governmental organizations and community groups 
around the world to empower positive and moderate voices. For example, 
in the U.S., we have worked with EdVenture Partners to develop a peer-
to-peer student competition called the Facebook Global Digital 
Challenge (P2P). This is a semester-long university course during which 
students build a campaign to combat extremism in their area, launch it, 
track its success, and then submit the results as part of a global 
competition. As part of P2P, a team of communications students from the 
University of Central Oklahoma ran an amazing program called uDefy that 
reached over one million people in 85 countries using Facebook and 
other social media platforms. The team behind uDefy encouraged 
participants to recognize and challenge their own beliefs and 
stereotypes by taking a four-step pledge: (1) face your truth; (2) get 
the facts; (3) commit to defy; and (4) spread the word. The goal of the 
campaign is to channel fear and misconception into truth and 
understanding one individual at a time. Those who complete the four-
step pledge become uDefy ambassadors and take the campaign back to 
their own campuses. In less than three years, these P2P projects have 
reached more than 56 million people worldwide through more than 500 
anti-hate and extremism campaigns created by more than 5,500 university 
students in 68 countries.
    We have also partnered with the Institute for Strategic Dialogue to 
launch the Online Civil Courage Initiative, a project that has engaged 
with more than 100 anti-hate and anti-extremism organizations across 
Europe. Similarly, we work with Affinis Labs to host hackathons in 
places like Manila, Dhaka, and Jakarta, where community leaders joined 
forces with tech entrepreneurs to develop innovative solutions to 
challenge extremism and hate online.
    By fanning out and removing content, and supporting counterspeech 
efforts, we can limit the audience and distribution of terrorist 
propaganda.

    Question 2. Your written testimony stated: ``In the first half of 
2017, [Facebook] provided information in response to more than 75 
percent of the 1,864 requests for emergency disclosures that [the 
company] received from U.S. law enforcement agencies.'' Do you have a 
company policy when deciding how to respond to the 1,864 requests for 
emergency disclosures?
  (a)  Does Facebook do their own assessment as to whether the content 
        constitutes an emergency?
    Answer. As part of official investigations, government officials 
sometimes request data about people who use Facebook. We disclose 
account records in accordance with our terms of service and applicable 
law, and we may voluntarily disclose information to law enforcement 
where we have a good faith reason to believe that the matter involves 
imminent risk of serious physical injury or death. We have strict 
processes in place to handle these government requests. We require 
officials to provide a detailed description of the legal and factual 
basis for their request, and we push back if the request appears to be 
legally deficient or is overly broad, vague, or otherwise inconsistent 
with our policies. More information about the requests we have received 
from governments around the world can be found at https://
transparency.facebook.com/.

  (b)  Do your internal policies account for the 25 percent of requests 
        that are not responded to with information?
    Answer. Please see the response to question 2a.

  (c)  Do you have the resources to deal with these requests?
    Answer. Our Law Enforcement Response Team works hard to respond to 
legitimate law enforcement requests while fulfilling our responsibility 
to protect people's privacy and security. We have a global team that 
strives to respond within minutes to emergency requests from law 
enforcement. Our effort to make our platform safer and more secure is a 
holistic one that involves a continual evaluation of our personnel, 
processes and policies, and we make changes as appropriate.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                             Monika Bickert
    Question 1. Social media companies are increasingly able to remove 
terrorist recruitment, incitement, and training materials before it 
posts to their platforms by relying on improved automated systems. 
Other than content removal, what else can be done to limit the audience 
or distribution of these dangerous materials?
    Answer. When we find an account that is associated with terrorism, 
we use artificial intelligence to identify and remove related material 
that may also support terrorism or terrorists. As part of that process, 
we utilize a variety of signals, including whether an account is 
``friends'' with a high number of accounts that have been disabled for 
terrorism, or whether an account shares the same attributes as a 
disabled account.
    Moreover, we believe that a key part of combating extremism is 
preventing recruitment by disrupting the underlying ideologies that 
drive people to commit acts of violence. That's why we support a 
variety of counterspeech efforts. Although counterspeech comes in many 
forms, at its core these are efforts to prevent people from pursuing a 
hate-filled, violent life or convincing them to abandon such a life. We 
have partnered with non-governmental organizations and community groups 
around the world to empower positive and moderate voices. For example, 
in the U.S., we have worked with EdVenture Partners to develop a peer-
to-peer student competition called the Facebook Global Digital 
Challenge (P2P). This is a semester-long university course during which 
students build a campaign to combat extremism in their area, launch it, 
track its success, and then submit the results as part of a global 
competition. As part of P2P, a team of communications students from the 
University of Central Oklahoma ran an amazing program called uDefy that 
reached over one million people in 85 countries using Facebook and 
other social media platforms. The team behind uDefy encouraged 
participants to recognize and challenge their own beliefs and 
stereotypes by taking a four-step pledge: (1) face your truth; (2) get 
the facts; (3) commit to defy; and (4) spread the word. The goal of the 
campaign is to channel fear and misconception into truth and 
understanding one individual at a time. Those who complete the four-
step pledge become uDefy ambassadors and take the campaign back to 
their own campuses. In less than three years, these P2P projects have 
reached more than 56 million people worldwide through more than 500 
anti-hate and extremism campaigns created by more than 5,500 university 
students in 68 countries.
    We have also partnered with the Institute for Strategic Dialogue to 
launch the Online Civil Courage Initiative, a project that has engaged 
with more than 100 anti-hate and anti-extremism organizations across 
Europe. Similarly, we work with Affinis Labs to host hackathons in 
places like Manila, Dhaka, and Jakarta, where community leaders joined 
forces with tech entrepreneurs to develop innovative solutions to 
challenge extremism and hate online.
    By fanning out and removing content, and supporting counterspeech 
efforts, we can limit the audience and distribution of terrorist 
propaganda.

    Question 2. Terrorist how-to guides are protected by the First 
Amendment in the United States, but violate the content policies of 
many social media companies as well as the laws of some international 
partner nations. What countries have laws that go beyond your company's 
content policies and can you give examples of how you have worked with 
those countries to de-conflict those differences?
    Answer. A number of countries around the world have laws that limit 
content that might otherwise be allowed by our Community Standards or 
U.S. law. In Germany, for example, laws forbid incitement to hatred. In 
the U.S., on the other hand, even the most vile speech may be legally 
protected under the U.S. Constitution. There are times when we may have 
to remove or restrict access to content because it violates a law in a 
particular country, even though it does not violate our Community 
Standards. Further, when governments believe that something on the 
Internet violates their laws, they may contact companies like Facebook 
and ask us to restrict access to that content. When we receive such a 
request, it is scrutinized to determine if the specified content does 
indeed violate local laws. If we determine that it does, then we make 
it unavailable in the relevant country or territory. For example, 
Holocaust denial is illegal in Germany, so if it is reported to us, we 
will restrict this content for people in Germany.

    Question 3. The long-term business interests of social media 
platforms are aligned with the public safety concerns of this 
committee: users want to feel safe while engaging with the online 
community. To this end, Facebook is developing a way to identify users 
at higher risk of suicide and urgently pass posts from any user in 
danger to a community operations team, as well as provide that user 
with a menu of options to reach out to their own friends or other 
suicide prevention partners. Is Facebook developing any similar tool to 
identify users at higher risk of terrorist activity? If so, what off-
ramp options would Facebook consider offering those users?
    Answer. We are using similar automated tools to identify users who 
are posting content that violates our policies against terrorism, 
including promoting terror groups, sharing their propaganda, and 
planning or coordinating violence. We reach out to law enforcement 
whenever we see a credible threat of imminent harm.
    We are eager to partner with government and civil society to 
develop off-ramp options for users at a higher risk of terrorist 
activity. A critical part of providing an off-ramp is being able to 
link people to appropriate, effective, and responsible services. We are 
exploring ways of partnering with such services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Monika Bickert
    Question 1. Facebook prohibits individuals and organizations that 
promote hate from having a presence on its site. However, I think we 
can do much more to promptly communicate threats of hate-based violence 
to the relevant law enforcement agencies and internally police hate-
promoting individuals and organizations. Will you commit Facebook to 
exploring and implementing a more aggressive effort to report hateful 
images and threats to law enforcement? If not, can you explain why you 
would not commit to this important request?
    Answer. Facebook is opposed to hate speech in all its forms, and we 
are committed to removing it from our platform any time we become aware 
of it. We carefully review reports that we receive from the public, 
media, civil society, and governments, and we remove content that 
violates our policies. We are committed to improving our approach to 
addressing these issues, and regularly evaluate our hate speech 
policies to determine whether they need to be updated. We are also 
working to enhance our review process so that we are able to respond 
quickly and accurately to community reporting. We also remove credible 
threats of physical harm to individuals and specific threats of theft, 
vandalism, or other financial harm. We have a long history of working 
successfully with law enforcement to address a wide variety of threats 
to our platform, and we work with law enforcement when we believe there 
is a genuine risk of physical harm or direct threats to public safety. 
Our effort to make our platform safer and more secure is a holistic one 
that involves a continual evaluation of our personnel, processes, and 
policies, and we make changes as appropriate.

    Question 2. We have strong principles of freedom of speech, but at 
the same time, we need to balance that freedom with the need to protect 
against bad actors who would leverage that freedom to plan and promote 
illegal acts. How can we use artificial intelligence to help us achieve 
a balance between our American ideal of free speech and the need to 
protect against extremist acts of terror?
    Answer. We already use artificial intelligence (AI) to help us 
identify threats of real world harm from terrorists and others. We 
reach out to law enforcement whenever we see a credible threat of 
imminent harm. The use of AI and other automation to stop the spread of 
terrorist content is showing promise. Today, 99 percent of the ISIS and 
Al Qaeda-related terror content we remove from Facebook is content we 
detect before anyone in our community has flagged it to us, and in some 
cases, before it goes live on the site. We do this primarily through 
the use of automated systems like photo and video matching and text-
based machine learning. Once we are aware of a piece of terror content, 
we remove 83 percent of subsequently uploaded copies within one hour of 
upload.
    We believe technology can be part of the fight against terrorism. 
But deploying AI for counterterrorism is not as simple as flipping a 
switch. For example, a photo of an armed man waving an ISIS flag might 
be propaganda or recruiting material, but could be an image in a news 
story. Ultimately, the use of AI must be reinforced with manual review 
from trained experts. To that end, we tap expertise from inside the 
company and from outside, partnering with those who can help address 
extremism across the internet.

    Question 3. Outside of artificial intelligence, what other 
technologies could be used to combat potential radicalization on social 
media platforms? What does the implementation of those technologies 
look like?
    Answer. We are constantly updating our technical solutions, but our 
current efforts include image matching technology and language 
understanding. When someone tries to upload a terrorist photo or video, 
our systems look for whether the image matches a known terrorist photo 
or video. This means that if we previously removed an ISIS propaganda 
video, for example, we can work to prevent other accounts from 
uploading the same video to our site. We also have started 
experimenting with using AI to understand text that potentially 
advocates for terrorism. We are working to develop text-based signals 
to detect praise or support of terrorist organizations. These signals 
will be incorporated into an algorithm that is in the early stages of 
learning how to detect similar posts.
    We understand that simply working to keep terrorism off Facebook is 
an inadequate solution to the problem of online extremism, particularly 
because terrorists are able to leverage a variety of platforms. We 
believe our partnerships with others--including other companies, civil 
society, researchers, and governments--are crucial to combating this 
threat. To this end, we have partnered with our industry counterparts 
to more quickly identify and slow the spread of terrorist content 
online. For example, in December 2016, we joined with Microsoft, 
Twitter, and YouTube to announce the development of a shared industry 
database of ``hashes''--unique digital fingerprints for photos and 
videos--for content produced by or in support of terrorist 
organizations. The database now contains more than 60,000 hashes, and 
the consortium has grown to include thirteen companies.
    We believe that computer algorithms and machine learning are 
necessary but not sufficient to address these problems. That's why we 
are also using specialized human review, industry cooperation, and 
counter-speech training. We will also be doubling the number of people 
who work on safety and security at Facebook by the end of this year--
from 10,000 to 20,000 people.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Monika Bickert
    Question 1. On October 30, 2017, nineteen civil rights groups, 
including Muslim Advocates, Leadership Conference on Civil and Human 
Rights, NAACP, Southern Poverty Law Center, and many others, co-signed 
a letter to Facebook to express concern about the hateful content on 
the social media platform used to divide the country, and in 
particular, to promote anti-Muslim, anti-Black, anti-immigrant, and 
anti-LGBTQ animus.
    Ms. Bickert, please provide a copy of Facebook's response to this 
letter.
    Answer. Hate speech and discriminatory advertising have no place on 
our platform, and we remove such content as soon as we become aware of 
it. We also have partnerships with academics and experts who study 
organized hate groups and who share information with Facebook on how 
organizations are adapting to social media and give feedback on how 
Facebook might better tackle these problems. We have reached out to the 
groups referenced in the question and are in a dialogue with them, 
which has included in-person conversations. We are committed to 
continuing our dialogue with them and other third parties to ensure 
that our users feel welcome and safe on our platform.

    Question 2. Facebook reports that 99 percent of the ISIS and Al 
Qaeda-related terror content is detected and removed before it is even 
flagged on Facebook. However, a recent investigation by ProPublica 
asked Facebook about its handling of forty-nine posts that they thought 
might be deemed offensive Facebook's own Community Standards. Facebook 
acknowledged and apologized that its content reviewers made the wrong 
call in almost half of them.
    Ms. Bickert, what steps is Facebook taking to better counter the 
use of the platform to spread hateful information and improve the work 
of its content reviewers?
    Answer. We don't allow hate speech, which we define as anything 
that directly attacks people based on race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, or serious disability or disease. However, our policies allow 
content that may be controversial and at times even distasteful, but 
which does not cross the line into hate speech. This may include 
criticism of public figures, religions, professions, and political 
ideologies. Our challenge is identifying hate speech across different 
cultures, languages, and circumstances for a community of more than 2 
billion people.
    Nudity and violence, for example, are fairly easy to spot, but hate 
speech is often determined by its context. Because of these nuances, we 
cannot rely on machine-learning or AI to the same degree that we do 
with other types of content like nudity. Technology can help flag the 
most blatantly reprehensible language. But it cannot yet understand the 
context necessary to assess what is or is not hate speech--though we 
are working on tools to help us improve the accuracy of our enforcement 
and building new AI to better detect bad content.
    We encourage people to report posts and rely on our team of content 
reviewers around the world to review reported content. Our reviewers 
are trained to look for violations and enforce our policies 
consistently and as objectively as possible. We have weekly quality 
audits of each reviewer, during which we re-review a subset of their 
work and address any mistakes made. We receive millions of reports of 
possible content violations every week, so we know that we will 
unfortunately make many mistakes even if we maintain an accuracy rate 
of 99 percent. We are always working to make our platform safer and 
more secure through, among other things, continually evaluating our 
processes, policies, and training. Enforcement is never perfect, but we 
will get better at finding and removing improper content.

    Question 3. As recently as last year, Facebook reportedly allowed 
offensive claims that specify a sub-group within a protected class, 
such as ``black children'' or ``female drivers'' but would ban attacks 
aimed at entire groups, such as ``white men.'' It seems that such 
policies could easily be gamed to work-around Facebook Community 
Standards.
    Ms. Bickert, Is that still the policy of Facebook? Can you explain 
the nuances in the new policy and how Facebook is working to make sure 
such mistakes don't happen again?
    Do you think it would be helpful for Facebook to be more 
transparent about how it applies its standards, or bring in an 
independent third-party and work with civil rights groups to help it 
evaluate its current policies?
    Answer. No, this is not our policy. Facebook is opposed to hate 
speech in all its forms, and that includes removing content that 
targets any of the three groups identified in the question, depending 
on the context of the post.
    We currently define hate speech as anything that directly attacks 
people based on protected characteristics--race, ethnicity, national 
origin, religious affiliation, sexual orientation, sex, gender, gender 
identity, or serious disability or disease. Such content violates our 
Community Standards and will be removed. This includes, for example, 
content that attacks ``black children'' or ``white men.'' However, 
there may be other content that is controversial or distasteful, but 
does not cross the line into hate speech.
    We are constantly evaluating--and, where necessary, changing--our 
content policies to account for shifts in cultural and social norms 
around the world. For example, we recently updated our hate speech 
policies to remove violent speech directed at groups of people defined 
by protected characteristics, even if the basis for the attack may be 
ambiguous. Under the previous hate speech policy, a direct attack 
targeting women on the basis of gender, for example, would have been 
removed from Facebook, but the same content directed at women drivers 
would have remained on the platform. We have come to see that this 
distinction is a mistake, and we no longer differentiate between the 
two forms of attack when it comes to the most violent hate speech. For 
instance, we would now remove a comment that dehumanized ``female 
drivers'' by comparing them to animals. We continue to explore how we 
can adopt a more granular approach to hate speech, both in the way we 
draft our policies and the way we enforce on them.

    Question 4. Ms. Bickert, Mr. Monje, and Ms. Downs, please provide 
copies (including images, text, dates and timestamps) of all content 
identified by your platforms as generated by Russian agents or the 
Internet Research Agency.
    Answer. We have provided this information to the Senate Select 
Committee on Intelligence and the Senate Judiciary Committee and 
believe you should have access through those committees.

    Question 5. Advocates for preventing gun violence have long been 
concerned about the ``private sale'' loophole, which allows individuals 
to purchase guns without a background check. So, Facebook's 
announcement in January 2016 that it would ban the private sale of guns 
and ammo on its site and Facebook was met with great applause. 
Unfortunately, it soon became evident that new rules have done little, 
if anything, to stop the flow of guns on the social network. If we are 
serious about fighting terrorism online, we should be just as serious 
about really closing this dangerous loophole, which could very well 
enable violent ideology to be translated into horrific acts.
    Ms. Bickert, do you agree that successfully closing this loophole 
is important?
    How would you compare the amount of resources devoted to combatting 
terrorism online to the amount of resources devoted to ensuring 
Facebook's prohibition on the private sale of guns and ammo?
    In what way is Facebook making sure it applies any relevant 
technologies, tools, and human resources used to review hate speech to 
also enforce Facebook's prohibitions on the private sale of guns and 
ammo?
    Answer. We do not allow firearm sales on Facebook, and any time we 
become aware of content that is facilitating gun sales, we remove it. 
We allow our users to report such activity. We also look at associated 
groups and accounts by ``fanning out'' to identify and remove other 
content that may violate our policies. We will continue to look for 
ways to get faster at finding and removing violating content, and we 
encourage our community to continue to tell us if they see this 
behavior anywhere on our platform.

    Question 6. At least one of your peers in the tech industry has 
voluntarily initiated an outside assessment of the civil rights impacts 
of its policies and programs. In response to concerns regarding 
discrimination on the home-sharing platform, AirBNB hired former U.S. 
attorney general Eric Holder to help craft an anti-discrimination 
policy and has promised to pursue technological innovations to guard 
against future discriminatory events.
    Mr. Monje, Ms. Bickert, and Ms. Downs, can you each commit to 
bringing in an independent entity to conduct a thorough and public 
audit of the civil rights impact of your policies and programs, 
including how your platform has been used by hate groups to stoke 
religious resentment and violence?
    Answer. Hate speech and discriminatory advertising have no place on 
our platform. Our Community Standards prohibit attacks based on 
protected characteristics, including religion, and we prohibit 
advertisers from discriminating against people based on religion and 
other attributes. Facebook has partnerships with academics and experts 
who study organized hate groups and hate speech. These academics and 
experts share information with Facebook on how organizations are 
adapting to social media and give feedback on how Facebook might better 
tackle these problems. We recently hosted several of these academics at 
Facebook for multiple days of observation and assessment, during which 
the academics attended substantive meetings on our content policies and 
the guidance we provide to our reviewers. Further, in the area of hate 
speech, there are very important academic projects that we follow 
closely. Timothy Garton Ash, for example, has created the Free Speech 
Debate to look at these issues on a cross-cultural basis. Susan Benesch 
established the Dangerous Speech Project, which investigates the 
connection between speech and violence. These projects show how much 
work is left to be done in defining the boundaries of speech online, 
which is why we will keep participating in this work to help inform our 
policies at Facebook. We are committed to continuing our dialogue with 
third parties to ensure that our users feel welcome and safe on our 
platform.

    Question 7. A little over a year ago, Facebook, Twitter, Google, 
and Microsoft announced a plan to create a joint industry database of 
``content that promotes terrorism.''
    Mr. Monje, Ms. Bickert, and Ms. Downs, to what extent does this 
joint industry database focus on all forms of terror, including the 
real terror threat presented by white supremacists?
    Answer. At last year's EU Internet Forum, Facebook, Microsoft, 
Twitter, and YouTube declared our joint determination to curb the 
spread of terrorist content online. Over the past year, we have 
formalized this partnership with the launch of the Global Internet 
Forum to Counter Terrorism (GIFCT). The GIFCT is committed to working 
on technological solutions to help thwart terrorists' use of our 
services, including through a shared industry hash database, where 
companies can create ``digital fingerprints'' for terrorist content and 
share it with participating companies. The database, which became 
operational in the spring of 2017, now contains more than 60,000 
hashes. It allows the thirteen member companies to use those hashes to 
identify and remove matching content--videos and images--that violate 
our respective policies or, in some cases, block terrorist content 
before it is even posted. Each company has different policies, 
practices, and definitions as they relate to terrorist content. If 
content is removed from a company's platform for violating that 
platform's individual terrorism-related content policies, the company 
may choose to hash the content and include it in the database.
    Facebook's policies do prohibit all forms of terror, including 
threats by white supremacist organizations.

    Question 8. As reported by CNN last August after the events in 
Charlottesville, only 58 of over 200 Southern Poverty Law Center-
designated hate groups with Facebook accounts had been suspended for 
their hateful actions and rhetoric.
    Ms. Bickert, how many of those hate groups with Facebook accounts 
are now blocked? What further steps are you taking to further review 
the actions and accounts of these groups?
    Answer. Facebook is opposed to hate speech in all its forms. 
Facebook has partnerships with academics and experts who study 
organized hate groups, including the Southern Poverty Law Center. These 
academics and experts share information with Facebook on how 
organizations are adapting to social media and give feedback on how 
Facebook might better tackle these problems. That said, we apply our 
own policies about what constitutes hate speech, and our definition of 
hate speech may differ from others, including those with whom we 
partner. We are constantly evaluating--and, where necessary, changing--
our content policies, and we currently define hate speech as anything 
that directly attacks people based on protected characteristics--race, 
ethnicity, national origin, religious affiliation, sexual orientation, 
sex, gender, gender identity, or serious disability or disease. Such 
content violates our Community Standards and will be removed. However, 
there may be content that is controversial or distasteful, but does not 
cross the line into hate speech.
    Further, our own content policy team includes subject matter 
experts who are focused on staying ahead of trends in hate speech. 
Their work is used to inform our Community Operations team, which 
reviews content that our users and automated tools flag as 
inappropriate, dangerous, abusive, or otherwise violating our 
policies--including our hate speech policy.
    Managing a global community in this manner has never been done 
before, and we know we have a lot more work to do. We are committed to 
improving and to ensuring that hate has no place on Facebook.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Monika Bickert
    Question 1. Please quantify and explain Facebook's progress in 
tackling the fake-user account issue. For the most recent full month 
available and every month in the two years preceding provide:

  <bullet> number of fake accounts created

  <bullet> number of fake accounts removed

  <bullet> number of accounts hacked

  <bullet> number of hacked accounts restored

  <bullet> number of duplicate accounts created

  <bullet> number of duplicate accounts removed

  <bullet> number of inactive accounts existing

  <bullet> number of inactive accounts removed

  <bullet> number of monthly active users

  <bullet> average number of days a fake account remains on the 
        platform

    Please provide the numbers above for Instagram as well.
    Answer. Facebook regularly provides information on the number of 
monthly active users (MAUs), false accounts, and duplicate accounts in 
its filings with the Securities and Exchange Commission. We define an 
MAU as a registered Facebook user who logged in and visited Facebook 
through our website or a mobile device, or used our Messenger 
application (and is also a registered Facebook user), in the last 30 
days as of the date of measurement. MAUs are a measure of the size of 
our global active user community. As of December 31, 2017, we had 2.13 
billion MAUs, an increase of fourteen percent from December 31, 2016.
    We regularly evaluate these metrics to estimate the number of 
``duplicate'' and ``false'' accounts among our MAUs. A duplicate 
account is one that a user maintains in addition to his or her 
principal account. We divide ``false'' accounts into two categories: 
(1) user-misclassified accounts, where users have created personal 
profiles for a business, organization, or non-human entity such as a 
pet (such entities are permitted on Facebook using a Page rather than a 
personal profile under our terms of service); and (2) undesirable 
accounts, which represent user profiles that we determine are intended 
to be used for purposes that violate our terms of service, such as 
spamming. The estimates of duplicate and false accounts are based on an 
internal review of a limited sample of accounts, and we apply 
significant judgment in making this determination. In the fourth 
quarter of 2017, we estimate that duplicate accounts may have 
represented approximately ten percent of our worldwide MAUs. We believe 
the percentage of duplicate accounts is meaningfully higher in 
developing markets such as India, Indonesia, and the Philippines, as 
compared to more developed markets. In the fourth quarter of 2017, we 
estimate that false accounts may have represented approximately three 
to four percent of our worldwide MAUs. Our estimation of false accounts 
can vary as a result of episodic spikes in the creation of such 
accounts. Additional information relating to our estimate of false 
accounts is included in our filings with the SEC. We do not maintain 
public statistics on the other types of accounts that are referenced in 
the question.
    We continue to make improvements to our efforts to more effectively 
detect and deactivate fake accounts to help reduce the spread of spam, 
false news, and misinformation. We continually update our technical 
systems to identify, checkpoint, and remove inauthentic accounts, and 
we block millions of attempts to register fake accounts every day. 
These systems examine thousands of detailed account attributes and 
prioritize signals that are more difficult for bad actors to disguise, 
such as their connections to others on our platform. As with all 
security threats, we have been incorporating new insights into our 
models for detecting fake accounts, including information specific to 
election issues.

    Question 2. How does a user find out if they are being impersonated 
on Facebook or Instagram? Do Facebook and Instagram notify users 
proactively? Or are users expected to monitor the platforms and report 
to the company?
    Answer. Claiming to be another person violates our Community 
Standards, and we want to make it harder for anyone to be impersonated 
on our platform. Users can also report accounts that are impersonating 
them. We've developed several techniques to help detect and block this 
type of abuse. At the time someone receives a friend request, our 
systems are designed to check whether the recipient already has a 
friend with the same name, along with a variety of other factors that 
help us determine if an interaction is legitimate. Further, we recently 
announced new features that use face recognition technology that may 
help people learn when someone is using their image as a profile 
photo--which can help stop impersonation. This is an area we're 
continually working to improve so that we can provide a safe and secure 
experience on Facebook.

    Question 3. What are the average numbers of days or hours that 
Facebook and Instagram take to investigate impersonation complaints 
before they are resolved?
    Answer. We promptly respond to reports of imposter accounts. 
Sometimes, these investigations are complex and require, for example, 
that users upload identification to confirm their identities. In 
general, the majority of all types of complaints received on Facebook 
are reviewed within 24 hours.

    Question 4. Do Facebook and Instagram have a separate, expedited 
process for resolving impersonation of minors' accounts?
    Answer. We take the issue of safety on our platform very seriously, 
especially that of our teen users. We want people to connect and share 
on Facebook, and it's integral that they feel safe in order to do so. 
We do not tolerate impersonation in any way and we remove profiles that 
impersonate other people. We have developed several techniques to help 
detect and block this type of abuse. At the time someone receives a 
friend request, for example, our systems are designed to check whether 
the recipient already has a friend with the same name, along with a 
variety of other factors that help us determine if an interaction is 
legitimate. It's an area we're continually working to improve so that 
we can provide a safe and secure experience.

    Question 5. According to the current best estimate, approximately 
126 million people on Facebook may have been served some piece of 
content associated with the Internet Research Agency (IRA) between 
January 2015 and August 2017. How many Instagram users were also served 
IRA content during the same time period? What was the methodology 
behind these estimates?
    Answer. Using data analysis and modeling, we found that 11.4 
million people in the United States saw at least one of the ads 
associated with the IRA between 2015 and 2017, and that as many as 126 
million people in the United States may have seen a piece of IRA 
content on Facebook. Our data related to Instagram is incomplete, but 
we believe that as many as 16 million additional people who did not see 
this content on Facebook saw IRA content on Instagram starting in 
October 2016.

    Question 6. How well did IRA content perform on Facebook and 
Instagram? Please provide metrics commonly measured on the platforms 
and benchmark against industry standards. This includes but is not 
limited to engagement (i.e., time on post), reactions, impressions, and 
referral traffic for organic content. For ads, please provide the 
click-through rate and cost per reaction or reach.
    Answer. As noted above, we found that 11.4 million people in the 
United States saw at least one of the ads associated with the IRA 
between 2015 and 2017, and that as many as 126 million people in the 
United States may have seen a piece of IRA content on Facebook. Forty-
four percent of total ad impressions were before the U.S. election, and 
56 percent of total ad impressions were after the election. Roughly 25 
percent of the ads were never shown to anyone. That's because 
advertising auctions are designed so that ads reach people based on 
relevance, and certain ads may not reach anyone as a result. Our data 
related to Instagram is incomplete, but we believe that as many as 16 
million additional people who did not see this content on Facebook saw 
IRA content on Instagram starting in October 2016.

    Question 7. Has Facebook shared the content, data, and metadata 
associated IRA activity above with researchers who are also looking 
into this? With law enforcement? With other companies? If not, then why 
not?
    Answer. Facebook is providing investigators, including 
congressional committees, with information it has regarding the scope 
and nature of Russian information operations on our platform that may 
be relevant to their inquiries. We have also been working with many 
others in the technology industry on these issues.

    Question 8. Facebook has several advertising tools and properties--
including Facebook Events, Facebook Audience Network, and Facebook 
Canvas. Can you list all of them (including those for advertising on 
Instagram), and a succinct summary of what each of them do? Which of 
these were used by the IRA?
    Answer. The Facebook family supports multiple advertising types. 
Each ad has two components: the format (what the ad looks like) and the 
placement (where it will be displayed). Ads can be placed on Facebook, 
Instagram, Messenger and Audience Network, which allows ads to be 
delivered on apps and sites beyond Facebook. Depending on where it is 
placed, available formats may include video; image; Collection, or 
displays of items from a product catalog; Carousel, or multiple image 
or videos within an ad; Slideshow, or video ads that can be seen at 
slower connection speeds; Canvas, or full-screen ads on mobile devices; 
lead generation ads, which allow advertisers to collect information 
from people interested in their business; offer ads that businesses can 
use to share discounts on their products; Post ads, which allows 
advertisers to have their Page posts appear beyond their Pages; ads for 
events; and ads for Page likes. The IRA generally used Page Likes or 
Page Post ads, typically with still images. The IRA also created some 
ads to promote events.
    Facebook also offers three primary types of targeting, or 
audiences. Core Audiences are traditional targeting options based on 
location, demographics (age, gender education, job status, and more), 
interests, behavior, and connections. Custom Audiences are groups of 
specific people, like an advertiser's own contacts (Customer File 
Custom Audiences), visitors to an advertiser's website or app (Website 
Traffic Custom Audiences), or people who have engaged with an 
advertiser's content on Facebook services (Engagement Custom 
Audiences). Finally, Facebook offers Lookalike Audiences, which enables 
advertisers to find Facebook users that have similar characteristics to 
another audience. The targeting for the IRA ads that we have identified 
was relatively rudimentary, targeting broad locations and interests, 
and did not use Customer File Custom Audiences or Customer File 
Lookalike Audiences.

    Question 9. In 2016, accounts affiliated with RT and Sputnik spent 
$5.4 million on Facebook advertising. How much did the same accounts 
spend on Facebook advertising in 2017? Does this include Instagram? How 
well did they perform? Again, please provide metrics commonly measured 
on the platforms and benchmark against industry standards. Were there 
any other Russian-linked accounts that heavily promoted RT or Sputnik 
content to the U.S. audience?
    Answer. We have provided information concerning 2016 spending by RT 
and Sputnik in response to unique issues regarding the 2016 election. 
We have not conducted a similar analysis for 2017.

    Question 10. Advertisers on both Facebook and Instagram generally 
pay for the size and quality of the audience that they would like to 
reach on the platforms. Did Facebook advertise to fake-user accounts? 
If so, how much revenue or profit did Facebook bring in by advertising 
to fake-user accounts?
    Answer. We regularly evaluate metrics to estimate the number of 
``false'' accounts among our monthly active users. We divide ``false'' 
accounts into two categories. The first category includes user-
misclassified accounts, where users have created personal profiles for 
a business, organization, or non-human entity such as a pet (such 
entities are permitted on Facebook using a Page rather than a personal 
profile under our terms of service). The second category includes 
undesirable accounts, which represent user profiles that we determine 
are intended to be used for purposes that violate our terms of service, 
such as spamming. We estimate that in the fourth quarter of 2017, false 
accounts may have represented approximately three to four percent of 
our worldwide monthly active users. Our estimation of false accounts 
can vary as a result of episodic spikes in the creation of such 
accounts, and additional information relating to our estimate of false 
accounts is included in our quarterly filings with the Securities and 
Exchange Commission. We continually update our technical systems to 
identify, checkpoint, and remove inauthentic accounts, which means that 
once discovered, these accounts do not remain active or eligible to 
view ads. We believe that revenue generated by advertising to false 
accounts is immaterial.

    Question 11. Of the 20,000 people Facebook plans to employ by end 
of 2018 to work on safety and security, how many will be full-time, 
permanent employees? How many will be contractors? Will the majority of 
that team be located at the Menlo Park campus? Where is the majority of 
Facebook's current security and safety team located?
    Answer. We have people working around the world on safety and 
security at Facebook. We use a combination of employees and contractors 
to make Facebook a place where both expression and personal safety are 
protected and respected. This allows us to scale globally with coverage 
across time zones, languages, and markets.

    Question 12. Will Instagram have its own security and safety team 
as well? If so, please provide details.
    Answer. Our safety and security teams work across Facebook's family 
of applications.

    Question 13. Facebook recently announced that it will implement 
additional verification and disclosure requirements for advertisers 
running election ads for Federal elections. How will the ad onboarding 
process change for political advertisers on Facebook and Instagram? How 
will political ads look like to users of Facebook and Instagram? Please 
provide mock-ups for both the onboarding process and users' view of the 
ad.
    Answer. We support efforts to promote greater transparency in 
political advertising online and are taking steps to make advertising 
on Facebook more transparent, increase requirements for authenticity, 
and strengthen our enforcement against ads that violate our policies. 
We will require more thorough documentation from advertisers who want 
to run election-related ads. As part of the documentation process, 
advertisers may be required to identify that they are running election-
related advertising and verify both their entity and location. Once 
verified, these advertisers will have to include a disclosure in their 
election-related ads, which reads: ``Paid for by.'' When users click on 
the disclosure, they will be able to see details about the advertiser, 
and we will maintain a searchable archive of information. Like other 
ads on Facebook, they will also be able to see an explanation of why 
they saw that particular ad. For more information, see newsroom.fb.com/
news/2017/10/update-on-our-advertising-transparency-and-authenticity-
efforts.

    Question 14. For political advertisers who do not self-identify, 
will there be any human controls in addition to the automated tools to 
identify the ads proactively? Will Facebook and Instagram still publish 
the ad before its buyer is identified? If not, how long will the 
advertiser have to wait before the ad is published if they did not 
self-identify?
    Answer. As part of our efforts to promote greater transparency in 
political advertising online, we'll require more thorough documentation 
from advertisers who want to run election-related ads. For political 
advertisers that do not proactively disclose themselves, we are 
building machine learning tools that will help us find them and require 
them to verify their identity. Once they are found, we will take 
appropriate steps to enforce compliance with our policies.

    Question 15. Why are Facebook's verification and disclosure 
requirements for political advertisers only limited to Federal 
elections?
    Answer. We are implementing new verification and disclosure 
standards on Facebook that will bring greater transparency to political 
advertising on our platform in general and make it easier for us to 
enforce our policies. We expect these reforms to be in effect by the 
2018 U.S. Federal elections and will progress from there to additional 
contests and elections in other countries and jurisdictions.

    Question 16. The Washington Post reported that Facebook removed the 
data that Jonathan Albright, a researcher at Columbia University, used 
to study Russia-linked ads. In response, Facebook stated that this was 
done in order to correct a bug in its system, and that Facebook policy 
requires that inactive content is no longer available across its 
platforms. What is Facebook's data retention policy? Is it consistent 
across all of Facebook's properties? Does this policy apply to all 
parties--such as independent researchers, users, advertisers, and data 
brokers--in the same way?
    Answer. Facebook generally retains data for as long as it is 
commercially reasonable and necessary for our business. We have taken 
appropriate steps to retain relevant information related to IRA 
activity on Facebook.

    Question 17. Given the importance of collaborating with third-party 
or independent researchers to prevent further interference by Russia, 
will Facebook be updating its data retention policy?
    Answer. Our effort to make our platform safer and more secure is a 
holistic one that involves a continual evaluation of our personnel, 
processes, and policies, and we make changes as appropriate. We have 
taken appropriate steps to retain relevant information related to IRA 
activity on Facebook.

    Question 18. In terms of dollars and percentage of annual revenue, 
how much is Facebook now spending on preventing foreign interference 
with our elections? What was the figure in the election cycle leading 
up to November 2016? What is the projected spend leading up to November 
2018?
    Answer. We are determined to do everything we can to protect our 
platform. We are expanding our threat intelligence team, and more 
broadly, we are working now to more than double the number of people 
working on safety and security at Facebook, from 10,000 to 20,000, by 
the end of 2018. Many of the people we are adding to these efforts will 
join our ad review team, and we also expect to add at least 3,000 
people to Community Operations, which is the team that reviews content 
that our users and automated tools flag as inappropriate, dangerous, 
abusive, or otherwise violative of our policies. These investments will 
help us to enforce our policies, including our authenticity policy, and 
help us to counter threats from malicious actors, including those who 
are state-sponsored. We will also significantly expand the number of 
people who work specifically on election integrity before the 2018 U.S. 
Federal elections, including people who investigate information 
operations by foreign actors. The investments that we are making to 
address election integrity and other security issues will be so 
significant that we have informed investors that we expect that the 
amount that we will spend will impact our profitability.

    Question 19. Congress will judge success not by Facebook's efforts 
but by its results. How will Facebook measure success? Will Facebook be 
conducting an audit after November 2018? When will the results be 
shared?
    Answer. Success would consist of minimizing or eliminating abuse of 
our platform and keeping our community safe. We have a number of 
specific goals that we will use to measure our progress in these 
efforts.
    First, we will increase the number of people working on safety and 
security at Facebook, to 20,000 by the end of this year. We will 
significantly expand the number of people who work specifically on 
election integrity, including people who investigate this specific kind 
of abuse by foreign actors. Those specialists will find and remove more 
of these actors.
    Second, we will work to improve threat intelligence sharing across 
our industry, including, we hope, by having other companies join us in 
formalizing these efforts. This is a fight against sophisticated 
actors, and our entire industry needs to work together to respond 
quickly and effectively.
    Third, we will bring greater transparency to election ads on 
Facebook by requiring more disclosure from people who want to run 
election ads about who is paying for the ads and by making it possible 
to see all of the ads that an advertiser is running, regardless of the 
targeting. We believe that these efforts will help to educate our 
community and to arm users, media, civil society, and the government 
with information that will make it easier to identify more 
sophisticated abuse to us and to law enforcement.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                             Monika Bickert
    Question 1. According to press reports, my home state of Wisconsin 
was one of the states where voters were targeted by Russian groups with 
Facebook advertising and political content that employed a series of 
divisive messages on key issues like race relations and immigration. In 
your testimony, you state that Facebook ``continues to seek more 
effective ways to combat extremism, crime and other threats to our 
national security.''
    Do you believe that these foreign-directed activities intended to 
sew social discord and influence our elections are threats to our 
national security?
    I request that Facebook provide me a verbal and written briefing 
regarding the Russia-linked political ads and content targeting 
Wisconsin, to include: a list and description of the ads and content; 
the entities responsible for the ads and content; Facebook's assessment 
of the intent of such entities; how the ads and content were targeted 
geographically within the state, with regard to social or political 
issues, and with regard to audience subgroups; and the timing of the 
ads and content.
    What steps is Facebook taking to ensure that Russia or other 
foreign governments cannot repeat this effort? And that Facebook users 
understand the source of this type of advertising and content?
    Answer. The foreign interference we saw in the 2016 election is 
reprehensible and outrageous and opened a new battleground for our 
company, our industry, and our society. That foreign actors, hiding 
behind fake accounts, abused our platform and other Internet services 
to try to sow division and discord--and to try to undermine our 
election process--is an assault on democracy and our national security, 
and it violates all of our values. At Facebook, we build tools to help 
people connect, and to be a force for good in the world. What these 
actors did goes against everything Facebook stands for. Our goal is to 
bring people closer together; what we saw from these actors was an 
insidious attempt to drive people apart.
    We're determined to do our part to prevent it from happening again. 
One improvement that we believe will help to address more subtle kinds 
of abuse is that our ad review team will do more to assess not just the 
content, but also the overall context of an ad, including the buyer and 
intended audience. We will also significantly expand the number of 
people who work specifically on election integrity before the 2018 U.S. 
Federal elections, including people who investigate this specific kind 
of abuse by foreign actors. Additionally, we have begun testing a 
program where people will be able to click ``View Ads'' on a Page and 
view advertisements a Page is running on Facebook, Instagram, and 
Messenger--whether or not the person viewing it is in the intended 
target audience for the ad. All Pages will be part of this effort, and 
we will require that all ads be associated with a Page as part of the 
ad creation process. We are also taking steps to make political ads on 
Facebook more transparent, increase requirements for authenticity, and 
strengthen our enforcement of ads that violate our policies. And, we 
continue to make improvements to our efforts to more effectively detect 
and deactivate fake accounts to help reduce the spread of spam, false 
news, and misinformation. We continually update our technical systems 
to identify, checkpoint, and remove inauthentic accounts, and we block 
millions of attempts to register fake accounts every day. These systems 
examine thousands of detailed account attributes and prioritize signals 
that are more difficult for bad actors to disguise, such as their 
connections to others on our platform. As with all security threats, we 
have been incorporating new insights into our models for detecting fake 
accounts, including information specific to election issues.
    We are determined to do everything that we can to protect our 
platform. The investments that we are making to address these issues 
and other security issues will be so significant that we have informed 
investors that we expect that the amount that we will spend will impact 
our profitability. We will continue to work the government, and across 
the tech industry and civil society, to address this important national 
security matter so that we can do our part to prevent similar abuse 
from happening again. That's why we have provided all of the ads and 
associated information to the committees with longstanding, bipartisan 
investigations into Russian interference, and we defer to the 
committees to share as appropriate. We believe that Congress and law 
enforcement are best positioned to assess the nature and intent of 
these activities.

    Question 2. Ms. Bickert, the national security website Just 
Security recently published troubling evidence that raises doubts about 
Facebook's ability to prevent, monitor, and remove extremist content. 
According to the article, in a one month period spanning December 2017-
January 2018, a researcher named Eric Feinberg reported dozens of pro-
ISIS pages to Facebook. That means the material had gotten past your 
company's initial means for flagging and removing terrorist content. In 
56 percent of those cases, Facebook removed the offending page. But for 
the other 44 percent of reported pages, Facebook left the content up, 
noting that it didn't violate community standards. This is despite 
there being no appreciable difference between content that was removed 
and content that was retained. For example, pages that Facebook left up 
included: a photo of gunmen in an urban neighborhood with the caption, 
``We Will Attack you in Your Home;'' an online publication promoting 
ISIS among the Bangladeshi community; and a photo of Omar Mateen, 
praising his attack on Orlando's Pulse nightclub.
    Retaining this content contradicts Facebook's explicit policies, 
internal guidelines, and your testimony. Can you please explain this?
    Answer. We immediately remove terrorists' accounts and posts that 
support terrorism whenever we become aware of them. When we receive 
reports of potential terrorism posts, we review those reports urgently 
and with scrutiny. After receiving the article mentioned in the 
question, we reviewed the accounts and content identified in the 
article and disabled and removed all those that violated our policies. 
Managing a global community in this manner has never been done before, 
and we know we have a lot more work to do. We are committed to 
improving and to ensuring that hate has no place on Facebook.

    Question 3. In the context of extremist content, I would like to 
learn more about each company's policy for proactively reporting users 
to law enforcement. I understand your companies evaluate and respond to 
law enforcement requests for information, but what framework do you use 
to proactively report terrorist-related content to authorities, 
including any identifying information of the user? For example, if you 
use a standard of imminent harm, how do you define and apply it, 
particularly in a threat environment where terrorist organizations 
often call on recruits to attack carefully planned targets of 
opportunity, rather than to launch an immediate, indiscriminate attack?
    Answer. We have a long history of working successfully with the 
DOJ, the FBI, and other government agencies to address a wide variety 
of threats to our platform, including terrorist threats. We reach out 
to law enforcement whenever we see a credible threat of imminent harm. 
We have been able to provide support to authorities around the world 
that are responding to the threat of terrorism, including in cases 
where law enforcement has been able to disrupt attacks and prevent 
harm.
    We cooperate with governments in other ways, too. For example, as 
part of official investigations, government officials sometimes request 
data about people who use Facebook. We have strict processes in place 
to handle these government requests, and we disclose account records in 
accordance with our terms of service and applicable law. We also have 
law enforcement response teams available around the clock to respond to 
emergency requests. Further, governments and inter-governmental 
agencies also have a key role to play in convening and providing 
expertise that is impossible for companies to develop independently. We 
have learned much through briefings from agencies in different 
countries about ISIS and Al Qaeda propaganda mechanisms.

    Question 4. I would like to hear from the companies whether they 
support implementing Mr. Watts's recommendations to: first, fully 
certify the authenticity of all users--in other words, ensure that each 
user is a real person; and second, eliminate social bot networks to 
reduce automated broadcasting of disinformation.
    Answer. We have always believed that Facebook is a place for 
authentic dialogue, and that the best way to ensure authenticity is to 
require people to use the names they are known by. Fake accounts 
undermine this objective, and are closely related to the creation and 
spread of inauthentic communication such as spam and disinformation. We 
also prohibit the use of automated means to access our platform. We 
rely on both automated and manual review in our efforts to effectively 
detect and deactivate fake accounts, including bots, and we are now 
taking steps to strengthen both. For example, we continually update our 
technical systems to identify, checkpoint, and remove inauthentic 
accounts. We block millions of attempts to register fake accounts every 
day. These systems examine thousands of detailed account attributes and 
prioritize signals that are more difficult for bad actors to disguise.

    Question 5. What are the indicators that you use to identify a 
Russian disinformation account, whether from the Kremlin's so-called 
Internet Research Agency or an associated group of hackers or trolls, 
and what thresholds must be met to disable an account?
    Answer. We continually update our technical systems to identify, 
checkpoint, and remove inauthentic accounts, including accounts used 
for state-sponsored information operations. We block millions of 
attempts to register fake accounts every day. These systems examine 
thousands of detailed account attributes such as location information 
and connections to others on our platform.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Monika Bickert
    Question 1. During my time as the Attorney General for the State of 
Nevada, I saw too many instances of sex trafficking cases involving 
child victims that were dismissed because the conduct occurred online 
or through social media. So that's why I'm a strong supporter of the 
Stop Enabling Sex Traffickers Act of 2017 (SESTA), which clarifies the 
Communications Decency Act (CDA) to allow state Attorneys General to 
retain their jurisdiction to prosecute those who facilitate human 
trafficking. We know that trafficking is happening online and on social 
media, and SESTA is the only current legislative proposal that provides 
sufficient deterrence to traffickers by providing the necessary tools 
for successful prosecutions. As a former prosecutor, I know what it 
will take to successfully prosecute those who engage in sex trafficking 
through social media and other websites, and that's why I believe that 
the House version of SESTA doesn't go far enough to give prosecutors 
the tools they need to protect sex trafficking victims. I hope that 
your organizations all agree that victims of sex trafficking deserve 
meaningful protections and justice.
    If so, I'd like to hear whether you will continue to support SESTA 
over the weaker U.S. House version of the bill.
    Answer. Facebook supports SESTA. We look forward to continuing to 
work with Congress to pass this important legislation.
    Facebook is committed to making our platform a safe place, 
especially for individuals who may be vulnerable. We have a long 
history of working successfully with governments to address a wide 
variety of threats to our platform, including child exploitation. When 
we learn of a situation involving physical abuse, child exploitation, 
or an imminent threat of harm to a person, we immediately report the 
situation to first responders or the National Center for Missing and 
Exploited Children (NCMEC). Further, as part of official 
investigations, government officials sometimes request data about 
people who use Facebook. We have processes in place to handle these 
government requests, and we disclose account records in accordance with 
our terms of service and applicable law. We also have a global team 
that strives to respond within minutes to emergency requests from law 
enforcement.
    Our relationship with NCMEC also extends to an effort that we 
launched in 2015 to send AMBER Alerts to the Facebook community to help 
find missing children. When police determine that a case qualifies for 
an AMBER Alert, the alert is issued by the NCMEC and distributed 
through the Facebook system with any available information, including a 
photograph of the missing child, a license plate number, and the names 
and descriptions of the child and suspected abductor. Law enforcement 
determines the range of the target area for each alert. We know the 
chances of finding a missing child increase when more people are on the 
lookout, especially in the critical first hours. Our goal is to help 
get these alerts out quickly to the people who are in the best position 
to help, and a number of missing children have been found through AMBER 
Alerts on Facebook.
    Further, we work tirelessly to identify and report child 
exploitation images (CEI) to appropriate authorities. We identify CEI 
through a combination of automated and manual review. On the automated 
review side, we use image hashing to identify known CEI. On the manual 
review side, we provide in-depth training to content reviewers on how 
to identify possible CEI. Confirmed CEI is reported to the NCMEC, which 
then forwards this information to appropriate authorities. When we 
report content to the NCMEC, we preserve account information in 
accordance with applicable law, which can help further law enforcement 
investigations. We also reach out to law enforcement authorities in 
serious cases to ensure that our reports are received and acted upon.

    Question 2. I was glad to hear that the Internet Association 
supports SESTA, and I'd like to know what else your organization is 
doing to address concerns about sex trafficking occurring on your 
platforms and helping us pass this important legislation in the Senate.
    Answer. Please see the response to question 1.

    Question 3. I am glad that Facebook has acknowledged the practices 
of discrimination through employment or housing as problematic, by 
committing to roll out programs that screen for bad ads, and requiring 
advertisers to certify their compliance with antidiscrimination laws.
    Can you provide a brief update on the progress of those programs?
    Answer. We have Community Standards that prohibit hate speech, 
bullying, intimidation, and other kinds of harmful behavior. We hold 
advertisers to even stricter advertising policies to protect users from 
things like discriminatory ads. We don't want advertising to be used 
for hate or discrimination, and our policies reflect that. For example, 
we make it clear that advertisers may not discriminate against people 
based on personal attributes such as race, ethnicity, color, national 
origin, religion, age, sex, sexual orientation, gender identity, family 
status, disability, and medical or genetic condition. We educate 
advertisers on our anti-discrimination policy, and in some cases, we 
require advertisers to certify compliance with our anti-discrimination 
policy and anti-discrimination laws.
    We are committed to getting better at enforcing our advertising 
policies. We review many ads proactively using automated and manual 
tools, and reactively when people hide, block, or mark ads as 
offensive. We are taking aggressive steps to strengthen both our 
automated and our manual review. Reviewing ads means assessing not just 
the content of an ad, but the context in which it was bought--such as 
the identity of the advertiser and the landing page--and the intended 
audience. We are changing our ads review system to pay more attention 
to these signals. We are also expanding our global ads review teams and 
investing more in machine learning to better understand when to flag 
and take down ads, such as ads that offer employment or credit 
opportunity while including or excluding multicultural advertising 
segments. Enforcement is never perfect, but we will get better at 
finding and removing improper ads.

    Question 4. What metrics are in place that you can provide us to be 
confident in the facts and figures you provide to address this concern?
    In my view, permitting ad targeting on the basis of age, race, 
religion, or other protected characteristics, especially without a 
robust process to review ads for compliance with applicable 
antidiscrimination laws, is likely to facilitate unlawful 
discrimination.
    Answer. Please see the response to question 3.

    Question 5. So, if we are to believe that Facebook is serious about 
combatting discrimination other hateful content, why would it choose to 
facilitate discriminatory practices for advertisers using Facebook's 
services?
    Answer. Discriminatory advertising has no place on Facebook. Our 
advertising policies prohibit discrimination, and in some cases, we 
require advertisers to certify compliance with our anti-discrimination 
policy and anti-discrimination laws. We use automated and manual review 
to find and remove discriminatory ads, and we constantly seek to 
strengthen our ability to enforce our policies and prevent 
discrimination on Facebook.

    Question 6. Given that Facebook, like other tech giants, may not be 
meeting their own goals for workplace diversity, are you confident that 
your employment advertising program meets all of its obligations to 
avoid facilitating unlawful employment discrimination?
    Answer. As noted above, discriminatory advertising has no place on 
Facebook, and we are constantly trying to find ways to improve 
enforcement of our anti-discrimination policies. To assist us in these 
efforts, we have met with policymakers and civil rights leaders to 
listen to their concerns and to gather feedback about ways to improve 
our enforcement while preserving the beneficial uses of our advertising 
tools. We are grateful for the collaboration of many experts who have 
worked with us to develop solutions to combat discriminatory ads. We 
look forward to finding additional ways to combat discrimination, while 
increasing opportunity for underserved communities, and to continuing 
our dialogue with policymakers and civil rights leaders about these 
important issues.

    Question 7. How can you be sure that the program isn't replicating 
the same biases and blind spots that have impeded your own diversity 
efforts?
    Answer. Please see the response to question 6.

    Question 8. Over the past few months, our country has been 
reckoning with some hard truths about the way that women and minorities 
are treated in the workplace. And I think this is a moment for all 
types of organizations, including tech giants like the ones represented 
here, to take a clear-eyed accounting of their culture and practices, 
to take responsibility for what hasn't worked, and to renew their 
commitments to make meaningful improvements. The Equal Employment 
Opportunity Commission's 2016 report on ``Diversity in High Tech'' 
found that women, African Americans, and Hispanics are all represented 
at significantly lower levels in high tech than in private industry as 
a whole. And while recent internal studies at Facebook and Google have 
showed some progress in the hiring of women, there has not been equal 
improvement in the representation of people of color and other 
underrepresented groups.
    What technically qualifies as diversity to your organization?
    Answer. With a global community of over two billion people on 
Facebook, greater diversity and inclusivity are critical to achieving 
our mission. Studies have shown that cognitive diversity on teams that 
are working on hard problems produces better results. Diversity helps 
us build better products, make better decisions and better serve our 
community. In order to achieve that, we have developed programming to 
attract and retain more people from traditionally underrepresented 
groups which include women, people of color, veterans and people with 
disabilities.
    We are not where we would like to be, but we are encouraged that 
representation for people from underrepresented groups at Facebook has 
increased. We've grown Black and Hispanic representation by 1 percent 
each (2 percent combined) between our first report in 2014 and our most 
recent report in 2017:

  <bullet> Black Representation: from 2 percent to 3 percent

  <bullet> Hispanic Representation: from 4 percent to 5 percent

  <bullet> Black Non-Tech: from 2 percent to 6 percent

  <bullet> Hispanic Non-Tech: from 6 percent to 8 percent

  <bullet> Black Leadership: from 2 percent to 3 percent

  <bullet> Hispanic Leadership: from 4 percent to 3 percent

  <bullet> Black and Hispanic Tech have stayed at 1 percent and 3 
        percent

    As of August 2017, the number of women globally increased from 33 
percent to 35 percent and the number of women in tech increased from 17 
percent to 19 percent. Women made up 27 percent of all new graduate 
hires in engineering and 21 percent of all new technical hires at 
Facebook.
    We seek to promote diversity in a variety of ways, and we want to 
highlight three programs in particular. First, we have adopted our 
Diverse Slate Approach (DSA) to interviewing job candidates. The more 
people that hirers interview who don't look or think like them, the 
more likely they are to hire someone from a diverse background. To 
hardwire this behavior at Facebook, we introduced our DSA in 2015 and 
have since rolled it out globally. DSA sets the expectation that hiring 
managers will consider candidates from underrepresented backgrounds 
when interviewing for an open position.
    Second, we are working to reduce unconscious bias. Our publicly 
available Managing Unconscious Bias class encourages our people to 
challenge and correct bias as soon as they see it--in others, and in 
themselves. We've also doubled down by adding two new internal 
programs: Managing Inclusion, which trains managers to understand the 
issues that affect marginalized communities, and Be The Ally, which 
gives everyone the common language, tools, and space to practice 
supporting others.
    Third, we have created Facebook University. We want to increase 
access and opportunity for students with an interest in software 
engineering, business, and analytics. Facebook University (FBU) gives 
underrepresented students extra training and mentorship earlier in 
their college education. We started FBU in 2013 with 30 students and 
expect to have 280 in 2018. More than 500 students have graduated from 
this program, with many returning to Facebook for internships and full-
time jobs.
    Finally, we have many partnerships to move the numbers nationally 
such as Black Girls Code, All Star Code, Hack the Hood, The Hidden 
Genius Project, Level Playing Field Institute, Yes We Code, Streetcode 
Academy, Dev Color, Dev Bootcamp and Techbridge. And, we now recruit at 
300 Universities--including historically black colleges and 
universities (HBCUs) like Spelman, Morehouse, Howard, NCA&T, and Morgan 
State (EIR) and the HBCU Faculty Summit.
    We're committed to building a more diverse, inclusive Facebook. 
Much like our approach to launching new products on our platform, we 
are willing to experiment and listen to feedback.

    Question 9. How is your company working to address issues of 
discrimination in your own workforces?
    Answer. Please see the response to question 8.

    Question 10. Do you believe those efforts are sufficient?
    Answer. Please see the response to question 8.

    Question 11. We know that so-called talent pipelines are not the 
only obstacle to achieving a diverse workforce, and that discrimination 
and harassment go hand in hand, distorting the operation of workplace 
meritocracies. This is a moment when many victims of sexual assault and 
harassment are bravely coming forward about their experiences, allowing 
us to get a better sense of the true scope and effects of this 
behavior. Persistent harassment, and the workplace culture that 
tolerates, ignores, or even encourages such harassment, pushes people 
out of their workplaces, stalls or derails promising careers, and 
discourages some from pursuing certain opportunities altogether.
    What is your company doing to evaluate the impact of harassment in 
your workforces?
    Answer. Harassment, discrimination, and retaliation in the 
workplace are unacceptable but have been tolerated for far too long.
    At Facebook, we treat any allegations of such behavior with great 
seriousness, and we have invested significant time and resources into 
developing our policies and processes. We have made our policies and 
processes available publicly--not because we think we have all the 
answers, but because we believe that the more companies are open about 
their policies, the more we can all learn from one another. These are 
complicated issues, and while we don't believe any company's 
enforcement or policies are perfect, we think that sharing best 
practices can help us all improve, especially smaller companies that 
may not have the resources to develop their own policies. Every company 
should aspire to doing the hard and continual work necessary to build a 
safe and respectful workplace, and we should all join together to make 
this happen.
    Our internal policies on sexual harassment and bullying are 
available on our Facebook People Practices website 
(peoplepractices.fb.com), along with details of our investigation 
process and tips and resources we have found helpful in preparing our 
Respectful Workplace internal trainings. Our philosophy on harassment, 
discrimination, and bullying is to go above and beyond what is required 
by law. Our policies prohibit intimidating, offensive, and sexual 
conduct even when that conduct might not meet the legal standard of 
harassment. Even if it's legally acceptable, it's not the kind of 
behavior we want in our workplace.
    In developing our policies, we were guided by six basic principles:
    First, develop training that sets the standard for respectful 
behavior at work, so people understand what's expected of them right 
from the start. In addition to prescribing mandatory harassment 
training, we wrote our own unconscious bias training program at 
Facebook, which is also available publicly on our People Practices 
website
    Second, treat all claims--and the people who voice them--with 
seriousness, urgency, and respect. At Facebook, we make sure to have HR 
business partners available to support everyone on the team, not just 
senior leaders.
    Third, create an investigation process that protects employees from 
stigma or retaliation. Facebook has an investigations team made up of 
experienced HR professionals and lawyers trained to handle sensitive 
cases of sexual harassment and assault.
    Fourth, follow a process that is consistently applied in every case 
and is viewed by employees as providing fair procedures for both 
victims and those accused.
    Fifth, take swift and decisive action when it is determined that 
wrongdoing has occurred. We have a zero-tolerance policy, and that 
means that when we are able to determine that harassment has occurred, 
those responsible are fired. Unfortunately, in some cases 
investigations are inconclusive and come down to one person's word 
against another's. When we don't feel we can make a termination 
decision, we take other actions designed to help everyone feel safe, 
including changing people's roles and reporting lines.
    Sixth, make it clear that all employees are responsible for keeping 
the workplace safe--and anyone who is silent or looks the other way is 
complicit.
    There's no question that it is complicated and challenging to get 
this right. We are by no means perfect, and there will always be bad 
actors. Unlike law enforcement agencies, companies don't have access to 
forensic evidence and instead have to rely on reported conversations, 
written evidence, and the best judgment of investigators and legal 
experts. What we can do is be as transparent as possible, share best 
practices, and learn from one another--recognizing that policies will 
evolve as we gain experience. We don't have everything worked out at 
Facebook on these issues, but we will never stop striving to make sure 
we have a safe and respectful working environment for all our people.

    Question 12. How are you working to create a culture where 
harassment is no longer tolerated?
    Answer. Please see the response to question 11.

    Question 13. What more could you be doing to be a positive example 
for other companies and industries?
    Answer. Please see the response to question 11.

    Question 14. Last October, Facebook announced that it would be 
improving transparency for all ads run on its platform, including by 
requiring political advertisers to include a disclaimer telling viewers 
who paid for an ad, and allowing viewers to see all the ads a page is 
running, even those that aren't targeting them. Twitter also announced 
similar measures. Although these policies were announced in response to 
Russia using social media to interfere in our elections, it seems these 
transparency measures could help shine a spotlight on other forms of 
influence campaigns by extremists or terrorists.
    Can you provide an update on the status of these measures?
    Answer. We recently announced steps to make advertising on Facebook 
more transparent, increase requirements for authenticity, and 
strengthen our enforcement against ads that violate our policies. We'll 
require more thorough documentation from advertisers who want to run 
election-related ads. We are starting with the 2018 Federal elections 
in the United States, and will progress from there to additional 
contests and elections in other countries and jurisdictions. As part of 
the documentation process, advertisers may be required to identify that 
they are running election-related advertising and verify both their 
entity and location. Once verified, these advertisers will have to 
include a disclosure in their election-related ads, which reads: ``Paid 
for by.'' When users click on the disclosure, they will be able to see 
details about the advertiser, and we will maintain a searchable archive 
of information. Like other ads on Facebook, they will also be able to 
see an explanation of why they saw that particular ad. For political 
advertisers that do not proactively disclose themselves, we are 
building machine learning tools that will help us find them and require 
them to verify their identity.
    Further, for all ads on Facebook--not just political ads--we have 
begun testing a program where people will be able to click ``View Ads'' 
on a Page and view advertisements a Page is running on Facebook, 
Instagram, and Messenger--whether or not the person viewing it is in 
the intended target audience for the ad. All Pages will be part of this 
effort, and we will require that all ads be associated with a Page as 
part of the ad creation process. We will roll this feature out to the 
United States by this summer, ahead of the U.S. midterm elections in 
November, as well as broadly to all other countries around the same 
time.

    Question 15. When can we expect to see them fully implemented?
    Answer. Please see the response to question 14.

    Question 16. How are you defining what constitutes a political ad 
subject to these heightened transparency requirements?
    Answer. Our commitment to ad transparency is not limited to 
political ads. While our most recent announcements have focused on 
election-related ads--although not necessarily only ads that mention 
candidates by name--we are bringing greater transparency to all ads by 
making sure that people can see all of the ads run by any Page, 
regardless of whether those ads are targeted to them.

    Question 17. On January 29, the Director of the Central 
Intelligence Agency said he expects the Russian government to attempt 
to influence the 2018 elections in this country.
    What efforts is Facebook undertaking in the lead up to the 2018 
elections to identify and close the platform's remaining 
vulnerabilities to foreign exploitation?
    Answer. The foreign interference we saw in the 2016 election is 
reprehensible and outrageous and opened a new battleground for our 
company, our industry, and our society. We're determined to do our part 
to prevent it from happening again. We are more than doubling the 
number of people who work on safety and security at Facebook and have 
already hired thousands more content reviewers. They will be engaged in 
processes that we are continuously refining, but this significant 
investment of resources will help us to perform those processes more 
accurately, quickly, and thoroughly. One improvement that we believe 
will help to address more subtle kinds of abuse is that our ad review 
team will do more to assess not just the content, but also the overall 
context of an ad, including the buyer and intended audience. We will 
also significantly expand the number of people who work specifically on 
election integrity before the 2018 U.S. Federal elections, including 
people who investigate this specific kind of abuse by foreign actors.
    Additionally, we have begun testing a program where people will be 
able to click ``View Ads'' on a Page and view advertisements a Page is 
running on Facebook, Instagram, and Messenger--whether or not the 
person viewing it is in the intended target audience for the ad. All 
Pages will be part of this effort, and we will require that all ads be 
associated with a Page as part of the ad creation process. We are also 
taking steps to make political ads on Facebook more transparent, 
increase requirements for authenticity, and strengthen our enforcement 
of ads that violate our policies. And, we continue to make improvements 
to our efforts to more effectively detect and deactivate fake accounts 
to help reduce the spread of spam, false news, and misinformation. We 
continually update our technical systems to identify, checkpoint, and 
remove inauthentic accounts, and we block millions of attempts to 
register fake accounts every day. These systems examine thousands of 
detailed account attributes and prioritize signals that are more 
difficult for bad actors to disguise. As with all security threats, we 
have been incorporating new insights into our models for detecting fake 
accounts, including information specific to election issues.
    We are determined to do everything that we can to protect our 
platform. The investments that we are making to address these issues 
and other security issues will be so significant that we have informed 
investors that we expect that the amount that we will spend will impact 
our profitability.

    Question 18. What assistance can Federal, state and local 
government entities provide in that effort?
    Answer. We have a long history of working successfully with the 
DOJ, the FBI, and other law enforcement to address a wide variety of 
threats to our platform, including threats emanating from Russia. We 
deeply respect and value the seriousness, diligence, and support of 
those organizations, and we would welcome their partnership as we work 
to address this specific threat. We are particularly encouraged by the 
FBI's creation of a task force dedicated to addressing election 
interference and we are actively working with that newly-formed body. 
This is a new kind of threat, and we believe that we will need to work 
together--across industry and between industry and government--to be 
successful.

    Question 19. In November 2016, National Public Radio reported that 
Facebook had a few hundred subcontractors across several countries 
responsible for reviewing malicious content. That amounted to 
contractors reviewing one tag that's been flagged approximately every 
10 seconds. In your testimony you said you now have 7,500 employees 
reviewing ``terror content and other potential violations.'' You also 
said you have 180 people focused specifically on countering terrorism.
    Can you please describe the content categories you have employees 
reviewing, how each is defined and how material is categorized?
    Answer. Our teams review a variety of content for compliance with 
our policies. For example, our Business Integrity team focuses on 
reviewing and removing ads that do not comply with our advertising 
policies, which prohibit discriminatory practices, ads for certain 
types of products, misleading or false content, and other activity and 
content (see facebook.com/policies/ads). Our Community Operations team 
reviews content that our users and automated tools flag as 
inappropriate, dangerous, abusive, or otherwise violating our Community 
Standards. Our Community Standards prohibit things like serious threats 
of harm to public and personal safety, organizations engaged in 
terrorist or other violent activity, hate speech, bullying and 
harassment, criminal activity, sexual exploitation, the sale of certain 
regulated goods, fraud and spam, and other content and activity (see 
facebook.com/commu
nitystandards).

    Question 20. Please provide the average number of posts or content 
flagged per day, the number of employees devoted to each category, and 
the amount of time each employee has to review the content. If this is 
not a fair metric of employee time allocation to content review, please 
provide the metrics requested, as well as an explanation of the content 
review systems that allow employees to review a vast amount of content 
quickly.
    Answer. All content goes through some degree of automated review, 
and we use human reviewers to check some content that has been flagged 
by that automated review or reported by people that use Facebook. Our 
content reviewers respond quickly to millions of reports each week from 
people all over the world. We also use human reviewers to perform 
reviews of content that was not flagged or reported to check the 
accuracy and efficiency of our automated review systems. The amount of 
content a reviewer views per day may vary based on the type of content 
reviewed and the reason for review.

    Question 21. What differentiates employees reviewing ``terror 
[content] and other potential violations'' from employees focused on 
``countering terrorism''? What is the role of each?
    Answer. Our Community Standards prohibit, among other things, 
individuals and organizations that are engaged in terrorist activity 
and also prohibit content that expresses support for terrorism. Our 
content review teams include more than 7,500 people around the world 
who work 24 hours a day and in more than 40 of languages to review 
reports of terrorist content and other content that may violate our 
Community Standards. Separately, we have more than 180 highly trained 
people who are exclusively or primarily focused on preventing terrorist 
content from ever appearing on our platform and quickly and identifying 
and removing it if it does. This group includes former academics who 
are experts on counterterrorism, former prosecutors and law enforcement 
agents, investigators and analysts, and engineers. Among other things, 
this team helps to build tools and leverages counterterrorism research 
to detect terrorist activity and prevent the spread of propaganda.

    Question 22. Have you found that having 180 employees focused on 
countering terrorism is sufficient for the vast amount of content 
posted daily on Facebook?
    Answer. While 180 employees focus on countering terrorism as the 
core part of their job at Facebook, many others in the company share 
this responsibility as part of their job. This includes the 7,500 
content reviewers who remove from our site content that violates our 
policies, including terrorism policies. We work continuously to make 
our platform safer and more secure, and our effort to do so is a 
holistic one that involves not only hiring additional employees when 
issues arise, but also a continual evaluation of our processes and 
policies. In addition to our counterterrorism specialists, thousands of 
reviewers review content that our users and automated tools flag is 
inappropriate, dangerous, abusive, or otherwise violating our Community 
Standards--including those prohibiting terrorism. More broadly, we are 
working now to ensure that we will more than double the number of 
people working on safety and security at Facebook, from 10,000 to 
20,000, by the end of 2018.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                             Juniper Downs
    Question 1. Your testimony covered the ``counter-narratives'' that 
YouTube is currently utilizing to speak out against terrorism. Last 
week, I had the pleasure of hearing about the important work that is 
being done in this effort within Jigsaw's project called ``Redirect 
Method.''
    Answer. Yes, these strategies have been researched and developed 
over many years, and we appreciated your acknowledgement of that work 
in the hearing.

    Question 2. Could you please describe how this project targets the 
most susceptible audience to ``redirect'' them to videos debunking 
recruitment materials?
    Answer. The Redirect Method uses Adwords targeting tools and third 
party curated YouTube videos to confront online radicalization. As you 
mentioned, the targeting efforts focus on the slice of ISIS' audience 
that is most susceptible to its messaging, and redirects them toward 
third party created YouTube videos debunking ISIS recruiting themes. 
This open methodology was developed in part from interviews with ISIS 
defectors. Jigsaw initially tested the Redirect Method in an ISIS-
focused campaign in Arabic and English. Over the course of 8 weeks, 
320,000 individuals watched over half a million minutes of the 116 
videos we selected to refute ISIS's recruiting themes. The Redirect 
Method has recently been deployed in the UK and France. The Redirect 
Method is open for any institution to use in their work.

    Question 3. Does ``Redirect Method'' or YouTube create the videos 
that program redirects the audience to? If not, why is that the case?
    Answer. Many previous efforts to push back on extremist propaganda 
have focused on creating new content--writing, videos, etc.--to dispel 
extremist narratives. Through our research, we found that content that 
had been created for the sole purpose of dispelling extremist 
narratives didn't tend to resonate as well as much of the organic 
content that was already available online. For this reason, The 
Redirect Method focuses on curation of pre-existing content to push 
back against extremist propaganda while more effectively reaching the 
target audience. We work with local scholars and experts to curate the 
videos in Redirect playlists. In France, our interdisciplinary research 
team of scholars is based at the Castex Chair of Geostrategy. In the 
UK, the Institute for Strategic Dialogue (ISD) and Moonshot CVE 
participate in our curation and research efforts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                             Juniper Downs
    Question 1. Social media companies are increasingly able to remove 
terrorist recruitment, incitement, and training materials before it 
posts to their platforms by relying on improved automated systems. 
Other than content removal, what else can be done to limit the audience 
or distribution of these dangerous materials?
    Answer. YouTube's Community Guidelines set the rules of the road 
for content that we allow on the platform. Our policies include 
prohibitions on hate speech, gratuitous violence, incitement to 
violence, terrorist recruitment videos, and violent propaganda. We also 
have robust advertiser-friendly guidelines and demonetize videos that 
don't comply with those policies, and can age-restrict or place a 
warning interstitial in front of content that may be shocking.
    If our review teams determine that a video does not contain a 
direct call to violence or incitement to hate but could be inflammatory 
we may disable some features. Identified borderline content will remain 
on YouTube behind a warning interstitial, won't be recommended, won't 
be monetized, and won't have key features including comments, suggested 
videos, and likes. This new treatment has been positive, with 
substantial reduction in watch time of those videos.
    We disable access to our services for users who repeatedly violate 
our policies--and, for egregious violations, for the first offense. We 
also terminate the Google accounts of entities on the U.S. State 
Department's Foreign Terrorist Organization (FTO) list, regardless of 
the content they are posting.
    In addition to ensuring our policies are effectively enforced, we 
invest heavily in counterspeech. We see lots of examples of 
counterspeech working, such as creators stepping up to refute content 
related to violent extremism. In many cases, these creators are driving 
even more engagement than the original objectionable content. Exposing 
susceptible individuals to counterspeech content is universally viewed 
as a critical component of counterterrorism and other counter 
radicalization strategies. To that end, we've held over 20 
counterspeech workshops around the world, pairing anti-radicalization 
NGOs with YouTube creators who know how to best engage with and relate 
to their audiences. In 2016, we launched YouTube #CreatorsforChange, a 
global counterspeech initiative aimed at amplifying and multiplying the 
voices of role models who are tackling difficult social issues such as 
xenophobia, hate speech, and extremism.

    Question 2. Terrorist how-to guides are protected by the First 
Amendment in the United States, but violate the content policies of 
many social media companies as well as the laws of some international 
partner nations. What countries have laws that go beyond your company's 
content policies and can you give examples of how you have worked with 
those countries to de-conflict those differences?
    Answer. Although we are a U.S.-based company, we respect the law in 
countries where we operate. Sometimes those laws restrict speech more 
than our Community Guidelines require. Holocaust denial, for example, 
while protected by the First Amendment in the United States, is against 
the law in many European countries. In countries where we conclude the 
law so requires, we would remove such content from our results.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Juniper Downs
    Question 1. We have strong principles of freedom of speech, but at 
the same time, we need to balance that freedom with the need to protect 
against bad actors who would leverage that freedom to plan and promote 
illegal acts. How can we use artificial intelligence to help us achieve 
a balance between our American ideal of free speech and the need to 
protect against extremist acts of terror?
    Answer. YouTube has always used a mix of humans and technology to 
enforce our policies efficiently and at scale. Humans are a critical 
component in the enforcement process as very often understanding nuance 
and context is necessary to determine if content is in violation of the 
company's policies. That said, as the technology improves in its 
precision, YouTube leverages these advancements to enhance the 
enforcement operations.
    For example, YouTube has invested heavily in cutting-edge 
artificial intelligence and machine learning technology designed to 
help us identify and remove violent extremist and terrorism-related 
content in a scalable way. Last year, we began deploying these 
classifiers that detect potential terrorist material and flag it for 
review by people trained to enforce our policies. These efforts have 
resulted in some positive progress:

        Speed and efficiency: Our machine learning systems are faster 
        and more effective than ever before. Last June, only 40 percent 
        of the videos we removed for violent extremism were identified 
        by our algorithms. Today, that number is 98 percent. Our 
        advances in machine learning let us now take down nearly 70 
        percent of violent extremism content within 8 hours of upload 
        and nearly half of it in 2 hours.

        Accuracy: The efficiency of our systems has improved 
        dramatically due to our machine learning technology. While 
        these tools aren't perfect, and aren't right for every setting, 
        in many cases our systems have proven more accurate than humans 
        at flagging videos that need to be removed.

        Scale: With over 400 hours of content uploaded to YouTube every 
        minute, finding and taking action on violent extremist content 
        poses a significant challenge. But since June, our teams have 
        manually reviewed approximately two million videos to improve 
        our machine-learning flagging technology by providing large 
        volumes of training examples. Noteworthy, every subsequent 
        decision on content that has been flagged by this technology 
        serves as an additional input that continues to train and 
        improve the system. We are encouraged by these improvements, 
        and will continue to develop our technology in order to make 
        even more progress. We are also hiring more people to help 
        review and enforce our policies--reaching 10,000 people across 
        Google working to address content that might violate our 
        policies by the end of this year--and will continue to invest 
        in technical resources to keep pace with these issues and 
        address them responsibly. Our commitment to combat these issues 
        is sustained and unwavering.

    Question 2. Outside of artificial intelligence, what other 
technologies could be used to combat potential radicalization on social 
media platforms? What does the implementation of those technologies 
look like?
    Answer. No single component can solve the problem of extremist 
content in isolation. In addition to our work on artificial 
intelligence and machine learning, YouTube uses a mix of technology and 
humans to remove violative content quickly. Users can alert us to 
content that they think may violate our policies through a flag found 
below every YouTube video. We also have teams charged with reviewing 
flagged content 24/7 in multiple languages and countries around the 
world. We also work closely with members of our Trusted Flagger 
program, which is comprised of NGOs and government agencies with 
specific expertise who are provided a bulk-flagging tool to alert us to 
content that may violate our policies. Given the higher likelihood that 
flags from these organizations are actionable, flags from Trusted 
Flaggers are prioritized for review.
    We disable access to our services for users who repeatedly violate 
our policies--and, for egregious violations, for the first offense. We 
also terminate the Google accounts of entities on the U.S. State 
Department's Foreign Terrorist Organization (FTO) list, regardless of 
the content they are posting.
    We also invest heavily in and promote counterspeech to present 
counternarratives and elevate voices that counter-extremism. For 
example, our Creators for Change program supports creators who are 
tackling difficult social issues, including extremism and hate, by 
building empathy among their influential audiences and acting as 
positive role models online. Similarly, Google's Jigsaw group, an 
incubator to tackle some of the toughest global security challenges, 
has deployed the Redirect Method. This Method uses Adwords targeting 
tools and third party curated YouTube videos uploaded to disrupt online 
radicalization.

    Question 3. It seems like every week there is a new and more 
dangerous security breach. It was recently announced that YouTube would 
only be employing people, rather than relying on the newest 
technologies, like artificial intelligence, to combat terror-related 
content. Do you feel like this decision has the potential to open your 
companies content up to bad actors who do utilize next level 
technologies?
    Answer. Technology will continue to be a part of the how YouTube 
enforces our policies and protects our services against bad actors. 
From our use of machine learning classifiers to detect violative 
content, to video-matching techniques that prevent known bad content 
from surfacing on the platform, to tools such as the Redirect Method, 
we will continue enhancing our systems to combat the evolving nature of 
the threat. We also understand the importance of using methods other 
than technology to combat terror-related content. We expanded our 
Trusted Flagger Program to an additional 50 NGOs in 2017, including to 
groups like Anti-Defamation League and several counter-terrorism 
experts such as the Institute of Strategic Dialogue and International 
Centre for the Study of Radicalization. Working with these 
organizations helps us to better identify emerging trends and 
understand how these issues manifest and evolve. In 2018, we will have 
10,000 people across Google working to address content that might 
violate our policies. This includes engineers and reviewers who work 
around the world, 24/7, and speak many different languages.
    We also collaborate across the industry. In 2016, we created a 
hash-sharing database with Facebook, Twitter and Microsoft, where we 
share hashes (or ``digital fingerprints'') of terrorist content to stop 
its spread across platforms. Late last year we added Ask.fm, 
Cloudinary, Instagram, Justpaste.it, LinkedIn, Oath, and Snap to the 
consortium. Industry collaboration is necessary and effective given 
counter-terrorism research that shows that many terrorist organizations 
engage in cross-platform abuse, and they especially migrate towards 
smaller and less-resourced platforms.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Juniper Downs
    Question 1. On October 30, 2017, nineteen civil rights groups, 
including Muslim Advocates, Leadership Conference on Civil and Human 
Rights, NAACP, Southern Poverty Law Center, and many others, co-signed 
a letter to Facebook to express concern about the hateful content on 
the social media platform used to divide the country, and in 
particular, to promote anti-Muslim, anti-Black, anti-immigrant, and 
anti-LGBTQ animus.
    Ms. Downs, how would YouTube respond to this letter if it had 
received it?
    Answer. At YouTube, we believe everyone deserves to have a voice, 
and that the world is a better place when we listen, share, and build 
community through our stories. Our values are based on four essential 
freedoms that define who we are:

  <bullet> Freedom of Expression: We believe people should be able to 
        speak freely, share opinions, foster open dialogue, and that 
        creative freedom leads to new voices, formats and 
        possibilities.

  <bullet> Freedom of Information: We believe everyone should have 
        easy, open access to information and that video is a powerful 
        force for education, building understanding, and documenting 
        world events, big and small.

  <bullet> Freedom of Opportunity: We believe everyone should have a 
        chance to be discovered, build a business and succeed..

  <bullet> Freedom to Belong: We believe everyone should be able to 
        find communities of support, break down barriers, transcend 
        borders and come together around shared interests and passions.

    Using YouTube to promote violence, incite hate, or celebrate 
violent extremism is not only strictly and specifically prohibited by 
our terms of service, but is antithetical to our mission. To this end, 
we believe that hate, extremism and violence are not confined to any 
one community. We apply these policies to violent extremism of all 
kinds, whether inciting violence on the basis of race or religion or as 
part of an organized terrorist group.
    We have worked to enhance not only our technology, but also to 
expand and deepen our expertise and resources on these issues. In 2017, 
we grew our Trusted Flagger Program by an additional 50 NGOs, experts 
on various types of hate and extremism.
    Removing content that violates our guidelines or the law is an 
important part of the solution, but it's equally critical that we 
foster a better ecosystem for positive content and narratives against 
hate, extremism, and xenophobia. We are heavily invested in promoting 
counterspeech on our platform. We have hosted dozens of workshops 
around the world that teach the core skills needed to produce effective 
counterspeech. We also launched our flagship counterspeech program, 
Creators for Change, that is dedicated to amplifying and multiplying 
the voices of content creators who are tackling important social issues 
with their channels. YouTube just announced an additional $5M 
investment into this program.
    As a company, we are dedicated to being a part of the solution and 
we will continue to invest in strategies that prevent the spread of 
hatred in all its forms.

    Question 2. It's now well known how Russian agents used social 
media platforms to meddle in our elections--sow division and spread 
disinformation in the United States.
    Ms. Downs, I understand that on YouTube, you do not necessarily 
need to be logged in to view content. However, many users--if not 
most--are logged in when they are viewing content nonetheless. Will you 
commit to proactively informing all of those identifiable users if they 
were victims of Russia's disinformation campaign--as Twitter and 
Facebook have already started to do? If you cannot, what percent of 
views on YouTube are anonymous?
    Answer. We appreciate your work to promote transparency of these 
issues. The approximately 1,100 videos we identified as part of our 
investigation were removed when we disabled the accounts of these 
users. We have posted notice on the pages where those videos previously 
appeared, explaining they were removed due to violation of our 
Company's Terms of Service.

    Question 3. Ms. Bickert, Mr. Monje, and Ms. Downs, please provide 
copies (including images, text, dates and timestamps) of all content 
identified by your platforms as generated by Russian agents or the 
Internet Research Agency.
    Answer. We have conducted an extensive review of this issue and we 
provided both electronic and hardcopy versions of the ads associated 
with accounts we identified as connected to this effort to the 
Judiciary Committee. We identified limited activity on our platforms, 
but did identify two Ads accounts with approximately $4,700 of spend. 
In order to validate our findings, we broadly reviewed all political 
ads from June 2015 until the election last November that had even the 
loosest connection to Russia, which substantiated that we had 
identified the ads connected to this effort.
    Our investigation is ongoing, we continue to request and receive 
leads from peers in our industry, and will be happy to continue 
cooperating with Congressional investigations on this topic.

    Question 4. At least one of your peers in the tech industry has 
voluntarily initiated an outside assessment of the civil rights impacts 
of its policies and programs. In response to concerns regarding 
discrimination on the home-sharing platform, AirBNB hired former U.S. 
attorney general Eric Holder to help craft an anti-discrimination 
policy and has promised to pursue technological innovations to guard 
against future discriminatory events.
    Mr. Monje, Ms. Bickert, and Ms. Downs, can you each commit to 
bringing in an independent entity to conduct a thorough and public 
audit of the civil rights impact of your policies and programs, 
including how your platform has been used by hate groups to stoke 
religious resentment and violence?
    Answer. We understand that Airbnb hired outside lawyers to conduct 
a comprehensive review after Harvard University researchers published a 
working paper that found that users with perceived to be African-
American were more likely to be rejected by Airbnb hosts relative to 
guests perceived to be white. We applaud the seriousness that Airbnb 
took in addressing this issue and the alleged violations of civil 
rights and housing laws on its platform, including hiring Mr. Holder to 
draft an anti-discrimination policy.
    We are committed to preventing the use of our products for unlawful 
activities, including the violation of civil rights laws. As a platform 
that hosts content, we deal with difficult questions around many 
issues, including hate speech, harassment, violence. But over the 
years, and often in consultation with outside organizations, lawyers, 
and experts, we have implemented and updated comprehensive policies to 
deal with these issues of unwanted content on our platforms. We have 
banned hate speech on YouTube and our other hosted platforms, and do 
not allow these platforms to be used for harassment or cyberbullying. 
And we recently announced a new YouTube policy that puts controversial 
and inflammatory videos behind an interstitial warning, where they will 
not be monetized, recommended or eligible for comments or user 
endorsements. These videos will have less engagement and be harder to 
find. We think this strikes the right balance between access to 
information without promoting extremely offensive viewpoints.
    We have and will continue to engage with outside groups, lawyers, 
academics, non-governmental organizations and others to address and 
improve the content on our platforms.

    Question 5. A little over a year ago, Facebook, Twitter, Google, 
and Microsoft announced a plan to create a joint industry database of 
``content that promotes terrorism.'' Mr. Monje, Ms. Bickert, and Ms. 
Downs, to what extent does this joint industry database focus on all 
forms of terror, including the real terror threat presented by white 
supremacists?
    Answer. In December 2016, Facebook, Microsoft, Twitter and YouTube 
announced a coalition to launch a shared database of hashes of 
terrorist videos and images to prevent the spread of terrorist content 
between services. We expanded this partnership in July 2017, with the 
launch of the Global Internet Forum to Counter Terrorism (GIFCT). 
GIFCT's first meeting was held in August 2017, where representatives 
from the tech industry, government and non-governmental organizations 
came together to focus on three key areas: technological approaches, 
knowledge sharing, and research.
    The GIFCT is committed to working on technological solutions to 
help thwart terrorists' use of our services, and has built on the 
groundwork laid by the EU Internet Forum, particularly through a shared 
industry hash database, where companies can create ``digital 
fingerprints'' for terrorist content and share it with participating 
companies. The database now contains more than 50,000 hashes. It allows 
member companies to use those hashes to identify and remove matching 
content--videos and images--that violate our respective policies or, in 
some cases, block terrorist content before it is even posted.
    Each platform must make difficult decisions about how to balance 
issues surrounding free speech. YouTube has been working for years to 
combat extremist and hateful content on our platforms, and has long had 
policies that prohibit terrorist content, including terrorist 
recruitment, violent extremism, incitement to violence, and 
instructional content that could be used to facilitate substantial 
bodily injury or death.
    On YouTube, we apply these policies to violent extremism of all 
kinds, whether inciting violence on the basis of race or religion or as 
part of an organized terrorist group.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Juniper Downs
    Question 1. Please share a detailed update of YouTube's 
investigation into Russia's interference of the 2016 election via 
YouTube. Please include any other relevant investigations as they 
relate to other U.S. Federal or state elections.
    Answer. We conducted an extensive review of this issue, which 
spanned across nearly twenty of our products, including YouTube.
    As a result of this investigation, we found 18 YouTube channels 
likely associated with this campaign that made videos publicly 
available, in English, and with content that appeared to be political. 
There were 1,108 such videos uploaded, representing 43 hours of content 
and totaling 309,000 U.S. views from June 2015 to November 2016. These 
videos generally had very low view counts; only around 3 percent had 
more than 5,000 views. Upon confirmation with our internal systems 
validating the identity of these accounts, we suspended these YouTube 
channels at an account level.

    Question 2. Google announced last year that it will identify the 
names of advertisers running election-related campaigns on Search, 
YouTube, and the Google Display Network within Election Ads. When will 
this be implemented? How will the ad onboarding process change for 
political advertisers on YouTube? How will political ads look to 
YouTube's users? Please provide mock-ups for both the onboarding 
process and users' view of the ad.
    Answer. We've announced several measures to enhance transparency 
within election advertising, which we'll roll out prior to the November 
midterm elections:

  <bullet> Transparency Report. We'll release a transparency report for 
        election ads, where we'll share data about who is buying 
        election-related ads on our platforms and how much money is 
        being spent.

  <bullet> Creative Library. We'll also introduce a publicly accessible 
        library of election ads purchased on AdWords and YouTube (with 
        information about who bought each ad).

  <bullet> In-ad disclosures. We'll identify the names of advertisers 
        running election-related campaigns on our platforms, including 
        YouTube.

  <bullet> Verification program. We'll reinforce our existing 
        protections by requiring that advertisers proactively identify 
        who they are and where they are based during the onboarding 
        process before they can run any election-related ads. As they 
        do, we'll verify that they are permitted to run U.S. election 
        campaigns through our own checks.

    We are in the process of implementing this change to our systems. 
While we do not have mock-ups we are able to share at this time, we are 
happy to provide information once we are closer to finalizing our work.

    Question 3. Columbia University researcher Jonathan Albright has 
identified several series of AI-generated videos that consist of a 
slideshow and an auto-generated voice narrating an article. His 
research has focused on fake news and misinformation content. In one 
group of channels (``A Tease . . .''), a new video is created and 
uploaded every three minutes. Some of the videos from ``A Tease . . .'' 
channels appear to be taken down. What specific YouTube policy 
violation prompted this removal? Why did YouTube remove only a portion 
of these videos but not all? Does YouTube plan to take down the rest of 
them? How will YouTube prevent more of these from being uploaded in the 
future?
    Answer. We have strict policies that prohibit spam, including 
posting post large amounts of untargeted, unwanted or repetitive 
content. We've developed proprietary technologies to help us fight 
spam, which are effective at capturing and preventing the widespread, 
and often automated, dissemination of low-quality information. If we 
detect large scale automated behavior around account creation, we can 
terminate the accounts. We also have policies against videos with 
misleading titles and metadata. Among other things, metadata added in 
an attempt to mislead viewers or game search algorithms will lead to 
the removal of videos and could lead to further action on the channel. 
In 2017, we removed over 130,000 videos for violation of this specific 
policy.

    Question 4. Out of the total number of videos uploaded to YouTube 
per day, how many are generated primarily by computers, with little or 
no human input?
    Answer. We have advanced systems to detect and terminate accounts 
that upload high volumes of spam, fraud, and other low-quality content. 
These systems are trained to analyze a variety of signals at account 
creation and at content upload. As our systems adapt, so do the 
behaviors of those who seek to abuse and game our systems. Given the 
evolving nature of the threat, our enforcement methods must and do 
evolve to respond to them. No matter what challenges emerge, our 
commitment to combat them will be sustained and unwavering. We're 
committed to getting this right and are increasing both human and 
engineering resources to tackle this ever-evolving landscape.

    Question 5. Can you list the number of videos that violate YouTube 
Community Guidelines and the average amount of time YouTube takes to 
address the violation? Please break out by all of the violation 
categories currently listed today (1/30/2018).
    Answer. We understand that people want a clearer view of how we're 
tackling problematic content. Our Community Guidelines give users 
notice about what we do not allow on our platforms and we want to share 
more information about how these are enforced. Over the next few months 
we will be creating a regular transparency report where we will provide 
more aggregate data about the flags we receive and the actions we take.
    When it comes to violent extremist content, we have removed over 
160,000 videos and terminated approximately 30,000 accounts since June 
2017. Machine learning is helping our human reviewers remove nearly 
five times as many videos than they were previously. Today, 98 percent 
of the videos we remove for violent extremism are detected by our 
machine-learning algorithms. Our advances in machine learning let us 
now take down nearly 70 percent of violent extremist content within 
eight hours of upload and nearly half of it in two hours, and we 
continue to accelerate that speed.

    Question 6. For each of these categories, what percentage of videos 
are primarily generated by computers with little or no human input?
    Answer. As noted in the answer above, we have advanced systems to 
detect and terminate accounts that upload high volumes of spam, fraud, 
and other low-quality content. We are continuously investing in 
improving these systems to counteract the ever-evolving nature of the 
threat.

    Question 7. Once a video is taken down, does YouTube delete the 
data permanently, or does it just shield the content from public view? 
What is YouTube's data retention policy?
    Answer. Videos removed for policy violations are generally retained 
for a period of time to allow for user appeal. We may also retain some 
data about videos for a period of time to comply with applicable laws. 
When a user deletes a video, we permanently remove the video and user-
identifiable metadata associated with the video after a recovery 
window, which allows the user to recover the video in the case of 
accidental deletion.

    Question 8. It was announced at the hearing that Google will employ 
10,000 people this year to address content that might violate its 
policies. Will these employees be focused on any specific set of 
policies? Will they be full-time, permanent employees of Google? How 
many will be dedicated to YouTube? How many hours of content do you 
expect a single person to be responsible for per day (with or without 
the help of AI)?
    Answer. These employees will primarily sit on the Trust & Safety 
teams across YouTube and Google, which work with our in-house legal and 
policy departments on escalations and also oversees vendors we hire to 
help us scale our operations. The new hires will consist of engineers 
and content reviewers, among others, who will work across Google to 
address content that violates any of our policies. Many of these 
reviewers will be dedicated solely to YouTube content moderation and 
they will be made up of a mix of full-time employees and contractors.

    Question 9. In terms of dollars and percentage of annual revenue, 
how much is YouTube now spending on preventing foreign interference 
with our elections? What was the figure in the election cycle leading 
up to November 2016? What is the projected spend leading up to November 
2018?
    Answer. We've been tackling malicious actions directed at our users 
or services, including those originating from government-backed actors, 
since long before the 2016 elections. For more than a decade, we've 
offered our Safe Browsing tool, which helps protect users from 
phishing, malware, or other attacks; today it is used on more than 
three billion devices worldwide. Additionally, when we detect that a 
user's account has been targeted by a government-backed attacker, we 
show a warning that includes proactive steps the user can take to 
increase the security of his or her account.
    Our existing advertising safeguards include policies that prohibit 
foreign nationals from buying U.S. election ads. In 2016, we tightly 
restricted which advertisers can serve ads to audiences based on their 
political leanings. (We offered two categories--left-leaning and right-
leaning--starting in August 2016.) And we're continuing to invest in 
enhancements to our safeguards, which will include a transparency 
report and creative library that feature election ads bought using our 
front-end advertising systems, including those appearing on YouTube.
    Election-related advertising is not a large business for Google 
relative to other advertising verticals; nevertheless, we understand 
the importance of election advertising and are making investments in 
launching transparency tools in 2018 that are industry-leading. Across 
the world, we have a global team of thousands of policy experts, 
reviewers, product managers, and data scientists focused on creating, 
maintaining, and enforcing our policies, including those related to 
these issues. It is difficult to estimate, however, the overall dollar 
and revenue-percentage value of these investments as many of the 
resources we're leveraging are widely shared among numerous technical 
infrastructural and product development teams.

    Question 10. Congress will judge success not by YouTube's efforts 
but by its results. How will YouTube measure success? Will YouTube be 
conducting an audit after November 2018? When will results be shared?
    Answer. We found very limited activity connected to this effort on 
our platform in our investigation into potential election interference 
with respect to the 2016 Presidential election, however we are 
committed to preventing the misuse of our platforms for the purpose of 
interfering with democratic elections. At the end of last year, we 
announced we would take the following steps:

  <bullet> Transparency Report. In 2018, we'll release a transparency 
        report for election ads, which will share data about who is 
        buying election-related ads on our platforms and how much money 
        is being spent.

  <bullet> Creative Library. We'll also introduce a publicly accessible 
        database of election ads purchased on AdWords and YouTube (with 
        information about who bought each ad). That means people will 
        not only be able to learn more about who's buying election-
        related ads on our platforms; they'll be able to see the ads 
        themselves, regardless of to whom they were shown.

  <bullet> In-ad disclosures. Going forward, we'll identify the names 
        of advertisers running election-related campaigns on Search, 
        YouTube, and the Google Display Network via our ``Why This Ad'' 
        icon.

  <bullet> Verification program. U.S. law restricts entities outside 
        the U.S. from running election-related ads. We'll reinforce our 
        existing protections by requiring that advertisers proactively 
        identify who they are and where they are based before running 
        any election-related ads.

    We also have increased our longstanding support to non-profits and 
journalists dedicated to ensuring the integrity of our election 
systems. For example, we've recently contributed nearly $750,000 to the 
bipartisan ``Defending Digital Democracy'' project, led by the Belfer 
Center for Science and International Affairs at Harvard Kennedy School. 
And we are deeply committed to helping people participate in the 
election by providing users with timely and comprehensive information 
they need to make their voice heard.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                             Juniper Downs
    Question 1. In the context of extremist content, I would like to 
learn more about each company's policy for proactively reporting users 
to law enforcement. I understand your companies evaluate and respond to 
law enforcement requests for information, but what framework do you use 
to proactively report terrorist-related content to authorities, 
including any identifying information of the user? For example, if you 
use a standard of imminent harm, how do you define and apply it, 
particularly in a threat environment where terrorist organizations 
often call on recruits to attack carefully planned targets of 
opportunity, rather than to launch an immediate, indiscriminate attack?
    Answer. Google discloses information to government entities when 
the threat of loss of life or serious physical injury is brought to our 
attention by governmental entities, and when we learn of the threat 
ourselves or from other sources. Emergency disclosures are handled 
twenty-four hours a day, every day of the year and consistent with the 
law.
    Evaluating whether there is a credible threat presented in any 
particular case requires evaluation of the facts as we know them at the 
time. This can include looking to information on Google's platform as 
well as from other sources. Public sources of information can also 
assist in making the determination as well as having an understanding 
of the threat environment more generally.

    Question 2. I would like to hear from the companies whether they 
support implementing Mr. Watts's recommendations to: first, fully 
certify the authenticity of all users--in other words, ensure that each 
user is a real person; and second, eliminate social bot networks to 
reduce automated broadcasting of disinformation.
    Answer. We have not seen the same degree of social media bots that 
have been reported on other platforms. Our systems rely on a host of 
inputs about historical use and pattern recognition across various 
services in an effort to detect if an account creation or login is 
likely to be abusive. The system operates to block ``bad'' account 
creation or to close groups of such accounts. We prevent users from 
creating a large number of Google Accounts in a short time period if 
our systems detect that the user might be abusive. If we detect 
suspicious conduct, we also require verification, aimed at detecting if 
a bot is attempting to access or create an account. We have also 
developed robust protections over the years to address attempts to 
manipulate our systems by bots or other schemes, like link farms. (Our 
webmaster guidelines provide more information about this: https://
support.google.com/webmasters/answer/35769.) We use both algorithmic 
and manual methods, and we deploy these across our products including 
Search and YouTube.

    Question 3. What are the indicators that you use to identify a 
Russian disinformation account, whether from the Kremlin's so-called 
Internet Research Agency or an associated group of hackers or trolls, 
and what thresholds must be met to disable an account?
    Answer. We developed a list of actors we know or suspect were 
involved in this effort from (1) our research of publicly available 
information, (2) the work of our security team, and (3) leads we 
received from others in the industry and Jigsaw. In addition, we 
reviewed all ads from June 2015 until the election in November 2016 
that were categorized as potentially political by our systems and had 
even the loosest connection to Russia, such as a Russian I.P. address 
or billing address or were paid for using Russian currency. When we 
identified accounts that we believed were associated with this effort, 
we removed them.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Juniper Downs
    Question 1. During my time as the Attorney General for the State of 
Nevada, I saw too many instances of sex trafficking cases involving 
child victims that were dismissed because the conduct occurred online 
or through social media. So that's why I'm a strong supporter of the 
Stop Enabling Sex Traffickers Act of 2017 (SESTA), which clarifies the 
Communications Decency Act (CDA) to allow state Attorneys General to 
retain their jurisdiction to prosecute those who facilitate human 
trafficking. We know that trafficking is happening online and on social 
media, and SESTA is the only current legislative proposal that provides 
sufficient deterrence to traffickers by providing the necessary tools 
for successful prosecutions. As a former prosecutor, I know what it 
will take to successfully prosecute those who engage in sex trafficking 
through social media and other websites, and that's why I believe that 
the House version of SESTA doesn't go far enough to give prosecutors 
the tools they need to protect sex trafficking victims. I hope that 
your organizations all agree that victims of sex trafficking deserve 
meaningful protections and justice.
    If so, I'd like to hear whether you will continue to support SESTA 
over the weaker U.S. House version of the bill.
    Answer. This is a very important issue and we are glad that 
Congress has taken it up. There's no question that Backpage is a bad 
actor, and we strongly agree that they and other bad actors should be 
prosecuted for their crimes under the full extent of the law. We firmly 
support both increased enforcement of existing laws against sex 
trafficking, and strengthening of those laws where appropriate to 
combat this heinous activity. As you know, we are members of the 
Internet Association, which has endorsed both the House and Senate 
legislation. We will continue to work with any lawmakers interested in 
addressing this important problem, while ensuring that these efforts do 
not inadvertently hinder the ability of websites to remove illegal 
content and to fight sex trafficking.

    Question 2. I was glad to hear that the Internet Association 
supports SESTA, and I'd like to know what else your organization is 
doing to address concerns about sex trafficking occurring on your 
platforms and helping us pass this important legislation in the Senate?
    Answer. Google has made it a priority to tackle the horrific crime 
of sex trafficking. We have donated over $20 million to organizations 
on the front lines of ending modern day slavery and human trafficking. 
We have developed and built extensive technology to connect victims 
with the resources they need. And we have helped pioneer the use of 
technologies that identify trafficking networks to make it easier and 
quicker for law enforcement to arrest these abusers.
    Google has a zero tolerance policy for any advertising related to 
sex trafficking and prostitution. We work tirelessly to ensure bad 
actors are not able to exploit our products and use an industry-leading 
combination of sophisticated technology and manual review to detect and 
remove bad ads. We've invested millions of dollars in building these 
systems to scale. We also work with law enforcement and NGOs that are 
focused on stopping human trafficking.
    Additionally, we have always had strict policies against child 
endangerment, and we partner closely with regional authorities and 
experts to help us enforce these policies and report to law enforcement 
through the National Center for Missing and Exploited Children (NCMEC). 
Key principles in Section 230 of the Communications Decency Act enable 
us to develop new strategies around user flags, machine learning, and 
automated enforcement to stop sex trafficking and other forms of child 
endangerment on our services.
    We will continue to work to prevent this type of activity from 
occurring on our platform, and we welcome efforts by Congress to help 
us do so.

    Question 3. Over the past few months, our country has been 
reckoning with some hard truths about the way that women and minorities 
are treated in the workplace. And I think this is a moment for all 
types of organizations, including tech giants like the ones represented 
here, to take a clear-eyed accounting of their culture and practices, 
to take responsibility for what hasn't worked, and to renew their 
commitments to make meaningful improvements. The Equal Employment 
Opportunity Commission's 2016 report on ``Diversity in High Tech'' 
found that women, African Americans, and Hispanics are all represented 
at significantly lower levels in high tech than in private industry as 
a whole. And while recent internal studies at Facebook and Google have 
showed some progress in the hiring of women, there has not been equal 
improvement in the representation of people of color and other 
underrepresented groups.
    What technically qualifies as diversity to your organization?
    Answer. At Google we take a broad and intersectional view of 
diversity--from race and gender, to sexual orientation, gender 
identity, age, disability, socio-economic background and more. That 
said, we are actively working to improve the representation of 
underrepresented groups in our workforce.
    We believe deeply in diversity and inclusion and it underpins 
Google's business. We believe that if we tap the full range of human 
experience, capability and contribution, we will move faster, increase 
innovation and creativity, and can tackle more and more of the world's 
problems. Increasing diversity not only makes good business sense, it's 
also the right thing to do.
    Google's core mission is to organize the world's information and 
make it universally accessible and useful. Our goal for diversity is a 
natural extension of this mission--to increase access to opportunity, 
by breaking down barriers and empowering people through technology. 
Products will only get better and more useful if we invite all segments 
of society, and people from all over the world, to influence and create 
technology.

    Question 4. How is your company working to address issues of 
discrimination in your own workforces?
    Answer. We've worked hard over many years to create and foster a 
fair and inclusive Google, and we absolutely do not tolerate 
discrimination, or any actions that create a hostile work environment.
    This work starts with creating and building a fair and inclusive 
culture, that keeps discrimination from happening in the first place.
    Once Googlers get here, we strive to ensure that our work 
environment is fair and inclusive, so they can grow and flourish. And 
we keep close tabs on our programs and process to ensure they yield 
fair and equitable outcomes. When we learn that something is amiss, we 
take action early and follow up to make sure we continue to create a 
great place to work.
    We have a culture that empowers Googlers to quickly raise up issues 
of concern and where they feel they've been mistreated, or 
discrimination has happened. If Googlers are concerned by any 
inappropriate behavior they experience, or see, in the workplace, we 
ask them to please report it.
    There are many avenues to do this, including by anonymous means, 
and we review each complaint. We do a lot to make Googlers aware of 
those channels--ranging from reaching out directly to HR to a third-
party helpline if anyone wants to stay anonymous.

    Question 5. Do you believe those efforts are sufficient?
    Answer. Google's approach to our products and our business is that 
we can always do better, and our approach to diversity and inclusion, 
and how we oppose discrimination, is no different. We have always been 
transparent about our commitment to diversity, inclusion, equity and 
compliance in our workforce. More importantly, we're also transparent 
about our challenges and key learnings in this arena. We believe the 
best way to be a positive example is by making progress in our own 
workforce and culture, and that's a key priority of ours.

    Question 6. I've seen that Facebook works to make their labor 
diversity information public, can you provide a status on your labor 
figures, or commit to sharing those with the Committee and the public?
    Answer. As you may know, Google was the first large tech company to 
publish workforce diversity data in 2014 (all of this information is 
available at google.com/diversity). We are committed to sharing our 
numbers every year, and 2018 is no different. We plan on once again 
releasing those numbers once again later this year.
    As stated earlier, we believe it is important to be transparent 
about our challenges and key learnings in this arena. Our original 
decision to release our workforce (diversity) numbers led to other 
companies following suit. Google stands firm in its commitment to 
foster dialogue and to drive impact on this important issue.

    Question 7. We know that so-called talent pipelines are not the 
only obstacle to achieving a diverse workforce, and that discrimination 
and harassment go hand in hand, distorting the operation of workplace 
meritocracies. This is a moment when many victims of sexual assault and 
harassment are bravely coming forward about their experiences, allowing 
us to get a better sense of the true scope and effects of this 
behavior. Persistent harassment, and the workplace culture that 
tolerates, ignores, or even encourages such harassment, pushes people 
out of their workplaces, stalls or derails promising careers, and 
discourages some from pursuing certain opportunities altogether.
    What is your company doing to evaluate the impact of harassment in 
your workforces? How are you working to create a culture where 
harassment is no longer tolerated?
    Answer. Google has clear policies on appropriate behavior by 
employees of the company. Harassment has never been tolerated. We 
review all concerns, and take action when necessary. Here's a snapshot 
of what some of this work has looked like over the past few years:

  <bullet> In 2015, we launched the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="237146505346405763">[email&#160;protected]</a> program as a way for 
        Googlers to raise concerns, share experiences and get support. 
        The program is a way for Googlers to learn about the standards 
        of behavior we expect, the different ways for reporting 
        unacceptable behavior, and the process we undertake to 
        investigate complaints.

    <ctr-circle> <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97c5f2e4e7f2f4e3d7">[email&#160;protected]</a> is supported by the senior-most leadership of 
            the company, and is championed by an Executive Oversight 
            Committee that currently consists of 18 VPs, across 
            functions and regions.

    <ctr-circle> As part of <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="efbd8a9c9f8a8c9baf">[email&#160;protected]</a>, we also created go/saysomething, 
            an internal online resource to provide a discreet way to 
            report inappropriate behavior. If Googlers are concerned by 
            any inappropriate behavior they experience, or see, in the 
            workplace, we ask them to please report it. There are many 
            avenues to do this, including by anonymous means, and we 
            review and investigate each complaint.

    <ctr-circle> Since launching <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f7d4a5c5f4a4c5b6f">[email&#160;protected]</a>, complaints/investigations 
            have increased significantly, as people became aware of the 
            avenues open to them

  <bullet> In 2015, we launched the first annual Internal Investigation 
        Report, so that Googlers can see the number and type of 
        complaints we receive, as well as the outcomes of these 
        complaints. We have published these reports every year since.

    Question 8. What more could you be doing to be a positive example 
for other companies and Industries?
    Answer. Google has always been transparent about its commitment to 
diversity, inclusion, equity and compliance in our workforce. More 
importantly, we're also transparent about our challenges and key 
learnings in this arena. We believe the best way to be a positive 
example is by making progress in our own workforce and culture, and 
that's a key priority of ours.

    Question 9. Last October, Facebook announced that it would be 
improving transparency for all ads run on its platform, including by 
requiring political advertisers to include a disclaimer telling viewers 
who paid for an ad, and allowing viewers to see all the ads a page is 
running, even those that aren't targeting them. Twitter also announced 
similar measures. Although these policies were announced in response to 
Russia using social media to interfere in our elections, it seems these 
transparency measures could help shine a spotlight on other forms of 
influence campaigns by extremists or terrorists.
    Can you provide an update on the status of any improvements YouTube 
is making?
    Answer. At the end of last year, we announced we would take the 
following steps across Google's platforms, including on YouTube:

  <bullet> Transparency Report. In 2018, we'll release a transparency 
        report for election ads, which will share data about who is 
        buying election-related ads on our platforms and how much money 
        is being spent.

  <bullet> Creative Library. We'll also introduce a publicly accessible 
        database of election ads purchased on AdWords and YouTube (with 
        information about who bought each ad). That means people will 
        not only be able to learn more about who's buying election-
        related ads on our platforms; they'll be able to see the ads 
        themselves, regardless of to whom they were shown.

  <bullet> In-ad disclosures. Going forward, we'll identify the names 
        of advertisers running election-related campaigns on Search, 
        YouTube, and the Google Display Network via our ``Why This Ad'' 
        icon.

  <bullet> Verification program. U.S. law restricts entities outside 
        the U.S. from running election-related ads. We'll reinforce our 
        existing protections by requiring that advertisers proactively 
        identify who they are and where they are based before running 
        any election-related ads.

    Question 10. If applicable, when can we expect to see them fully 
implemented?
    Answer. We are in the process of implementing these steps and plan 
to have them completed in time to be helpful to users in understanding 
how ads are purchased during the November elections.

    Question 11. If applicable, how are you defining what constitutes a 
political ad subject to these heightened transparency requirements?
    Answer. We will apply the new requirements to political 
advertisements that either constitute ``express advocacy'' or contain a 
reference to a clearly identified candidate, as each of those terms is 
defined by the Federal Election Commission.

    Question 12. On January 29, the Director of the Central 
Intelligence Agency said he expects the Russian government to attempt 
to influence the 2018 elections in this country.
    What efforts is YouTube undertaking in the lead up to the 2018 
elections to identify and close the platform's remaining 
vulnerabilities to foreign exploitation?
    Answer. As mentioned above, at the end of last year, we announced 
we would take the following steps across Google's platforms, including 
on YouTube:

  <bullet> Transparency Report. In 2018, we'll release a transparency 
        report for election ads, which will share data about who is 
        buying election-related ads on our platforms and how much money 
        is being spent.

  <bullet> Creative Library. We'll also introduce a publicly accessible 
        database of election ads purchased on AdWords and YouTube (with 
        information about who bought each ad). That means people will 
        not only be able to learn more about who's buying election-
        related ads on our platforms; they'll be able to see the ads 
        themselves, regardless of to whom they were shown.

  <bullet> In-ad disclosures. Going forward, we'll identify the names 
        of advertisers running election-related campaigns on Search, 
        YouTube, and the Google Display Network via our ``Why This Ad'' 
        icon.

  <bullet> Verification program. U.S. law restricts entities outside 
        the U.S. from running election-related ads. We'll reinforce our 
        existing protections by requiring that advertisers proactively 
        identify who they are and where they are based before running 
        any election-related ads.

    We also have increased our longstanding support to non-profits and 
journalists dedicated to ensuring the integrity of our election 
systems. For example, we've recently contributed nearly $750,000 to the 
bipartisan ``Defending Digital Democracy'' project, led by the Belfer 
Center for Science and International Affairs at Harvard Kennedy School. 
And we are deeply committed to helping people participate in the 
election by providing users with timely and comprehensive information 
they need to make their voice heard.

    Question 13. What assistance can Federal, state and local 
government entities provide in that effort?
    Answer. We are committed to working with Congress, law enforcement, 
others in our industry, and the NGO community to strengthen protections 
around elections, ensure the security of users, and help combat 
disinformation, and we welcome tips and other information from 
knowledgeable government agencies on these matters.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Roger Wicker to 
                           Carlos Monje, Jr.
    Question 1. Has Twitter placed any restrictions on the U.S. 
Government's use of publicly available information on your platform? If 
yes, please describe what those restrictions are, why they have been 
imposed and on which U.S. Government agencies?
    Answer. Twitter is a public platform. When users choose to share 
information by posting it to their public profile, the information is 
available to anyone who visits those users' profiles. With respect to 
Twitter's application programming interface (``API'') (public and 
commercial), through which we provide developers and other third 
parties access to subsets of public Twitter content, all users of our 
developer products must comply with Twitter's developer terms and 
policies. Those policies include long-standing provisions that 
prohibit, among other things, the use of Twitter data for surveillance 
purposes or for purposes in contravention of the Universal Declaration 
of Human Rights. While Twitter works closely with its developer 
community to address questions and investigate instances of potential 
abuse, each developer is responsible for compliance with Twitter's 
applicable policies.
    Twitter maintains strong working relationships with law 
enforcement. We publish guidelines for law enforcement personnel that 
explain our policies and the process for submitting requests for 
information. We regularly respond to law enforcement requests, have a 
dedicated 24/7 response team for that purpose, and have developed a 
user-friendly online submission form to streamline responses to law 
enforcement agencies through properly scoped valid legal process. There 
are also a number of news alert products that are available and used by 
law enforcement, including the Federal Bureau of Investigation.

    Question 2. Are U.S. Government agencies or intelligence 
organizations permitted to search for or monitor--either directly with 
Twitter or through third-party aggregators--counterterrorism 
information or specific Twitter accounts that are likely affiliated 
with terrorist organizations within the publicly available content 
found on Twitter's platform? If not, why? Please explain.
    Answer. The answer to Question 2 has been provided in response to 
Question 1.

    Question 3. Are companies (such as casinos) allowed to monitor--
either directly with Twitter or through third-party aggregators--
specific Twitter accounts that have made public threats against their 
venues or staff?
    Answer. The answer to Question 2 has been provided in response to 
Question 1.

    Question 4. Does Twitter have any policies that prohibit the use of 
its data, by any public or private third-party, for counterterrorism 
analyses focused on terrorist organizations? If so, can you please 
explain the purpose of that policy and the parameters of it?
    Answer. The answer to Question 2 has been provided in response to 
Question 1.

    Question 5. During the hearing, Mr. Monje testified that Twitter 
works with law enforcement through the ``proper legal process''. Please 
describe the legal process to which Mr. Monje was referring and how it 
applies to law enforcement's use of Twitter's aggregate user data.
    Answer. As we noted above in response to Question 1, Twitter 
maintains strong working relationships with law enforcement. We publish 
guidelines for law enforcement personnel that explain our policies and 
the process for submitting requests for information. See https://
help.twitter.com/en/rules-and-policies/twitter-law-enforcement-support. 
We regularly respond to law enforcement requests, have a dedicated 24/7 
response team for that purpose, and have developed a user-friendly 
online submission form to streamline responses to law enforcement 
agencies through valid legal process. Before launching this system to 
all U.S. law enforcement agencies, we conducted a pilot with the 
Federal Bureau of Investigation. We have begun rolling out this tool 
for global use.
    In addition, we have offered and conducted training sessions to law 
enforcement officials to familiarize them with our policies and 
procedures. In 2017, we have attended and provided training at a 
national conference for investigators of crimes against children, 
training events for FBI legal attaches posted to U.S. embassies abroad, 
and other conferences with the participation of federal, state and 
local law enforcement. We continue to build upon and invest in our law 
enforcement outreach and training. And we welcome feedback from law 
enforcement experts and professionals about how we can improve our 
systems.
    We regularly and directly engage with law enforcement officials on 
a wide range of issues, including extremist content online. We receive 
and respond to ``Internet Referral Unit'' reports of extremist content. 
Our recently published Transparency Report for the first half of 2017 
details the statistics of those responses. See https://
blog.twitter.com/official/en_us/topics/company/2017/New-Data-Insights-
Twitters-Latest-Transparency-Report.html. In addition, we receive 
briefings from government experts on terrorist use of online platforms, 
which help inform our proactive efforts.
    Law enforcement requests to Twitter must comply with applicable 
laws in the jurisdiction where they are issued. For Federal law 
enforcement, this includes the Electronic Communications Privacy Act 18 
U.S.C. 2510 et seq. These requirements only apply to data sought from 
Twitter. If law enforcement is able to access publicly available 
information from the Twitter service they may do so subject to any 
other legal or policy restrictions that may apply to their conduct 
(e.g., Department of Justice guidance). If law enforcement seeks access 
to Twitter data via our API directly or through a third party 
developer, they must do so in a manner that complies with the 
applicable Twitter terms and policies for our API.

    Question 6. Does a U.S. Government agency have to obtain a warrant 
(or go through a similar legal process as discussed in Question #5) to 
search publicly available information found on Twitter? If yes, why? If 
no, does Twitter allow U.S. Government agencies to gain access to 
publicly available information on its platform through third-parties 
that have purchased aggregate user data from Twitter?
    Answer. The answer to Question 6 has been provided in response to 
Question 1.

    Question 7. Twitter's platform allows users to ``follow'' other 
users. In your view, what is the difference between ``following'' 
someone and ``surveilling'' someone?
    Answer. A user may follow another account holder via the Twitter 
service. An account holder may view their list of followers at any 
time. The account holder may take a range of actions in response to 
receiving a ``follow'' from another user. They may decide to follow 
that user in return. They may also choose to block that follower, 
preventing the follower from viewing in their timeline content posted 
that account holder or receiving notifications of posts by the account 
holder Twitter users may also choose to make their account private so 
as to restrict new followers to those that they have expressly allowed 
as followers. These choices, including the ability to restrict 
followers and the transparency inherent in our platform, are important 
aspects of the Twitter service.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                           Carlos Monje, Jr.
    Question 1. How is the battle against terrorist content different 
from misinformation and abuse?
    Answer. Twitter is committed to combating terrorist content, 
abusive activity (including malicious automated activity) and the 
spread of misinformation on our platform. Because bad actors often rely 
on the same methods to propagate such content, to some extent, we 
deploy similar tools to detect and stop all malicious activity on 
Twitter, including the proliferation of terrorist content. At the same 
time, we recognize that each of these areas presents unique challenges 
to deploying our technology at scale. For example, with terrorist 
content, we can more readily identify the signals of bad actors 
intending to disseminate terrorist propaganda and can efficiently find 
and suspend many of these accounts using machine learning. In contrast, 
for abuse and misinformation, the context of conversations and the 
content itself are often needed to determine whether something crosses 
a policy line.
    However, Twitter's approach to addressing the spread of malicious 
automation and inauthentic accounts on our platform is to focus 
wherever possible on identifying problematic behavior, and not on the 
content itself. Those who are seeking to influence a wide audience 
often find ways to try to artificially amplify their messages across 
Twitter. As with spam, these behaviors frequently provide more precise 
signals than focusing on content alone.
    Accordingly, we monitor various behavioral signals related to the 
frequency and timing of Tweets, Retweets, likes, and other such 
activity, as well as to similarity in behavioral patterns across 
accounts, in order to identify accounts that are likely to be 
maliciously automated or acting in an automated and coordinated fashion 
in ways that are unwelcome to our users. We monitor and review 
unsolicited targeting of accounts, including accounts that mention or 
follow other accounts with which they have had no prior engagement. For 
example, if an account follows 1,000 users within the period of one 
hour, or mentions 1,000 accounts within a short period of time, our 
systems are capable of detecting that activity as aberrant and as 
potentially originating from suspicious accounts.
    Twitter is continuing its effort to detect and prevent malicious 
automation by leveraging our technological capabilities and investing 
in initiatives aimed at understanding and addressing behavioral 
patterns associated with such accounts. For example, in early 2017, we 
launched the Information Quality initiative, an effort aimed at 
enhancing the strategies we use to detect and stop bad automation, 
improve machine learning to spot spam, and increase the precision of 
our tools designed to prevent such content from contaminating our 
platform.
    In 2017, we have made significant improvements to reduce external 
attempts to manipulate content visibility. These improvements were 
driven by investments in methods to detect malicious automation through 
abuse of our API, limit the ability of malicious actors to create new 
accounts in bulk, detect coordinated malicious activity across clusters 
of accounts, and better enforce policies against abusive third-party 
applications.
    In addition, we have developed new techniques for identifying 
patterns of activity inconsistent with legitimate use of our platform 
(such as near-instantaneous replies to Tweets, nonrandom Tweet timing, 
and coordinated engagement), and we are currently implementing these 
detections across our platform. We have improved our phone verification 
process and introduced new challenges, including reCAPTCHA (utilizing 
an advanced risk-analysis engine developed by Google), to give us 
additional tools to validate that a human is in control of an account. 
We have enhanced our capabilities to link together accounts that were 
formed by the same person or that are working in concert. And we are 
improving how we detect when accounts may have been hacked or 
compromised.
    With our improved capabilities, we are now detecting and blocking 
approximately 523,000 suspicious logins each day that we believe to be 
generated through automation. In December 2017, our systems identified 
and challenged more than 6.4 million suspicious accounts globally per 
week--a 60 percent increase in our detection rate from October 2017. 
Over three million of those accounts were challenged upon signup, 
before their content or engagements could impact other users. Since 
June 2017, we also suspended more than 220,000 malicious applications 
for API abuse. These applications were collectively responsible for 
more than 2.2 billion Tweets in 2017. We plan to continue building upon 
our 2017 improvements, including through collaboration with our peers 
and investments in machine-learning capabilities that help us detect 
and mitigate the effect on users of fake, coordinated, and malicious 
automated account activity.
    We have also observed the expansion of malicious activity on our 
platform from automated accounts to human-coordinated activity, which 
poses additional challenges to making our platform safe. We are 
determined to meet those challenges and have been successful in 
addressing such abusive behavior in other contexts. We are committed to 
leveraging our technological capabilities in order to do so again by 
carefully refining and building tools that respond to signals in the 
account behavior.
    Those tools have also been successful at detecting and removing 
terrorist content on our platform. For example, as of September 2017, 
95 percent of account suspensions for promotion of terrorist activity 
were accomplished using our existing proprietary detection tools--up 
from 74 percent in 2016. These tools focus on indicia of violating 
activity beyond the content of the Tweet. Although they have proved 
successful, our efforts to address terrorist content on our platform do 
not end with investments in our proprietary detection tools. We 
recognize that the spread of terrorist and extremist content online is 
not unique to Twitter, and we are committed to collaborating with our 
industry peers to address this shared thread. Accordingly, in June 
2017, we launched the Global Internet Forum to Counter Terrorism (the 
``GIFCT''), a partnership among Twitter, YouTube, Facebook, and 
Microsoft. The GIFCT facilitates, among other things, information 
sharing; technical cooperation; and research collaboration, including 
with academic institutions. In September 2017, the members of the GIFCT 
announced a multimillion dollar commitment to support research on 
terrorist abuse of the Internet, and how governments, tech companies, 
and civil society can respond effectively. We are looking to establish 
a network of experts that can develop these platform-agnostic research 
questions and analysis that considers a range of geopolitical contexts. 
The GIFCT opened a call for proposals in December 2017, and we look 
forward to sharing further details of the initial projects this year.
    The GIFCT has created a shared industry database of ``hashes''--
unique digital ``fingerprints''--for violent terrorist imagery or 
terrorist recruitment videos or images that have been removed from our 
individual services. The database allows a company that discovers 
terrorist content on one of its sites to create a digital fingerprint 
and share it with the other companies in the forum, who can then use 
those hashes to identify such content on their services or platforms, 
review against their respective policies and individual rules, and 
remove matching content as appropriate, or even block extremist content 
before it is posted in the first place. The database now contains more 
than 40,000 hashes. Instagram, Justpaste.it, LinkedIn, Oath, and Snap 
have also joined this initiative, and we are working to add several 
additional companies in 2018. Twitter also participates in the 
Technology Coalition, which shares images to counter child abuse.
    As part of our work with the GIFCT, we have hosted more than 50 
small companies at workshops through the Tech Against Terrorism 
initiative, our partners under the UN CounterTerrorism Executive 
Directorate. Twitter believes that this partnership will provide a 
unique opportunity for us to share our knowledge and technical 
expertise with smaller and emerging companies in the industry and for 
all industry actors to harness the expertise that has been built up in 
recent years.
    We have also focused on NGO outreach and, since 2013, and have 
participated in more than 100 Countering Violent Extremism training and 
events around the world, including in Beirut, Bosnia, Belfast and 
Brussels, and summits at the White House, at the United Nations, 
London, and Sydney. Twitter has partnered with groups like the 
Institute of Strategic Dialogue, the Anti-Defamation League and Imams 
Online to bolster counterspeech that offers alternatives to 
radicalization. As a result of that work, NGOs and activists around the 
world are able to harness the power of our platform in order to offer 
positive alternative narratives to those at risk and their wider 
communities.
    Finally, in addressing abuse directed at users on the platform, 
context matters. A turn of phrase can be playful or offensive, 
depending on the circumstance, topic, and author. This means we need 
more nuanced and creative approaches to our machine learning models in 
order to address abusive activity at scale. One example where we have 
made progress is in our improving ability to action reports of abuse by 
witnesses (instead of by victim directly). By looking at various 
signals, including the relationship and activity between the reported 
abuser and reported victim, we can better identify, escalate, and take 
action against instances of abuse.

    Question 2. Can you walk through your track record of removing 
terrorist content?
    Answer. As noted above, we have made considerable inroads against 
the proliferation of terrorist content on our platform. For example, in 
February 2016 when we first started sharing metrics for our enforcement 
efforts, we announced that, since the middle of the preceding year, we 
had suspended more than 125,000 accounts for threatening or promoting 
terrorist acts. See https://blog.twitter.com/official/en_us/a/2016/
combating-violent-extremism.html. By August 2016, we announced that we 
had suspended an additional 235,000 accounts for violating Twitter 
policies related to the promotion of terrorism. https://
blog.twitter.com/official/en_us/a/2016/anupdate-on-our-efforts-to-
combat-violent-extremism.html. We also announced at that time that our 
daily suspension records increased by more than 80 percent compared to 
the previous year, and that our response time for suspending reported 
accounts decreased dramatically.
    We made additional improvements the following year. As we noted in 
our September 2017 Transparency Report, for the reporting period 
between January 1 and June 30, 2017, we suspended nearly 300,000 
accounts for violations of Twitter policies prohibiting the promotion 
of terrorism. Of those suspensions, 95 percent were accomplished using 
our proprietary tools--up from 74 percent in 2016. Approximately 75 
percent of those accounts were suspended before posting their first 
Tweet. In total, between August 1, 2015 and June 30, 2017, we suspended 
nearly 1 million accounts for violating Twitter rules and policies 
prohibiting the promotion of violence or terrorist content.

    Question 3. What is the next challenge on the Common 
Vulnerabilities and Exposures (CVE) front? How do we empower smaller 
platforms that the terrorists are moving to?
    Answer. As noted above, we plan to continue building upon our 2017 
improvements, including through collaboration with our peers and 
investments in machine-learning capabilities that help us detect and 
mitigate the effect on users of fake, coordinated, and malicious 
automated account activity.
    We have observed the expansion of malicious activity on our 
platform from automated accounts to human-coordinated activity, which 
poses additional challenges to making our platform safe. We are 
determined to meet those challenges and have been successful in 
addressing such abusive behavior in other contexts. We are committed to 
leveraging our technological capabilities in order to do so again by 
carefully refining and building tools that respond to signals in the 
account behavior.
    Those tools have also been successful at detecting and removing 
terrorist content on our platform. For example, as of September 2017, 
95 percent of account suspensions for promotion of terrorist activity 
were accomplished using our existing proprietary detection tools--up 
from 74 percent in 2016. These tools focus on indicia of violating 
activity beyond the content of the Tweet.
    Although they have proved successful, our efforts to address 
terrorist content on our platform do not end with investments in our 
proprietary detection tools. We recognize that the spread of terrorist 
and extremist content online is not unique to Twitter, and we are 
committed to collaborating with our industry peers to address this 
shared thread. Accordingly, in June 2017, we launched the Global 
Internet Forum to Counter Terrorism (the ``GIFCT''), a partnership 
among Twitter, YouTube, Facebook, and Microsoft. The GIFCT facilitates, 
among other things, information sharing; technical cooperation; and 
research collaboration, including with academic institutions. In 
September 2017, the members of the GIFCT announced a multimillion 
dollar commitment to support research on terrorist abuse of the 
Internet and how governments, tech companies, and civil society can 
respond effectively. We are looking to establish a network of experts 
that can develop these platform-agnostic research questions and 
analysis that considers a range of geopolitical contexts. The GIFCT 
opened a call for proposals in December 2017, and we look forward to 
sharing further details of the initial projects this year.
    The GIFCT has created a shared industry database of ``hashes''--
unique digital ``fingerprints''--for violent terrorist imagery or 
terrorist recruitment videos or images that have been removed from our 
individual services. The database allows a company that discovers 
terrorist content on one of its sites to create a digital fingerprint 
and share it with the other companies in the forum, who can then use 
those hashes to identify such content on their services or platforms, 
review against their respective policies and individual rules, and 
remove matching content as appropriate, or even block extremist content 
before it is posted in the first place. The database now contains more 
than 40,000 hashes. Instagram, Justpaste.it, LinkedIn, Oath, and Snap 
have also joined this initiative, and we are working to add several 
additional companies in 2018.
    As part of our work with the GIFCT, we have hosted more than 50 
small companies at workshops through the Tech Against Terrorism 
initiative, our partners under the UN CounterTerrorism Executive 
Directorate. Twitter believes that this partnership will provide a 
unique opportunity for us to share our knowledge and technical 
expertise with smaller and emerging companies in the industry and for 
all industry actors to harness the expertise that has been built up in 
recent years.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                           Carlos Monje, Jr.
    Question 1. Social media companies are increasingly able to remove 
terrorist recruitment, incitement, and training materials before it 
posts to their platforms by relying on improved automated systems. 
Other than content removal, what else can be done to limit the audience 
or distribution of these dangerous materials?
    Answer. Twitter has been at the forefront of developing a 
comprehensive response to the evolving challenge of preventing 
terrorist exploitation of the Internet. We initially focused on scaling 
up our own, in-house proprietary spam technology to detect and remove 
accounts that promote terrorism. In early 2016, the technological tools 
we had at our disposal detected approximately one-third of terrorism-
related accounts that we removed at that time. In 2017, 95 percent of 
account suspensions for promotion of terrorist activity were 
accomplished using our existing proprietary detection tools--up from 74 
percent in 2016. Approximately 75 percent of those accounts were 
suspended prior to sending their first Tweet. In total, since 2015, we 
have suspended nearly a million accounts that we determined violated 
our terms of service. In December 2016, for example, we took steps 
toward a hash-sharing agreement with Facebook, Microsoft, and YouTube, 
intended to further curb the spread of terrorist content online. 
Pursuant to this agreement, the four companies created an industry 
database of ``hashes''--unique digital ``fingerprints''--for violent 
terrorist imagery or terrorist recruitment videos or images that we 
have removed from our services. By sharing this information with each 
other, we may use the shared hashes to help identify potential 
terrorist content on our respective hosted consumer platforms.
    In June 2017, we launched the Global Internet Forum to Counter 
Terrorism (the ``GIFCT''), a partnership among Twitter, YouTube, 
Facebook, and Microsoft. The GIFCT facilitates, among other things, 
information sharing; technical cooperation; and research collaboration, 
including with academic institutions.
    In September 2017, the members of the GIFCT announced a 
multimillion dollar commitment to support research on terrorist abuse 
of the Internet and how governments, tech companies, and civil society 
can respond effectively. We are looking to establish a network of 
experts that can develop these platform-agnostic research questions and 
analysis that considers a range of geopolitical contexts. The GIFCT 
opened a call for proposals last month, and we look forward to sharing 
further details of the initial projects early in 2018.
    The GIFCT has created a shared industry database of ``hashes''--
unique digital ``fingerprints''--for violent terrorist imagery or 
terrorist recruitment videos or images that have been removed from our 
individual services. The database allows a company that discovers 
terrorist content on one of its sites to create a digital fingerprint 
and share it with the other companies in the forum, who can then use 
those hashes to identify such content on their services or platforms, 
review against their respective policies and individual rules, and 
remove matching content as appropriate, or even block extremist content 
before it is posted in the first place. The database now contains more 
than 40,000 hashes. Instagram, Justpaste.it, LinkedIn, Oath, and Snap 
have also joined this initiative, and we are working to add several 
additional companies in 2018. Twitter also participates in the 
Technology Coalition, which shares images to counter child abuse.
    As part of our work with the GIFCT, we have hosted more than 50 
small companies at workshops through the Tech Against Terrorism 
initiative, our partners under the UN CounterTerrorism Executive 
Directorate. Twitter believes that this partnership will provide a 
unique opportunity for us to share our knowledge and technical 
expertise with smaller and emerging companies in the industry and for 
all industry actors to harness the expertise that has been built up in 
recent years.
    We have also focused on NGO outreach and, since 2013, and have 
participated in more than 100 Countering Violent Extremism training and 
events around the world, including in Beirut, Bosnia, Belfast and 
Brussels and summits at the White House, at the United Nations, London, 
and Sydney. Twitter has partnered with groups like the Institute of 
Strategic Dialogue, the Anti-Defamation League and Imams Online to 
bolster counterspeech that offers alternatives to radicalization. As a 
result of that work, NGOs and activists around the world are able to 
harness the power of our platform in order to offer positive 
alternative narratives to those at risk and their wider communities.

    Question 2. Terrorist how-to guides are protected by the First 
Amendment in the United States, but violate the content policies of 
many social media companies as well as the laws of some international 
partner nations. What countries have laws that go beyond your company's 
content policies and can you give examples of how you have worked with 
those countries to de-conflict those differences?
    Answer. The Twitter Rules prohibit violent threats and the 
promotion or incitement of violence, including terrorism. Twitter is 
committed to removing such content swiftly from the platform. In 
addition, our Hateful Conduct policy is designed to protect users from 
harassment on the basis of protected categories, such as race, 
ethnicity, national origin, gender identity, age and religion. Examples 
of hateful conduct that we do not tolerate include targeting users 
with: (1) harassment; (2) wishes for the physical harm, death, or 
disease of individuals or groups; (3) references to mass murder, 
violent events, or specific means of violence in which or with which 
such groups have been the primary victims; (4) behavior that incites 
fear about a protected group; and (5) repeated and/or or non-consensual 
slurs, epithets, racist and sexist tropes, or other content that 
degrades someone. We also do not allow accounts whose primary purpose 
is inciting harm towards others on the basis of these categories. We 
have also updated our policies to clearly prohibit users who affiliate 
with organizations that--whether by their own statements or activity 
both on and off the platform--use or promote violence against civilians 
to further their causes.
    We have established channels for law enforcement agencies to 
request removal of content that may be illegal under the requesting 
jurisdiction's laws. Specifically, Twitter publishes global guidelines 
for law enforcement personnel that explain our policies and the process 
for submitting requests for content removal. See https://
help.twitter.com/en/rules-andpolicies/twitter-law-enforcement-support. 
We accept requests from law enforcement agencies in countries in which 
Twitter operates, and we evaluate each request and, if appropriate, we 
will take action against the content at issue within the jurisdiction 
from which the removal request originated. As part of our commitment to 
transparency, since 2012, Twitter has published biannual Transparency 
Reports, reflecting the number of requests that we have received for 
user information and content removal on a per-country basis. See 
https://transparency.twitter.com.
    Those reports indicate the number of requests that we have received 
and the number of requests with which we have complied.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Carlos Monje, Jr.
    Question 1. We have strong principles of freedom of speech, but at 
the same time, we need to balance that freedom with the need to protect 
against bad actors who would leverage that freedom to plan and promote 
illegal acts. How can we use artificial intelligence to help us achieve 
a balance between our American ideal of free speech and the need to 
protect against extremist acts of terror?
    Answer. Twitter recognizes that freedom of speech is a fundamental 
human right and we are committed to providing a platform where users 
feel safe to share their views and opinions. Twitter has a history of 
facilitating civic engagement and political freedom, and we intend for 
Twitter to remain a vital avenue for free expression here and abroad. 
But we cannot foster free expression without ensuring trust in our 
platform. We are determined to take the actions necessary to prevent 
the manipulation of Twitter, and we can and must make sure Twitter is a 
safe place.
    Twitter's enforcement activity is designed with care to avoid, as 
much as possible, having an inadvertent negative impact on free 
expression. We do this by focusing our detection mechanisms primarily 
on signals and behavior, rather than content. We also do this by 
determining the proper use for automation, which is not always to take 
direct action on accounts or content.
    Twitter relies on automation, artificial intelligence, and machine 
learning models to identify content for review by Twitter's teams and 
to detect potentially malicious activity on the platform. For example, 
when we learned that bad actors who shared terrorist propaganda on the 
platform were attempting to avoid permanent suspension from the 
platform by creating serial accounts, Twitter designed automated 
techniques to improve our detection rates for accounts that engage in 
such activity. Our efforts have been successful and our detection and 
suspension rates have increased as a result.

    Question 2. Outside of artificial intelligence, what other 
technologies could be used to combat potential radicalization on social 
media platforms? What does the implementation of those technologies 
look like?
    Answer. Keeping Twitter safe includes maintaining the quality of 
information on our platform. Our users look to us for useful, timely, 
and appropriate information. To preserve that experience, we are always 
working to ensure that we surface for our users the highest quality and 
most relevant content first. We are taking active steps to stop 
malicious accounts, abusive conduct, and terrorist and extremist 
content from spreading, and we are determined that our strategies will 
keep ahead of the tactics of bad actors.
    For example, Twitter is continuing its effort to detect and prevent 
malicious automation by leveraging our technological capabilities and 
investing in initiatives aimed at understanding and addressing 
behavioral patterns associated with such accounts. In early 2017, we 
launched the Information Quality initiative, an effort aimed at 
enhancing the strategies we use to detect and stop bad automation, 
improve machine learning to spot spam, and increase the precision of 
our tools designed to prevent such content from contaminating our 
platform.
    We have also made significant improvements to reduce external 
attempts to manipulate content visibility. These improvements were 
driven by investments in methods to detect malicious automation through 
abuse of our API, limit the ability of malicious actors to create new 
accounts in bulk, detect coordinated malicious activity across clusters 
of accounts, and better enforce policies against abusive third-party 
applications.
    We have also introduced changes to our Twitter Rules, including how 
we correspond with those who violate them, and to our rules' 
enforcement process. We recently unveiled clarifications and updates to 
rules regarding hateful display names, hateful imagery, violent groups, 
and content that glorifies violence, which we began enforcing in 
December 2017. We made the various updates available prior to 
enforcement in order to provide our users and the general Twitter 
community with sufficient time to review and understand them. Twitter 
is continually working to make the platform a safe place for our users. 
For example, we are introducing changes to our Twitter Rules, including 
how we correspond with those who violate them, and to our rules' 
enforcement process.
    As with most technology-based threats, the best approach is to 
share information and ideas to increase our collective knowledge. 
Working with the broader community, we will continue to test, to learn, 
to share, and to improve, so that our product remains effective and 
safe.
    Another important tool against radicalization online is fostering 
alternative narratives from credible voices within communities. Twitter 
has invested in groups like WISE Muslim Women (NYC), Imams Online (UK) 
and Hedayah (UAE).
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                           Carlos Monje, Jr.
    Question 1. On October 30, 2017, nineteen civil rights groups, 
including Muslim Advocates, Leadership Conference on Civil and Human 
Rights, NAACP, Southern Poverty Law Center, and many others, co-signed 
a letter to Facebook to express concern about the hateful content on 
the social media platform used to divide the country, and in 
particular, to promote anti-Muslim, anti-Black, anti-immigrant, and 
anti-LGBTQ animus.
    Mr. Monje, how would Twitter respond to this letter if it had 
received it?
    Answer. Keeping Twitter safe includes maintaining the quality of 
information on our platform. Our users look to us for useful, timely, 
and appropriate information. To preserve that experience, we are always 
working to ensure that we surface for our users the highest quality and 
most relevant content first. We are taking active steps to stop 
malicious accounts, abusive conduct, and terrorist and extremist 
content from spreading, and we are determined that our strategies will 
keep ahead of the tactics of bad actors.
    We have introduced changes to our Twitter Rules, including how we 
correspond with those who violate them, and to our rules' enforcement 
process. We recently unveiled clarifications and updates to rules 
regarding hateful display names, hateful imagery, violent groups, and 
content that glorifies violence, which we began enforcing in December 
2017. We made the various updates available prior to enforcement in 
order to provide our users and the general Twitter community with 
sufficient time to review and understand them.

    Question 2. Ms. Bickert, Mr. Monje, and Ms. Downs, please provide 
copies (including images, text, dates and timestamps) of all content 
identified by your platforms as generated by Russian agents or the 
Internet Research Agency.
    Answer. We can provide the set of data on the Internet Research 
Agency that we have previously provided to other congressional 
committees through a secure data transfer.

    Question 3. At least one of your peers in the tech industry has 
voluntarily initiated an outside assessment of the civil rights impacts 
of its policies and programs. In response to concerns regarding 
discrimination on the home-sharing platform, AirBNB hired former U.S. 
attorney general Eric Holder to help craft an anti-discrimination 
policy and has promised to pursue technological innovations to guard 
against future discriminatory events.
    Mr. Monje, Ms. Bickert, and Ms. Downs, can you each commit to 
bringing in an independent entity to conduct a thorough and public 
audit of the civil rights impact of your policies and programs, 
including how your platform has been used by hate groups to stoke 
religious resentment and violence?
    Answer. We agree that the decisions we make can have tremendous 
implications for civil rights, and we take that responsibility very 
seriously. We strive to create a platform that is conducive to robust 
democratic debate. Twitter is built around the idea of giving voice to 
people who may otherwise not be heard. From the #MeToo movement, to 
#BlackLivesMatter, to countless other campaigns through Twitter's 
history, we repeatedly see and are awed by the power of people who use 
Twitter to drive social change, encourage diverse perspectives, and 
share their stories. It is critical that our platform remains a 
welcoming place for these voices.
    We share your concern regarding hate groups stoking religious 
resentment and violence, and we have taken significant steps over the 
past year to address such activity on our platform. We introduced 
changes to our Twitter Rules, including how we correspond with those 
who violate them, and to our rules' enforcement process. We recently 
unveiled clarifications and updates to rules prohibiting hateful 
display names, hateful imagery, violent groups, and content that 
glorifies violence, which we began enforcing in December 2017. In 
developing these changes, we worked closely with external advisers from 
around the world in the form of our Trust and Safety Council. The 
Twitter Trust and Safety Council provides input on our safety products, 
policies and programs. It includes safety advocates, academics, 
researchers, grassroots advocacy organizations, and community groups. A 
full list of our Council members is available here: https://
about.twitter.com/en_us/safety/safety-partners.html.

    Question 4. A little over a year ago, Facebook, Twitter, Google, 
and Microsoft announced a plan to create a joint industry database of 
``content that promotes terrorism.''
    Mr. Monje, Ms. Bickert, and Ms. Downs, to what extent does this 
joint industry database focus on all forms of terror, including the 
real terror threat presented by white supremacists?
    Answer. In June 2017, we launched the Global Internet Forum to 
Counter Terrorism (the ``GIFCT''), a partnership among Twitter, 
YouTube, Facebook, and Microsoft. The GIFCT facilitates, among other 
things, information sharing; technical cooperation; and research 
collaboration, including with academic institutions. In September 2017, 
the members of the GIFCT announced a multimillion dollar commitment to 
support research on terrorist abuse of the Internet and how 
governments, tech companies, and civil society can respond effectively. 
We are looking to establish a network of experts that can develop these 
platform-agnostic research questions and analysis that consider a range 
of geopolitical contexts. The GIFCT opened a call for proposals last 
month and we look forward to sharing further details of the initial 
projects early in 2018.
    The GIFCT has created a shared industry database of ``hashes''--
unique digital ``fingerprints''--for violent terrorist imagery or 
terrorist recruitment videos or images that have been removed from our 
individual services. The database allows a company that discovers 
terrorist content on one of its sites to create a digital fingerprint 
and share it with the other companies in the forum, who can then use 
those hashes to identify such content on their services or platforms, 
review against their respective policies and individual rules, and 
remove matching content as appropriate, or even block extremist content 
before it is posted in the first place. The database now contains more 
than 40,000 hashes. Instagram, Justpaste.it, LinkedIn, Oath, and Snap 
have also joined this initiative, and we are working to add several 
additional companies in 2018. Twitter also participates in the 
Technology Coalition, which shares images to counter child abuse.
    We have introduced changes to our Twitter Rules, including how we 
correspond with those who violate them, and to our rules' enforcement 
process. We recently unveiled clarifications and updates to rules 
regarding hateful display names, hateful imagery, violent groups, and 
content that glorifies violence, which we began enforcing in December 
2017. We made the various updates available prior to enforcement in 
order to provide our users and the general Twitter community with 
sufficient time to review and understand them.
    For example, pursuant to our violent extremist groups policy, users 
are prohibited from engaging with our platform to make specific threats 
of violence or wish for the serious physical harm, death, or disease of 
an individual or a group of individuals. The policy makes clear that 
this prohibition includes, but is not limited to, threatening or 
promoting terrorist acts. We also indicate that users may not use our 
platform to affiliate with organizations that--whether by their own 
statements or by their activity both on and off the Twitter platform--
use or promote violence against civilians to further their causes. We 
consider extremist groups to (1) identify as such through their stated 
purpose, publication, or actions; (2) have engaged in (or currently 
engage in) violence and/or the promotion of violence as a means of 
furthering their cause; and (3) target civilians in their acts and/or 
promotion of violence.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                           Carlos Monje, Jr.
    Question 1. Please quantify and explain Twitter's progress in 
tackling the fake-user account issue. For the most recent full month 
available and every month in the two years preceding provide:

  <bullet> number of fake accounts created

  <bullet> number of fake accounts removed

  <bullet> number of accounts hacked

  <bullet> number of hacked accounts restored

  <bullet> number of duplicate accounts created

  <bullet> number of duplicate accounts removed

  <bullet> number of inactive accounts existing

  <bullet> number of inactive accounts removed

  <bullet> number of monthly active users

  <bullet> average number of days a fake account remains on the 
        platform

    Answer. In December 2017, Twitter challenged more than 6.4 million 
accounts per week and prevented more than 523,000 suspicious logins per 
day. These actions, in addition to protections built into our account 
signup process, are part of a range of enforcement actions designed to 
catch and prevent the creation and use of fake accounts. Given our 
increasing focus on proactive detection (i.e., detections focused on 
identifying fake or suspicious accounts at signup and preventing the 
creation of those accounts in the first place), attempting to quantify 
the precise number of accounts created or removed on a monthly basis 
would under-represent both the scale of the challenges we face and the 
scope of Twitter's activities to defend against them.
    Twitter takes a wide range of actions to protect the security of 
user accounts on Twitter. For example, we partner with vendors that 
provide real-time information regarding data breaches on other websites 
and services that may impact consumers who also have Twitter accounts 
(since many consumers reuse passwords across services). In these cases, 
we take proactive steps to require users to secure their accounts (for 
instance, through e-mail reconfirmation and password changes)--even if 
there is no evidence of any malicious activity on Twitter itself. We 
also offer a range of security features, including two-factor 
authentication that users can take advantage of to help ensure that 
their accounts remain safe even if their passwords are compromised. We 
also maintain a Vulnerability Rewards Program (also known as a ``bug 
bounty'') that provides financial incentives for security researchers 
to report vulnerabilities in our services so that we can quickly 
identify and remediate security risks before they affect our users.
    The Twitter Rules prohibit the creation of ``duplicate or 
substantially similar accounts'' for spamming purposes, and we 
aggressively enforce these rules as part of our overall anti-spam and 
Information Quality initiatives. Accordingly, it is not possible to 
disaggregate specifically duplicative accounts from the overall volume 
of accounts challenged or suspended on the basis of spamming or 
malicious activity on Twitter.
    Twitter does not proactively remove inactive accounts from the 
platform; however, we take a range of steps to ensure that inactive 
accounts remain secure. Consistent with our overall approach to account 
security, we may take steps to proactively lock down dormant or 
inactive accounts if we receive information that suggests they are at 
potential risk of compromise. We also employ real-time detections built 
to detect malicious or abnormal activity from inactive accounts which 
suddenly become active; an account which was previously inactive but 
suddenly begins producing a high volume of automated content would 
likely be challenged by our automated systems for detecting spamming or 
malicious activity.
    As noted above, Twitter's efforts to combat fake accounts generally 
take two forms: (1) measures to challenge accounts at signup and 
prevent the creation of fake accounts; and (2) measures to detect, 
challenge, and prevent spamming or malicious activity in real time. We 
continue to invest heavily in improving our signup process to prevent 
the creation of new fake accounts. However, fake accounts which already 
exist on the platform are challenged and remediated consistent with 
their activity. A ``fake'' account which is completely inactive on 
Twitter would likely not be caught by our detections until or unless it 
begins to engage in spamming or malicious activity.
    In terms of our monthly active users (``MAUs''), we have reported 
the following numbers over the last two years: 330 million in the 
fourth quarter of 2017; 330 million in third quarter of 2017; 326 
million in second quarter of 2017; 327 million in the first quarter of 
2017; 318 million in fourth quarter of 2016; 317 million in third 
quarter of 2016; 313 million in second quarter of 2016; and 310 million 
in the first quarter of 2016.
    We report the number of active users on the platform quarterly as 
part of our earnings report, which you can find here: https://
investor.twitterinc.com/results.cfm. As part of our commitment to 
transparency, since 2012, Twitter has published bi-annual Transparency 
Reports, reflecting the number of requests that we have received for 
user information and content removal on a per-country basis. See 
https://transparency.twitter.com/.

    Question 2. How does a user find out if they are being impersonated 
on Twitter? Does Twitter notify users proactively? Or are users 
expected to monitor the platform and report to Twitter?
    Answer. The Twitter Rules prohibit impersonation accounts. In 
response to reports--from either the user who is being impersonated or 
their authorized representatives--Twitter takes action against accounts 
that deceptively impersonate another user or account. Users and non-
users alike can report impersonation accounts through a dedicated form 
in our Help Center or directly from the impersonated account's profile 
on the platform.
    We are determined to expedite the suspension process for accounts 
deemed to be impersonating other users. Once we receive a report of 
potential user impersonation, we investigate the reported accounts to 
determine if the accounts are in violation of the Twitter Rules, which 
prohibit such profiles. Accounts determined to be in violation of our 
impersonation policy, or those not in compliance with our parody, 
commentary, and fan account policy, are either suspended or asked to 
update their profile so they no longer violate our policies.
    In addition, Twitter strictly prohibits the purchasing and selling 
of account interactions on our platform. We advise our users that, by 
purchasing followers, Retweets, and likes, they are often purchasing 
bots, fake, or hacked accounts. Accounts found to have purchased, sold, 
or promoted the selling of followers, Retweets, and likes are in 
violation of the Twitter Rules and may be subject to suspension. See 
https://help.twitter.com/en/rules-and-policies/twitter-rules. Twitter 
has initiated a process of reviewing such activity and accounts, 
including accounts that appear to impersonate an actual, existing user. 
Where we determine that an account is fake (or that it impersonates an 
existing user), we immediately suspend the account or require that it 
complete a series of challenges before it can resume engaging with the 
platform in order to verify that it belongs to an actual user.

    Question 3. What is the average number of days or hours that 
Twitter takes to investigate impersonation complaints before they are 
resolved?
    Answer. We address impersonation reports as we receive them. 
Depending on the source of the report, we may request additional 
information before we can take action. Because our response takes place 
on a case-by-case basis and involves a fact-specific inquiry and manual 
review by Twitter personnel, there is not a uniform frequency or 
pattern to such enforcement actions or an average response time that we 
are able to provide.

    Question 4. Does Twitter have a separate, expedited process for 
resolving impersonation of minors' accounts? Does Twitter know the age 
of its users?
    Answer. We take seriously all reported impersonations and any other 
such violations of the Twitter Rules. We address all such reports with 
the same expediency and strive to suspend as quickly as possible those 
accounts that have been found to violate our policy against 
impersonation. Children younger than 13 are not allowed to create 
accounts or otherwise use our platform.

    Question 5. Even a relatively small number of fake users can have 
an outsized impact in misleading voters. During the 2016 general 
election, there were 529 accounts that pushed incorrect, ``text-to-
vote'' tweets. A similar phenomenon happened during the Virginia 
gubernatorial election in 2017. How many users saw these tweets? How 
many users interacted with these tweets? Who were behind these two 
voter suppression campaigns? If it is still unknown, is Twitter working 
with law enforcement to identify the accounts' creators?
    Answer. During the period leading up to the 2016 election, Twitter 
labeled as ``restricted pending deletion'' a total of 918 such Tweets 
from 529 Twitter accounts. Assigning that label to a Tweet requires the 
user to delete the Tweet before the user is permitted to continue using 
the account and engage with the platform. So long as the Tweet has that 
label--and until the user deletes the tweet--the Tweet remains 
inaccessible to and hidden from all Twitter users. The user is blocked 
from Tweeting unless and until he or she deletes the labeled Tweet.
    Twitter's review indicates that the 918 labeled Tweets (a) were 
viewed 222,111 times (an average of 242 views per tweet (also known as 
``impressions'')); (b) liked by 10 users; (c) Retweeted by 801 users; 
and (d) received 318 replies.
    In addition to labeling the individual Tweets, Twitter permanently 
suspended 106 accounts that were collectively responsible for 734 
``vote-by-text'' Tweets. Twitter's review of the suspended accounts' 
history indicates that those 734 Tweets (a) were viewed 162,656 times; 
(b) liked by 75 users; (c) Retweeted by 603 users; and (d) received 153 
replies.
    Twitter identified an additional 286 Tweets from 239 Twitter 
accounts with the relevant voting-related content upon which Twitter 
did not take any action. Twitter determined that those Tweets 
propagated the content in order to refute the message and alert other 
users that the information is false and misleading. Those Tweets 
generated significantly greater engagement across the platform compared 
to the 918 Tweets that Twitter labeled and the 106 accounts that 
Twitter suspended. Specifically, the 286 refuting tweets (a) were 
viewed 1,634,063 times (an average of 5,714 impressions per Tweet); (b) 
liked by 358 users; (c) Retweeted by 11,620 users; and (d) Received 611 
replies.
    During the period leading up to the Virginia gubernatorial 
election, Twitter received reports about an account that posted similar 
Tweets. We suspended the user upon receiving those reports. Our action 
against this account is consistent with the approach we took against 
illegal voter suppression Tweets during the 2016 election. Here, 
however, and well before our manual review of the account's activity 
resulted in its permanent suspension, Twitter's automated spam 
detection systems identified malicious behavior originating from this 
account and took action to hide that user's Tweets from appearing in 
searches and counting toward trends. Those automated systems, which we 
continue to invest in as part of our Information Quality initiative, 
help us address emerging malicious behavior even before a human 
reviewer can assess the content.

    Question 6. Have there been any other voter suppression campaigns 
in elections following the 2016 general election--in the United States 
or abroad?
    Answer. Other than the voter suppression Tweets discussed in 
Question 5, Twitter is not aware of similar voter suppression 
campaigns.

    Question 7. Twitter has found 3,814 accounts so far linked with the 
Internet Research Agency (IRA) in a ``relevant time period'' to the 
2016 election. Of the 3,814 IRA-linked accounts, how many of these were 
automated bots? How many were trolls? How many were impersonations of 
real American users' accounts? If so, do you plan to notify the 
accounts' owners?
    Answer. We were able to determine that 307 of the 3,814 accounts 
that we have previously identified as linked to the IRA appear to be 
automated accounts. As we reported in our January 19 and January 31, 
2018, blog posts, we notified U.S.-based users with an active e-mail 
address if they had directly engaged with or actively followed one of 
the 3,814 IRA-linked accounts we had identified. See https://
blog.twitter.com/official/en_us//company/2018/2016-election-
update.html. In total, approximately 1.4 million Twitter users received 
a notification from Twitter.
    In addition, the Twitter Rules prohibit impersonation accounts. In 
response to reports--from either the user who is being impersonated or 
their authorized representatives--Twitter takes action against accounts 
that deceptively impersonate another user or account. Users and non-
users alike can report impersonation accounts through a dedicated form 
in our Help Center or directly from the impersonated account's profile 
on the platform.
    We are determined to expedite the suspension process for accounts 
deemed to be impersonating other users. Once we receive a report of 
potential user impersonation, we investigate the reported accounts to 
determine if the accounts are in violation of the Twitter Rules, which 
prohibit such profiles. Accounts determined to be in violation of our 
impersonation policy, or those not in compliance with our parody, 
commentary, and fan account policy, are either suspended or asked to 
update their profile so they no longer violate our policies.

    Question 8. What was the ``relevant time period'' under which 
Twitter found the 3,814 IRA-linked accounts? What was the justification 
for using this time period?
    Answer. Our search for IRA-linked accounts was not limited to a 
particular time period. We conducted a thorough review of data 
available to us in order to identify any account we could reasonably 
link to accounts we had previously determined to be associated with the 
IRA either by our independent research or through information provided 
to us by third parties (as discussed in greater detail below in 
response to Question 9).

    Question 9. The IRA has been targeting American users well before 
the 2016 election--for instance during Russia's invasion of Crimea in 
2014. When did Twitter first detect IRA activity on the platform? When 
did Twitter first detect IRA activity specifically targeting American 
users? From the first time Twitter detected IRA activity to the most 
recent time period available, how many accounts has the IRA created on 
Twitter?
    Answer. Twitter first identified and suspended IRA-linked accounts 
in June 2015 following a June 2, 2015, New York Times article about the 
IRA and its well-known online Kremlin propaganda activities. The 
Agency: From a Nondescript Office Building in St. Petersburg, Russia, 
an Army of Well-Paid ``Trolls'' Has Tried to Wreak Havoc All Around the 
Internet--and in Real-Life American Communities, NYTimes.com, available 
at https://www.nytimes.com/2015/06/07/magazine/the-agency.html?_r=0. 
Twitter suspended a total of 467 those accounts within days of the 
article's publication. Those accounts were suspended for violating 
Twitter's spam rules.
    On August 8, 2017, a third-party security firm provided Twitter 
with a report listing Russian-linked accounts that were suspected of 
being associated with the IRA. Twitter commenced its review of that 
list immediately. Based on that review, between August 8 and August 10, 
2017, Twitter suspended 473 accounts listed in the report for engaging 
in spam activity prohibited under the Twitter Rules.
    Also on August 8, 2017--but separately from the security firm 
report--Twitter's Information Security team received from Facebook a 
list of e-mail addresses, which Facebook indicated were connected to 
the IRA. Twitter reviewed that list and identified 22 accounts that 
matched the e-mail addresses that Facebook provided. All 22 accounts 
had already been suspended or were subsequently suspended. On August 
10, 2017, Facebook shared with Twitter account-related information for 
one additional Facebook account. Twitter identified 181 accounts that 
were linked or related to the 23 accounts that Facebook shared with us, 
bringing the total of Russian-related accounts under examination to 
204. As of August 22, 2017, all but 14 of those accounts had already 
been suspended or set in read-only mode pending phone number 
verification. Following a manual review of all 204 accounts, three were 
determined to be non-automated, legitimate users; those accounts remain 
active on the platform.
    Finally, in connection with our retrospective review of Russian 
interference in the 2016 U.S. election through activity on our 
platform, we identified additional accounts linked to the IRA, bringing 
the total number of such accounts to 2,752. And, as we reported in our 
January 19, 2018, update to Congress, through our continued analysis, 
we identified an additional 1,062, for a total of 3,814 IRA-linked 
accounts. All 3,814 IRA-linked accounts were suspended for Terms of 
Service violations, and all but a few compromised accounts that have 
subsequently been restored to their legitimate account owners remain 
suspended.

    Question 10. Between September 1 and November 15, 2016, 175,993 
tweets from IRA-linked accounts received a total of 351,632,679 
impressions within the first seven days after posting. And these tweets 
were retweeted 4,509,781 times. Out of the total number of impressions, 
how many were via organic reach vs. promoted or paid reach? How do 
these metrics compare to Twitter's typical performance benchmarks? 
Please give specific numbers, for instance, the number of impressions 
that an average tweet got between September 1 and November 15, 2016, 
for both organic reach vs. promoted or paid reach.
    Answer. None of the Tweets in question were promoted.
    The number of impressions on a Tweet can vary substantially 
depending on the content in question, its proliferation on Twitter and 
through other online channels, and the accounts responsible for posting 
or sharing it. For example, a user who has many followers will 
generally receive more impressions per Tweet than a user with a smaller 
number of followers. Similarly, a news organization embedding a Tweet 
in an article would likely generate an increase in the number of 
impressions--compared to Tweets with similar characteristics which were 
not embedded--given the additional impressions from off-platform views. 
Due to the variability of accounts, content, and sharing patterns on 
Twitter, we do not have a general or baseline measure of Tweet 
performance across different contexts.

    Question 11. How many users did the aforementioned 351,632,579 
impressions reach exactly? What technological tools (e.g., bots, third-
party applications) were used to drive up the number of impressions?
    Answer. Impression counts do not drive content ranking or content 
display and are not publicly visible in the Twitter product. We are not 
aware of specific attempts to manipulate the number of impressions on 
content--and believe that such attempts, if made, would not have 
appreciable impact on the Twitter platform.
    Due to the variability of accounts, content, and sharing patterns 
on Twitter, there is not a one-to-one correlation between impressions 
and Twitter users. Further, impressions will include the number of 
times a Tweet is viewed across a range of products (such as the Twitter 
website, mobile apps, or Tweets embedded on an external website), 
including by logged out users about whom Twitter has limited 
information. We do not have a way of measuring impressions on Tweets 
from any non-Twitter applications or tools, and impressions on content 
via third-party applications would not contribute to the overall 
impression count on a Tweet.

    Question 12. Twitter removed 935,000 accounts for terrorism 
promotion. How many of these were automated accounts?
    Answer. We do not track suspensions for promotion of terrorism in a 
manner that specifically flags automation. As we have previously noted 
in our blog posts on this subject, however, our proprietary spam-
fighting tools offer significant assistance in the fight against the 
dissemination of terrorist propaganda online. We are able to leverage 
our spam-fighting tools to stop the spread of this content given the 
prevalence of spam signals such as indicia of automation and attempts 
at ban evasion.

    Question 13. Please share more details about the medium of content 
in tweets identified with active measures. What percentage of these 
tweets are text only? Contain static image? Video? How many of these 
tweets embed an external hyperlink?
    Answer. Of the 175,993 Tweets posted by the 3,814 IRA-linked 
accounts during the election time period: approximately 92,000 embedded 
external hyperlinks; 114,000 were text only; 58,000 contained static 
images; and 3,000 contained videos.

    Question 14. Once an account is flagged by an algorithm for 
removal, what is the average amount of time before the account is 
removed from public view? After the account is removed from public 
view, what is the average amount of time before the data is deleted? 
Why is the data deleted rather than just removed from public view?
    Answer. Twitter systems are designed to take different steps with 
respect to different types of malicious activity on the platform. Our 
systems cast a wide net to detect and label malicious accounts or 
malicious activity, and we may take additional steps to confirm the 
accuracy of those processes before removing the content from public 
view. Those additional steps are designed to minimize false positives 
and inadvertent action against users who we ultimately determine not to 
be in violation of our policies.
    In other circumstances, where our automated tools operate with high 
precision, we may take more immediate action. Such circumstances 
include, but are not limited to, instances where we detect child sexual 
exploitation or malware on our platform. As a general matter, content 
removal on Twitter reflects a careful balancing of platform protection 
and individual user rights, and it requires constant evaluation and 
assessment to refine and improve upon our existing methodologies. Such 
frequent iterations and reexamination of our actions are critical to 
enhancing and improving our detection tools.
    Data from accounts that have been suspended from the Twitter 
platform are retained in order to inform and improve existing detection 
systems and for responding to requests from law enforcement.

    Question 15. What is Twitter's data retention policy, as it relates 
to the suspension of accounts for violating Twitter's terms of service? 
Does this policy apply to all parties--such as independent researchers, 
users, advertisers, and data brokers--in the same way?
    Answer. Data from accounts that have been suspended from the 
Twitter platform and are no longer publicly visible are retained in 
Twitter's internal systems for safety and security purposes, including 
to inform and improve existing detection systems.
    Through our API, we give developers and other third parties access 
to subsets of public Twitter content. Access to this publicly available 
data through our API is conditioned on acceptance of our policies, 
including the requirement that developers not use the API to undertake 
activities with respect to content that users have removed from the 
platform. Examples of situations this policy is designed to address 
include a parent deciding to remove pictures of their children if they 
have safety concerns or a college student removing Tweets as they 
prepare to apply for jobs. This is a long-standing Twitter policy.

    Question 16. Given the importance of collaborating with third-party 
or independent researchers to prevent further interference by Russia, 
will Twitter be updating its data retention policy?
    Answer. Twitter is committed to addressing how information spreads 
online, crosses between platforms and services, and raises the 
attention of voters, elected officials, and the media. Consistent with 
our commitment to transparency, we recognize that our efforts at 
addressing this issue must be part of a broader discussion about how 
important societal conversations take place online and how Russia has 
leveraged digital services, including Twitter, to interfere with U.S. 
elections. Indeed, cooperation to combat this challenge is essential. 
We cannot defeat this novel, shared threat alone. As with most 
technology-based threats, the best approach is to share information and 
ideas to increase our collective knowledge. Working with the broader 
community, we will continue to test, to learn, to share, and to 
improve, so that our product remains effective and safe.
    Twitter looks forward to continuing to work closely with third 
party researchers consistent with its commitment to transparency and 
improvement in these critical areas for democracy and elections. Last 
year, Twitter offboarded Russia Today and Sputnik as advertisers on our 
platform and dedicated the $1.9 million those accounts had spent on 
advertising globally on the platform to research in these areas.

    Question 17. Do hashes, as mentioned during the hearing, exist only 
for static images? What about video content? If hashes for video 
content are not yet fully deployed, please share the timeline to do so.
    Answer. Hashes are deployed for static images, in close partnership 
with industry groups, to fight terrorist content as well as child 
sexual exploitation online. We continue to work with peer companies and 
industry groups to expand on hash sharing partnerships, including 
through the potential use of hashes for video content. It is critical 
that these programs are deployed urgently, but also with careful cross-
industry collaboration and buy-in, to maximize the potential for shared 
success in fighting these challenges.

    Question 18. Last year, Twitter shared that 220,000 malicious 
applications were suspended for abuse of the Twitter application 
programming interface (API). How does Twitter define API abuse? Who 
created, managed, or plugged in the malicious applications to the 
Twitter API?
    Answer. Please see the answer to question 19 below.

    Question 19. How often does Twitter monitor the network of 
applications that use the Twitter API? Is suspension done on a rolling 
basis? Is it solely up to Twitter employees (rather than its users or 
developer community) to identify malicious applications?
    Answer. Any developer signing up for access to Twitter's API is 
required to agree to the Developer Agreement and Policy prior to 
obtaining access. See https://t.co/devpolicy. The Developer Agreement, 
Developer Policy, Automation Rules (https://t.co/automation), Display 
Requirements (https://developer.twitter.com/en/developer-terms/display-
requirements), and Geo Guidelines (https://developer.twitter.com
/en/developer-terms/geo-guidelines) collectively make up the body of 
rules that govern developers' use of our platform. We also make 
available to developers additional guidance regarding how to interpret 
and implement these guidelines, either via our Developer website (e.g. 
https://developer.twitter.com/en/developer-terms/more-on-restricted-
use-cases) or via the Twitter Community forums (https://twittercom
munity.com/c/dev-platform-feedback/rules-and-policies).
    At this time, subject to limits on use as well as automated and 
human review for policy compliance, any user with a valid Twitter 
account can register for access to Twitter's API. As we noted in our 
January 19, 2018, blog post, we are currently working on introducing an 
improved developer onboarding process to better manage the use cases 
for developers building on Twitter's platform. See https://blog
.twitter.com/developer/en_us/topics/tools/2017/introducing-twitter-
premium-apis
.html.
    Twitter enforces the terms of the Twitter API through multiple 
channels. Through Twitter's compliance team, we investigate and address 
instances of potential violations of Twitter's policies with respect to 
Twitter's commercial data products. We also work with third parties and 
other stakeholders to investigate and address other reported abuses of 
our APIs. As with any community, our enforcement mechanisms are best 
served by a combination of affirmative steps and reactive 
investigations that we take to address concerns raised by community 
members in order to protect our users and customers.

    Question 20. In terms of dollars and percentage of annual revenue, 
how much is Twitter now spending on preventing foreign interference 
with our elections? What was the figure in the election cycle leading 
up to November 2016? What is the projected spend leading up to November 
2018?
    Answer. As we stated in our February 8, 2018, shareholder letter, 
Twitter continues to invest considerable resources in our Information 
Quality efforts. See http://files.shareholder.com/downloads/AMDA-
2F526X/5990710870x0x970892/F9B4F616-659A-454B-89C6-28480DA53CCA/
Q4_2017_Shareholder_Letter.pdf
    Based on the understanding we have gained from our retrospective 
review, we have also established an internal, cross-functional team 
dedicated to addressing election-related instances of abuse on Twitter, 
as we discussed with the Senate Commerce Committee in January.
    The election team will address this challenge in a number of ways. 
Among other things, to detect and promptly address impersonation 
attempts, the team will verify major party candidates for all statewide 
and Federal offices, as well as all major national party accounts. In 
addition to monitoring and enforcing the Twitter Terms of Service and 
Twitter Rules, the election team will cooperate and communicate with 
Federal and state election officials to swiftly escalate and address in 
real time attempts at election interference. And consistent with 
Twitter's commitment to curtailing malicious automation, spam, and 
false accounts on our platform, the election team will focus on 
deploying our proprietary tools specifically to detect and stop 
malicious election-related activity.

    Question 21. Congress will judge success not by Twitter's efforts 
but by its results. How will Twitter measure its success? Will Twitter 
be conducting an audit after November 2018? When will the results be 
shared?
    Answer. Twitter will continue to work closely with Congress, our 
industry peers, civil society, experts, and law enforcement agencies to 
consider these challenges and novel threats for Twitter, the Internet, 
and society as a whole. We are committed to addressing, mitigating, and 
ultimately preventing any future attempts to interfere in elections and 
the democratic process, and to doing so in the most transparent way 
possible. We look forward to continuing to provide information to the 
Committee about malicious activity we detect on our platforms and the 
measures we take to address such activity.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                           Carlos Monje, Jr.
    Question 1. Mr. Monje, you note in your testimony that Twitter's 
effective anti-spam technology--which the company will be using to 
address networks of malicious bots attempting to interfere with the 
2018 U.S. midterms--is ``in-house proprietary.'' At the same time, you 
tout Twitter's record of and support for industry collaboration. 
Wouldn't that collaboration--as well as our shared fight against 
Russian active measures--be improved by Twitter sharing its anti-spam 
technology with other social media companies? Do you share that 
technology with others?
    Answer. We agree that collaboration with our industry peers and 
civil society is critically important to addressing common threats and 
that it has been successful in meeting shared challenges. In June 2017, 
for example, we launched the Global Internet Forum to Counter Terrorism 
(the ``GIFCT''), a partnership among Twitter, YouTube, Facebook, and 
Microsoft. The GIFCT facilitates, among other things, information 
sharing; technical cooperation; and research collaboration, including 
with academic institutions. In September 2017, the members of the GIFCT 
announced a multimillion dollar commitment to support research on 
terrorist abuse of the Internet and how governments, tech companies, 
and civil society can respond effectively. We are looking to establish 
a network of experts that can develop these platform-agnostic research 
questions and analysis that consider a range of geopolitical contexts. 
The GIFCT opened a call for proposals in December 2017 and we look 
forward to sharing further details of the initial projects this year.
    The GIFCT has created a shared industry database of ``hashes''--
unique digital ``fingerprints''--for violent terrorist imagery or 
terrorist recruitment videos or images that have been removed from our 
individual services. The database allows a company that discovers 
terrorist content on one of its sites to create a digital fingerprint 
and share it with the other companies in the forum, who can then use 
those hashes to identify such content on their services or platforms, 
review against their respective policies and individual rules, and 
remove matching content as appropriate, or even block extremist content 
before it is posted in the first place. The database now contains more 
than 40,000 hashes. Instagram, Justpaste.it, LinkedIn, Oath, and Snap 
have also joined this initiative, and we are working to add several 
additional companies in 2018. Twitter also participates in the 
Technology Coalition, which shares images to counter child abuse.
    Because each platform is unique, there are many elements of our 
coordinated work that do not translate easily across platforms. 
Although we share with other companies our approach to addressing 
shared threats, including certain signals that we use to identify 
malicious content, solutions applicable to the Twitter platform are not 
always applicable to other companies. We describe our tools as ``in-
house and proprietary'' to distinguish them from tools that are 
developed by and licensed from third-party vendors.

    Question 2. Mr. Monje, ensuring Americans know the source of 
political advertising on social media is one of the best ways to combat 
interference in U.S. elections by foreign actors. Put simply, we should 
apply to social media the same rules that apply to TV and print media. 
Please tell us more about Twitter's Ads Transparency Center, including 
the status of implementation and any hurdles you foresee.
    Answer. Twitter's approach to greater transparency in political 
advertising centers on two components: a new electioneering policy and 
an industry-leading Transparency Center. We expect to roll out the new 
policy in the U.S. during the first quarter of 2018. To make it clear 
when a user is viewing or engaging with content considered to be an 
electioneering ad, our policy will require that advertisers that meet 
the definition of electioneering to identify their campaigns as such. 
We will also change the interface of such ads and include a visual 
political ad indicator (see, e.g., Fig. 1 below).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Twitter's definition of electioneering ads will be derived from the 
FEC regulations' definition of that term, which includes any broadcast, 
cable, or satellite communication that refers clearly to a candidate 
for Federal office, is published 60 days before a general election or 
30 days before a primary, convention, or caucus, and is targeted to the 
relevant electorate (if the candidate is running for Congress).
    The goal of the Transparency Center is to offer the public 
increased visibility into all advertising on the platform and to 
provide users with tools to share feedback with us. With respect to 
electioneering ads and the Transparency Center, we intend to better 
enable users and outside parties to conduct their own research or 
evaluation regarding particular ads. Electioneering ads information 
accessible through the Transparency Center will include, among other 
things, the identity of the organization funding the campaign, all ads 
that are currently running or have run on Twitter, campaign spend, and 
targeting demographics for specific ads or campaigns. We plan to launch 
the Transparency Center as soon as feasible after rolling out our 
electioneering policy in the first quarter of 2018, and we are 
continuing to refine the tools we will make available in conjunction 
with launching the Transparency Center to ensure the best experience 
for our users.

    Question 3. In the context of extremist content, I would like to 
learn more about each company's policy for proactively reporting users 
to law enforcement. I understand your companies evaluate and respond to 
law enforcement requests for information, but what framework do you use 
to proactively report terrorist-related content to authorities, 
including any identifying information of the user? For example, if you 
use a standard of imminent harm, how do you define and apply it, 
particularly in a threat environment where terrorist organizations 
often call on recruits to attack carefully planned targets of 
opportunity, rather than to launch an immediate, indiscriminate attack?
    Answer. Twitter actively works on establishing and maintaining 
close relationships with law enforcement by providing ongoing training 
opportunities and through recurring meetings that allow for urgent, 
proactive outreach in the event Twitter becomes aware of imminent harm 
related to content on the platform. In these circumstances, it is of 
paramount importance that relationships allow for immediate connection 
at any time, day or night. This includes regularly working with the 
F.B.I. on domestic issues and U.S. legal attaches across the globe to 
assist in vetting complex international situations. The circumstances 
leading to proactive reporting will depend on the nature of the issue. 
Typically, when we become aware of content on one of Twitter's products 
that contains a serious immediate threat or an actual depiction of live 
physical violence, whether of harm to one's self or to other persons, 
Twitter will proactively contact law enforcement or other appropriate 
authorities so they can properly assess the nature of the situation. As 
noted in Twitter's Law Enforcement Guidelines, our emergency request 
protocols are covered 24/7, every day of the year. Twitter evaluates 
emergency disclosure requests on a case-by-case basis in compliance 
with relevant law (e.g., 18 U.S.C. Sec. 2702(b)(8)). If we receive 
information that provides us with a good faith belief that there is an 
exigent emergency involving the danger of death or serious physical 
injury to a person, we may provide information necessary to prevent 
that harm, if we have it. Where law enforcement believes identifying 
information is warranted, we can immediately provide such information 
through our emergency response protocols.

    Question 4. I would like to hear from the companies whether they 
support implementing Mr. Watts's recommendations to: first, fully 
certify the authenticity of all users--in other words, ensure that each 
user is a real person; and second, eliminate social bot networks to 
reduce automated broadcasting of disinformation.
    Answer. We have dramatically improved our ability to identify and 
disrupt social bot networks, as explained elsewhere in these responses. 
Using malicious automation is a violation of our terms of service and 
we action accounts with increasing effectiveness.
    Twitter is committed to defending the voices of our users, 
including those who rely on anonymous or pseudonymous accounts to do 
their work safely. Journalists, activists, political dissidents, 
whistleblowers, and human rights practitioners have been imprisoned, 
tortured and worse on the basis of their personally identifiable 
information online. This decision to protect their identity was made in 
consultation with leading NGOs working on the front lines of these 
issues worldwide. We seek to protect them on Twitter.

    Question 5. What are the indicators that you use to identify a 
Russian disinformation account, whether from the Kremlin's so-called 
Internet Research Agency or an associated group of hackers or trolls, 
and what thresholds must be met to disable an account?
    Answer. We relied on a number of different sources in order to 
identify accounts linked to the IRA. Twitter first identified and 
suspended IRA-linked accounts in June 2015 following a June 2, 2015, 
New York Times article about the IRA and its well-known online Kremlin 
propaganda activities. The Agency: From a Nondescript Office Building 
in St. Petersburg, Russia, an Army of Well-Paid ``Trolls'' Has Tried to 
Wreak Havoc All Around the Internet--and in Real-Life American 
Communities, NYTimes.com, available at https://www.nytimes.com/2015/06/
07/magazine/the-agency.html?_r=0. Twitter suspended a total of 467 
those accounts within days of the article's publication. Those accounts 
were suspended for violating Twitter's anti-spam rules.
    On August 8, 2017, a third-party security firm provided Twitter 
with a report listing Russian-linked accounts that were suspected of 
being associated with the IRA. Twitter commenced its review of that 
list immediately. Based on that review, between August 8 and August 10, 
2017, Twitter suspended 473 accounts listed in the report for engaging 
in spam activity prohibited under the Twitter Rules.
    Also on August 8, 2017--but separately from the security firm 
report--Twitter's Information Security team received from Facebook a 
list of e-mail addresses, which Facebook indicated were connected to 
the IRA. Twitter reviewed that list and identified 22 accounts that 
matched the e-mail addresses that Facebook provided. All 22 accounts 
had already been suspended or were subsequently suspended. On August 
10, 2017, Facebook shared with Twitter account-related information for 
one additional Facebook account. Twitter identified 181 accounts that 
were linked or related to the 23 accounts that Facebook shared with us, 
bringing the total of Russian-related accounts under examination to 
204. As of August 22, 2017, all but 14 of those accounts had already 
been suspended or set in read-only mode pending phone number 
verification. Following a manual review of all 204 accounts, three were 
determined to be non-automated, legitimate users; those accounts remain 
active on the platform.
    Finally, in connection with our retrospective review of Russian 
interference in the 2016 U.S. election through activity on our 
platform, we identified additional accounts linked to the IRA, bringing 
the total number of such accounts to 2,752. And, as we reported in our 
January 19, 2018, update to Congress, through our continued analysis, 
we identified an additional 1,062, for a total of 3,814 IRA-linked 
accounts. All 3,814 IRA-linked accounts were suspended for Twitter 
Terms of Service violations, and all but a few compromised accounts 
that have subsequently been restored to their legitimate account owners 
remain suspended.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Carlos Monje, Jr.
    Question 1. During my time as the Attorney General for the State of 
Nevada, I saw too many instances of sex trafficking cases involving 
child victims that were dismissed because the conduct occurred online 
or through social media. So that's why I'm a strong supporter of the 
Stop Enabling Sex Traffickers Act of 2017 (SESTA), which clarifies the 
Communications Decency Act (CDA) to allow state Attorneys General to 
retain their jurisdiction to prosecute those who facilitate human 
trafficking. We know that trafficking is happening online and on social 
media, and SESTA is the only current legislative proposal that provides 
sufficient deterrence to traffickers by providing the necessary tools 
for successful prosecutions. As a former prosecutor, I know what it 
will take to successfully prosecute those who engage in sex trafficking 
through social media and other websites, and that's why I believe that 
the House version of SESTA doesn't go far enough to give prosecutors 
the tools they need to protect sex trafficking victims. I hope that 
your organizations all agree that victims of sex trafficking deserve 
meaningful protections and justice.
    If so, I'd like to hear whether you will continue to support SESTA 
over the weaker U.S. House version of the bill.
    Answer. The answer to Question 1 has been provide in response to 
Question 2 below.

    Question 2. I was glad to hear that the Internet Association 
supports SESTA, and I'd like to know what else your organization is 
doing to address concerns about sex trafficking occurring on your 
platforms and helping us pass this important legislation in the Senate.
    Answer. Human trafficking or the facilitation of such activities 
have no place on Twitter. Twitter is deeply committed to working 
together with Congress, law enforcement, victims groups, and NGOs to 
combat such heinous crimes. To that end, we take a multifaceted 
approach to this issue.
    We do not tolerate child sexual exploitation on Twitter. When we 
are made aware of links to images of or content promoting child sexual 
exploitation, they will be removed from the site without further notice 
and reported to The National Center for Missing & Exploited Children 
(or ``NCMEC''). We also permanently suspend accounts promoting or 
containing links to child sexual exploitation or engaging in child sex 
trafficking. Furthermore, we take measures to discourage repeat signups 
from these users.
    More broadly, sharing explicit sexual images or videos of someone 
online without their consent is a violation of their privacy and one of 
the most serious violations of the Twitter Rules. We will suspend any 
account we identify as the original poster of intimate media that has 
been produced or distributed without the subject's consent. We will 
also suspend any account dedicated to posting this type of content.
    Twitter works with NGOs and victims' groups which focus on counter-
child sex trafficking measures, including Love146, Thorn and NCMEC--all 
of which serve on our Twitter Trust Council.
    Twitter is also a member of and serves as the current chair of the 
Technology Coalition, powered by leaders in the Internet services 
sector. Formed in 2006, the Coalition's vision is to eradicate online 
child sexual exploitation. The group's strategy is to sponsor the 
development of technology solutions that disrupt the ability to use the 
Internet to exploit children or distribute child pornography. The 
Technology Coalition works with the NCMEC and its sister agency, the 
International Centre for Missing & Exploited Children (the ``ICMEC''), 
to identify and propagate technology solutions that create effective 
disruption.
    In addition, the Technology Coalition seeks and creates platforms 
for collaboration with the private and public sectors for the creation 
of standards, the sharing of best practices, and similar initiatives 
that advance the fight against online sexual exploitation of children.
    The Technology Coalition's efforts are structured with a view 
toward balancing the privacy interests of Internet users with its 
mission to eradicate online child sexual exploitation.
    We also have close working relationships with law enforcement and 
expeditiously review and action legal requests. Guidelines intended for 
law enforcement authorities seeking information about Twitter accounts 
are posted on our website. Information concerning requests to withhold 
content on Twitter is available. More general information is available 
in our Privacy Policy, Terms of Service, and Twitter Rules.
    Twitter has been an active participant in Congress' recent efforts 
to address human trafficking. Our team has held dozens of meetings with 
lawmakers to engage in meaningful dialogue about how we can work 
together to meet this challenge.

    Question 3. Over the past few months, our country has been 
reckoning with some hard truths about the way that women and minorities 
are treated in the workplace. And I think this is a moment for all 
types of organizations, including tech giants like the ones represented 
here, to take a clear-eyed accounting of their culture and practices, 
to take responsibility for what hasn't worked, and to renew their 
commitments to make meaningful improvements. The Equal Employment 
Opportunity Commission's 2016 report on ``Diversity in High Tech'' 
found that women, African Americans, and Hispanics are all represented 
at significantly lower levels in high tech than in private industry as 
a whole. And while recent internal studies at Facebook and Google have 
showed some progress in the hiring of women, there has not been equal 
improvement in the representation of people of color and other 
underrepresented groups.
    What technically qualifies as diversity to your organization?
    Answer. Twitter takes a holistic approach to the way we define 
diversity. At Twitter, diversity includes the hiring, retention and 
advancement of individuals with protected characteristics (e.g., age, 
gender, race, sexual orientation, etc.). However, these are not the 
only characteristics that impact our diversity profile. We value the 
uniqueness of our people. This means that we challenge ourselves to 
hire talented people who have different ideas, perspectives, and 
approaches to the work. In our experience, diversity allows employees 
to feel comfortable sharing the intersectionality of who they are as 
individuals, which leads to the exchange and development of cutting-
edge ideas.

    Question 4. How is your company working to address issues of 
discrimination in your own workforces?
    Answer. At Twitter we value inclusion and diversity. For that 
reason, we have a multi-tiered approach to addressing discrimination in 
the workplace. Some of the methods we use include, but are not limited 
to, clear and accessible policies against discrimination; consistent 
messaging to employees that discrimination is not tolerated at Twitter; 
an active Inclusion & Diversity team; annual training for our people 
managers to ensure they are equipped to promptly respond to any issue 
that may be perceived as discriminatory; a dedicated hotline for 
employees to report concerns of discrimination; and an Employee 
Relations (``ER'') Team that is responsible for prompt, thorough and 
neutral investigation of discrimination complaints.
    We also sponsor Business Resource Groups (``BRGs''), which are an 
excellent support system within Twitter to foster awareness, respect, 
and inclusion within the workplace. These groups include Blackbirds 
(African American), Twitter Alas (Hispanic/LatinX), Twitter Women, and 
Twitter Open (LGBTQ). BRGs serve as a sounding board around strategic 
diversity objectives within the organization to help create a more 
inclusive work environment.
    In addition, Twitter's Diversity Advisory Council offers 
suggestions and advice on strategies. The Council provides a forum for 
sharing best practices across the tech industry and in the field of 
diversity and inclusion. We are continuously assessing the work 
environment at Twitter, conducting periodic pulse surveys of employees 
and hosting lunches for women and people of color.

    Question 5. Do you believe those efforts are sufficient?
    Answer. Twitter's current anti-discrimination practices are 
targeted to foster a fair, inclusive, and healthy environment, and they 
exceed the minimum legal standards in every jurisdiction in which we 
operate. To that end, while we believe that our efforts are sufficient, 
we will continue to work to exceed minimal requirements and strive to 
be an industry leader in this area.

    Question 6. I've seen that Facebook works to make their labor 
diversity information public, can you provide a status on your labor 
figures, or commit to sharing those with the Committee and the public?
    Answer. We commit to sharing labor diversity information with the 
Committee and the public. The latest report can be found here: https://
blog.twitter.com/en_us/topics/company/2017/building-a-more-inclusive-
twitter-in-2016.html.

    Question 7. We know that so-called talent pipelines are not the 
only obstacle to achieving a diverse workforce, and that discrimination 
and harassment go hand in hand, distorting the operation of workplace 
meritocracies. This is a moment when many victims of sexual assault and 
harassment are bravely coming forward about their experiences, allowing 
us to get a better sense of the true scope and effects of this 
behavior. Persistent harassment, and the workplace culture that 
tolerates, ignores, or even encourages such harassment, pushes people 
out of their workplaces, stalls or derails promising careers, and 
discourages some from pursuing certain opportunities altogether.
    What is your company doing to evaluate the impact of harassment in 
your workforces?
    Answer. Twitter conducts periodic and annual reviews and analysis 
of Employee Relations data.

    Question 8. How are you working to create a culture where 
harassment is no longer tolerated?
    Answer. Twitter maintains and enforces a clear and accessible 
policy against sexual harassment. We foster an environment that 
encourages employees to report concerns and maintain proper complaint 
procedures for reporting concerns. Employee Relations promptly 
investigates all allegations of sexual harassment. We provide annual 
sexual harassment training for all managers and provide team and 
individualized training on an as-needed basis.

    Question 9. What more could you be doing to be a positive example 
for other companies and industries?
    Answer. Building and maintaining a diverse workforce and fostering 
a culture of inclusion is a top priority for our company. Recognizing 
that our platform serves as a powerful tool to educate and facilitate 
conversations around these topics, we recently launched the Twitter 
handle, @TwitterTogether, which allows Twitter users, industry peers, 
and the public to learn about internal and external activities 
happening at Twitter Inc.

    Question 10. Last October, Facebook announced that it would be 
improving transparency for all ads run on its platform, including by 
requiring political advertisers to include a disclaimer telling viewers 
who paid for an ad, and allowing viewers to see all the ads a page is 
running, even those that aren't targeting them. Twitter also announced 
similar measures. Although these policies were announced in response to 
Russia using social media to interfere in our elections, it seems these 
transparency measures could help shine a spotlight on other forms of 
influence campaigns by extremists or terrorists.
    Answer. Can you provide an update on the status of these measures?
    Twitter's approach to greater transparency in political advertising 
centers on two components: a new electioneering policy and an industry-
leading Transparency Center. We expect to roll out the new policy in 
the U.S. during the first quarter of 2018.
    To make it clear when a user is viewing or engaging with content 
considered to be an electioneering ad, our policy will require that 
advertisers that meet the definition of electioneering to identify 
their campaigns as such. We will also change the interface of such ads 
and include a visual political ad indicator (see, e.g., Fig. 1 below).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The goal of the Transparency Center is to offer the public 
increased visibility into all advertising on the platform, and to 
provide users with tools to share feedback with us. With respect to 
electioneering ads and the Transparency Center, we intend to better 
enable users and outside parties to conduct their own research or 
evaluation regarding particular ads. Electioneering ads information 
accessible through the Transparency Center will include, among other 
things, the identity of the organization funding the campaign, all ads 
that are currently running or have run on Twitter, campaign spend, and 
targeting demographics for specific ads or campaigns.

    Question 11. When can we expect to see them fully implemented?
    Answer. We plan to launch the Transparency Center as soon as 
feasible after rolling out our electioneering policy in the first 
quarter of 2018, and we are continuing to refine the tools we will make 
available in conjunction with launching the Transparency Center to 
ensure the best experience for our users.

    Question 12. How are you defining what constitutes a political ad 
subject to these heightened transparency requirements?
    Answer. Twitter's definition of electioneering ads will be derived 
from the FEC regulations' definition of that term, which includes any 
broadcast, cable, or satellite communication that refers clearly to a 
candidate for Federal office, is published 60 days before a general 
election or 30 days before a primary, convention, or caucus, and is 
targeted to the relevant electorate (if the candidate is running for 
Congress).

    Question 13. On January 29, the Director of the Central 
Intelligence Agency said he expects the Russian government to attempt 
to influence the 2018 elections in this country.
    What efforts is Twitter undertaking in the lead up to the 2018 
elections to identify and close the platform's remaining 
vulnerabilities to foreign exploitation?
    Answer. Our efforts to detect and stop malicious activity on our 
platform continue, particularly in the context of elections. Based on 
the understanding we have gained from our retrospective review of 
activity on our platform during the period leading up to the 2016 
election, we have established an internal, cross-functional team 
dedicated to addressing election-related instances of abuse on Twitter, 
as we discussed with the Committee during the January 17, 2018, 
hearing.
    The election team will address this challenge in a number of ways. 
Among other things, to detect and promptly address impersonation 
attempts, the team will verify major party candidates for all statewide 
and Federal offices, as well as all major national party accounts. In 
addition to monitoring and enforcing the Twitter Terms of Service and 
Twitter Rules, the election team will cooperate and communicate with 
Federal and state election officials to swiftly escalate and address in 
real time attempts at election interference. And consistent with 
Twitter's commitment to curtailing malicious automation, spam, and 
false accounts on our platform, the election team will focus on 
deploying our proprietary tools specifically to detect and stop 
malicious election-related activity.

    Question 14. What assistance can Federal, state and local 
government entities provide in that effort?
    Answer. Twitter was pleased to learn that the Federal Bureau of 
Investigation (``FBI'') has launched a Task Force to assist companies 
and the public in identifying foreign manipulation efforts through 
social media platforms. We believe that Federal law enforcement 
agencies are uniquely positioned to access, synthesize, and comprehend 
disparate sources of intelligence, and to alert the public, Congress, 
and social media companies of their findings in a way that provides 
broader picture of the activity.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jerry Moran to 
                              Clint Watts
    Question. What is the benefit to social media companies employing 
human verification systems? How prevalent are the use of ``social 
bots'' by extremists?
    Answer. Social bots allow the replication of anonymous accounts to 
promote and distribute falsehoods or manipulated truths at such high 
volumes that they alter the perceptions of reality and blur the line 
between fact and fiction. Human verification systems will prevent the 
computer generation of bots by ensuring real people, not computer 
programs that replicate accounts, are behind the communications on 
their platforms. This will limit the creation of social bots and 
increase real human communication on social media platforms. Social 
media companies should also want to implement these controls as it 
improves the integrity of their systems and ensures the authenticity of 
accounts on the platform.
    As for extremist use of bots, I am less familiar. The Islamic State 
did try to construct its own applications, but I'm not aware of any 
terrorist group employing social bots on a large scale. I'd recommend 
contacting J.M. Berger, co-author of ISIS: The State of Terror who may 
have greater insight into terrorists' use of social bots.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                              Clint Watts
    Question 1. Mr. Watts, what lessons are other authoritarians and 
adversarial nations learning from Russia's malign activities on social 
media? Do you see others copying the Russian playbook?
    Answer. Authoritarian regimes have begun using the Kremlin playbook 
largely to suppress internal political dissent. The two most recent and 
poignant examples of this phenomenon are the violent oppression and 
uprooting of the Rohingya population in Myanmar. Media reports suggest 
a large portion of the content on Facebook contains false information 
and smears against this minority Muslim population in Myanmar, which 
has created a refugee crisis in Bangladesh. The Myanmar government and 
many of its security services members now seek to rewrite history by 
denying the oppression of the Rohingya or that the group even 
exists.\1\
---------------------------------------------------------------------------
    \1\ See Hannah Beech, ``No Such Thing as Rohingya': Myanmar Erases 
a History.'' New York Times, 2 December 2017 available at: https://
www.nytimes.com/2017/12/02/world/asia/myanmar-
rohingya_denial_history.html.
---------------------------------------------------------------------------
    The Philippines leader Rodrigo Duterte also uses Facebook to 
suppress internal domestic challenges to his rule and promote his 
regime's authoritarian actions.\2\ The most startling development has 
been U.S. political campaigns and associated political action groups, 
which have adopted similar tactics and in some cases have hired public 
relations companies to replicate the same methods employed by the 
Kremlin. In short, absent regulation and political leadership, 
everyone, in America and abroad, will be using these tactics on their 
political opponents.
---------------------------------------------------------------------------
    \2\ See Lauren Etter, ``What Happens When the Government Uses 
Facebook As A Weapon?'', Bloomberg, 7 December 2017 available at 
https://www.bloomberg.com/news/features/2017-12-07/how-rodrigo-duterte-
turned-facebook-into-a-weapon-wtih-a-little-health-from-facebook.

    Question 2. If so, how does that impact U.S. interests and how 
would you assess the current administration's efforts to respond?
    Answer. The U.S. in nearly all theaters and countries around the 
world has seen its public image under attack and tarnished. As an 
asymmetric approach, nefarious social media influence against the U.S. 
is the most effective and least expensive method for undermining 
America's power around the world, affecting our military, economic and 
diplomatic strength and harming American companies. With regards to the 
current administration's response, I've briefed nearly every element of 
the U.S. Federal Government on the threat of Russian influence 
operations in social media, and I've not been able to glean what their 
strategy might be. I'm uncertain why there has not been concerted 
action to counter the Kremlin despite so much of U.S. public discussion 
and debate on the topic. I cannot imagine how an administration could 
do less to respond on such a critical national security issue.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
